<html>
<title> - ESEA REAUTHORIZATION: EARLY CHILDHOOD EDUCATION</title>
<body><pre>[Senate Hearing 111-1133]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 111-1133
 
            ESEA REAUTHORIZATION: EARLY CHILDHOOD EDUCATION 

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

        EXAMINING ELEMENTARY AND SECONDARY EDUCATION ACT (ESEA) 
         REAUTHORIZATION, FOCUSING ON EARLY CHILDHOOD EDUCATION

                               __________

                              MAY 25, 2010

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

56-846 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut           MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland              JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico                  LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington                   RICHARD BURR, North Carolina
JACK REED, Rhode Island                    JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont               JOHN McCAIN, Arizona
SHERROD BROWN, Ohio                        ORRIN G. HATCH, Utah
ROBERT P. CASEY, JR., Pennsylvania         LISA MURKOWSKI, Alaska
KAY R. HAGAN, North Carolina               TOM COBURN, M.D., Oklahoma
JEFF MERKLEY, Oregon                       PAT ROBERTS, Kansas
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado
                                       
                                       

                      Daniel Smith, Staff Director

                  Pamela Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)

  

                            C O N T E N T S

                               __________

                               STATEMENTS

                         TUESDAY, MAY 25, 2010

                                                                   Page
Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Burr, Richard, a U.S. Senator from the State of North Carolina, 
  opening statement..............................................     2
Griswell, J. Barry, Board Member, Former Chairman and Retired 
  Chief Executive Officer of Principal Financial Group, President 
  of the Community Foundation of Greater Des Moines, and a Member 
  of the Berry College Board of Trustees, Des Moines, IA.........     5
    Prepared statement...........................................     7
Schweinhart, Lawrence J., Ph.D., President, High/Scope 
  Educational Research Foundation, Ypsilanti, MI.................     9
    Prepared statement...........................................    11
Pianta, Robert C., Professor of Education, University of 
  Virginia, Charlottesville, VA..................................    18
    Prepared statement...........................................    21
Zalkind, Henrietta, Executive Director, Down East Partnership for 
  Children, Rocky Mount, NC......................................    30
    Prepared statement...........................................    32
Brown, Hon. Sherrod, a U.S. Senator from the State of Ohio.......    46
Sanders, Hon. Bernard, a U.S. Senator from the State of Vermont..    48
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    51
Murray, Hon. Patty, a U.S. Senator from the State of Washington..    52
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    55
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    57
    Prepared statement...........................................    59
Dodd, Hon. Christopher J., a U.S. Senator from the State of 
  Connecticut....................................................    62
Merkley, Hon. Jeff, a U.S. Senator from the State of Oregon......    66
Hagan, Hon. Kay R., a U.S. Senator from the State of North 
  Carolina.......................................................    68

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Richard (Rick) Stephens, Senior Vice President, Human 
      Resources and Administration, The Boeing Company...........    75

                                 (iii)

  


            ESEA REAUTHORIZATION: EARLY CHILDHOOD EDUCATION

                              ----------                              


                         TUESDAY, MAY 25, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 p.m. in Room 
SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Dodd, Murray, Sanders, Brown, 
Casey, Hagan, Merkley, Franken, Bennet, and Burr.

                  Opening Statement of Senator Harkin

    The Chairman. The hearing of the Health, Education, Labor, 
and Pensions Committee will come to order.
    I welcome everyone to our 10th hearing on the 
reauthorization of the Elementary and Secondary Education Act. 
Today's discussion will inform us about what we can do to 
ensure that more young children begin their elementary school 
education fully prepared to learn and succeed.
    We all know that learning starts at birth, and the 
preparation for learning starts even before birth. Yet over 
three-quarters of children ages 3 to 4 do not have access to 
the early learning opportunities they need. As a result, 
nationwide, we spend billions of dollars trying to close the 
gaps in student achievement that could be tempered by investing 
in high-quality early learning opportunities.
    By the time most children from low-income families reach 
kindergarten, their achievement levels are an average of 60 
percent behind those of their peers from more affluent 
backgrounds. These same children also tend to possess 
vocabularies only one-third the size of their middle-class 
peers. We know that high-quality early learning opportunities 
provided by committed, well-trained, and caring providers can 
enable children to overcome these challenges and close this 
gap.
    A solid initial investment in young children will save us 
billions in future spending on remedial education, criminal 
justice, health, and welfare programs. Children who participate 
in comprehensive high-quality early education programs are also 
more likely, over their lifetimes, to be healthier, more 
steadily employed, and earn higher incomes and, of course, to 
lead more productive and fulfilling lives.
    ESEA reauthorization offers an important opportunity to 
help States and school districts ensure that more young 
children are prepared to succeed in school. To ensure that 
school leaders and teachers have the skills and resources they 
need to support early learning, we have to think about how 
early education programs can better align with existing K 
through 12 systems.
    So reauthorization of ESEA also gives us an opportunity to 
clarify and strengthen current law, directing States, school 
districts, and schools to coordinate title I activities with 
Head Start programs and other early childhood development 
programs.
    We have had a lot of important hearings. This is our 10th 
one in this series, but I think this one today gets it where we 
have sorely been lacking in the last, pick your number of 
years--20, 50, 30, 40--somewhere in there, or maybe more.
    I always hold up this book at hearings like this. This is a 
book called ``The Unfinished Agenda: A New Vision for Child 
Development and Education,'' put out by the Committee for 
Economic Development. Actually, it was a subcommittee of the 
Committee for Economic Development. It was first published in 
1990.
    This Committee for Economic Development was established by 
the business community, and the leaders are the CEOs and 
chairmen of Fortune 500 companies, like Mr. Griswell who we 
have here today. It is a who's who list of the great leaders in 
business in the 1970s, 1980s, and early 1990s.
    They commissioned this study to better understand what we 
needed to do in education so that our economic future will be 
brighter, so that the economic system of America will continue 
to prosper and grow.
    After about 3 or 4 years of having hearings and conducting 
the investigation, in 1990, Jim Renier, who then was the CEO of 
Honeywell, and was the chair of this committee, and they 
brought me this book. It was 1990. I was not chairman of this 
committee then. I was sitting clear down there at the end, but 
I was chairman of the Appropriations Committee that funded 
education at that time.
    They brought me this report, and the executive summary was 
quite important. What they found was, basically, that education 
begins at birth, and the preparation for education begins 
before birth. This whole thing is just about what we should be 
doing to improve the quality of and access to quality early 
childhood education. The commission focused on the importance 
of early learning in 1990, and we have done precious little 
since then.
    Here were people that said, you know, don't forget about 
high school and college, but unless we go down to the earliest 
ages and start investing there, we are never going to catch up. 
And I think the intervening 20 years since 1990 have shown this 
to be true.
    I am hopeful that this panel will help us start thinking 
about how we redesign ESEA to start focusing on early childhood 
education, how we strengthen transitions and support 
kindergarten readiness.
    If I ask people to define elementary education, how would 
you define it?
    We could expect all types of responses. So I throw out to 
all of you, maybe we ought to redefine elementary education as 
beginning at birth, acknowledging that elementary education 
begins at birth. And in that definition should build upon the 
policies, the programs, and the supporting mechanisms around 
it.
    But unless we define it, if early childhood education is 
not reflected in our thinking around elementary education, then 
what are we doing? We are not doing anything. If elementary 
education begins when you go to kindergarten or go to first 
grade, well, then we are going to continue to have the same 
problems we had back in the 1980s and early 1990s and that we 
have had ever since. We will always be swimming upstream, 
attempting to catch up.
    So I'll just throw that out there for your thoughts. I am 
anxious to listen to all of you today. I have read all of your 
testimony. They are great testimonies.
    I will yield to Senator Burr for opening statement.

                       Statement of Senator Burr

    Senator Burr. Thank you, Mr. Chairman.
    More importantly, thank you for holding what I think is an 
important hearing on the topic of early childhood education. I 
also want to thank all of our witnesses for their time, for 
their experiences, for the knowledge that they will share with 
us on improving early childhood education.
    I want to especially welcome Henrietta Zalkind, the 
executive director of the Down East Partnership for Children. 
She is here today to share the phenomenal work she has been 
doing in the areas of Nash and Edgecombe Counties, I might say 
some of the most challenging areas of our State and of the 
country.
    Quality early childhood education and childcare are 
critically important to ensure that future generations of 
students are prepared for the 21st century. In their early 
years of development, children form cognitive, social, 
emotional and physical skills that they will need the rest of 
their lives, both inside and outside of the school classroom.
    Quality early childhood education and childcare are 
essential for ensuring that all children, regardless of their 
socioeconomic status, race, or disability, enter school ready 
to learn and, more importantly, ready to succeed. I am 
especially proud that one of the most important studies on the 
benefits of early childhood education and care was conducted in 
my home State of North Carolina. The Carolina Abecedarian? 
Abecedarian, am I close?
    [Laughter.]
    The Abecedarian Project was a controlled scientific study 
of the potential benefits of early childhood education for low-
income children born between 1972 and 1977. I think that is 
about the time you got here, Mr. Chairman, wasn't it?
    The Chairman. Yes, that is about right.
    Senator Burr. Children from low-income families received 
high-quality educational interventions in a childcare setting 
from birth through age 5. The children's progress was monitored 
over time with follow-up studies conducted at ages 12, 15, and 
21.
    Children who participated in the intervention experienced 
higher cognitive test scores from the toddler years to age 21 
and higher academic achievement in reading and math. 
Additionally, children in the intervention completed more years 
of education and were more likely to attend a 4-year college. 
These findings are a testament to the importance of quality 
care and education for children ages birth to 5.
    While I know today's topic is the reauthorization of 
elementary education and that we will hear a lot about how 
title I and other ESEA programs can support quality preschool, 
I think it is also important that we remember the other major 
Federal programs for early education and childcare, especially 
Head Start, Early Head Start, the Childcare Development Block 
Grant, or CCDBG, and IDEA, I-D-E-A. Rather than trying to 
improve the early childhood experience solely through the 
reauthorization of ESEA, I hope that the committee will also 
take the opportunity to make needed improvements to CCDBG and 
the Head Start programs.
    While we are behind in reauthorizing elementary education, 
it is important to remember that the Childcare Development 
Block Grant has not been reauthorized since 1996, and there are 
other critical changes needed to that block grant to ensure 
infants and toddlers receive high-quality care in a healthy and 
safe setting.
    To ensure children age birth to 5 have the best start 
possible, it is essential that all of our Federal programs--
ESEA, Head Start, the Childcare Development Block Grant, and 
IDEA--work together and that all programs are pulling in the 
same direction and, more importantly, toward the same goal of 
all children, regardless of background, succeeding in school, 
succeeding in college, succeeding in the workplace. That should 
be our goal and our vision.
    I thank the chair.
    The Chairman. Thank you very much, Senator Burr.
    Again, I thank you all for being here. I will introduce the 
witnesses, and we will start from left to right.
    First, we have Mr. Barry Griswell, someone I have known for 
a long time. Mr. Griswell has had a long and distinguished 
career in the financial services industry, most recently 
retiring as the CEO of the Principal Financial Group in Des 
Moines.
    Beyond his professional accomplishments, his activities in 
the community are just amazing. He has done much for our State 
and the communities. He is president of the Community 
Foundation of Greater Des Moines, which has directed 
philanthropic funds and private resources to promote 
collaborative initiatives that improve academic achievement 
particularly for children and youth identified as low income or 
at risk of dropping out or falling behind.
    Next is Dr. Larry Schweinhart, president of the HighScope 
Educational Research Foundation in Michigan. HighScope is a 
nonprofit organization that supports research and good practice 
in early childhood education. He directed a seminal study on 
the Perry Preschool Program that identified long-term effects 
of a high-quality preschool education program for young 
children living in poverty.
    After Dr. Schweinhart, we will hear from Robert Pianta, 
dean of the Curry School of Education and director of the 
Advanced Study of Teaching and Learning at the University of 
Virginia in Charlottesville. Dr. Pianta has conducted several 
large-scale studies on the effect of early childhood on 
children's development and achievement and is an expert on 
effective teaching and teacher professional development.
    And finally, we will hear from Henrietta Zalkind, just 
introduced by Senator Burr, the executive director of the Down 
East Partnership for Children in Rocky Mount, NC. This is a 
nonprofit organization that works with parents, childcare 
providers, teachers, schools, and other human service agencies 
to provide high-quality early learning opportunities to 
children in North Carolina.
    Again, I thank you all for joining us here today. Without 
objection, all of your statements will be made a part of the 
record in their entirety. We will go from left to right, I ask 
that you sum up your testimony in 5 to 6 minutes? Five, I am 
told.
    [Laughter.]
    Then we can get into a good discussion of this extremely 
important topic.
    So, Mr. Griswell, again, welcome. It is good to see you 
here, please proceed.

 STATEMENT OF J. BARRY GRISWELL, BOARD MEMBER, FORMER CHAIRMAN 
  AND RETIRED CHIEF EXECUTIVE OFFICER OF PRINCIPAL FINANCIAL 
  GROUP, PRESIDENT OF THE COMMUNITY FOUNDATION OF GREATER DES 
 MOINES, AND A MEMBER OF THE BERRY COLLEGE BOARD OF TRUSTEES, 
                         DES MOINES, IA

    Mr. Griswell. Thank you, Chairman Harkin.
    It is nice to see you all, distinguished Senators and 
staff. I am honored to be able to say a few words about a topic 
that I am very passionate about. My passion stems from a couple 
of different perspectives.
    First, I grew up in a broken home. An alcoholic father, a 
mother that worked two jobs to make ends meet, and I saw it 
from that perspective as a child. But that is not why I am here 
today, because that is important to me. I am here today, 
rather, to talk from a business perspective and just talk a 
little bit about how important early childhood education is to 
the business community and, therefore, to our country.
    I will give you a quick story. I did not get very involved 
in social issues until about 10 years ago, and I got involved 
with United Way in our local community. I was so struck by all 
of the needs, and I wanted to work so hard to make sure that 
those needs were taken care of. I found out something that you 
all know, and I was a little late coming to this understanding. 
And that is the understanding that the real systemic problems 
in our society around crime, around dropout rates, around 
mental health, around most of the problems we have actually 
stem from poor early childhood development.
    I was quite amazed when I started looking at the studies 
that have already been mentioned--the Perry Preschool, the 
Abecedarian, and many, many others. As a business person, I 
began to be made aware that these are problems that can be 
addressed, problems that can be solved. And if we don't do it, 
the price of unreadiness for school is just enormous.
    So, I became convinced at a very real and personal level 
that I needed to do what I can as a business leader to try to 
spread the word to other business leaders that the real answer 
to the future of our country is to make sure that every single 
child goes to kindergarten ready and prepared to learn.
    I learned, for example, as you all know, that 85 percent of 
the brain structure is developed in the first 3 years of life. 
I learned, for example, that a third of our kids today enter 
kindergarten coming out of poverty, and that third that does 
that go to kindergarten behind, and they typically stay behind. 
By the third grade, they are woefully behind and will never 
catch up.
    We know that that same group actually represents the 
highest rate of dropout in high school. We know that you can 
actually predict incarceration rates by looking at third and 
fourth grade reading levels. As a business person, I was amazed 
at this, and I really wanted to rally the troops to do 
something about it. I am very pleased to report that I think 
the business community is stepping up.
    The Business Roundtable--unfortunately, Chairman, I am 
afraid we did let a lot of time lapse from that study that you 
quoted. But the Business Roundtable did another study in 2003, 
all the major corporations in the United States, and they, too, 
found that for every dollar you invest in early childhood, you 
can get $4 to $7 to $8 in return. That is a terrific, terrific 
investment, and return on investment.
    I think it goes beyond that. If you think about our future 
as a country, if you think how are we going to compete in a 
global economy that is enormously competitive, it seems to me 
we will never do so without maximizing human capital. How can 
you say that we are maximizing human capital if a third of our 
youth are not getting through high school and college? How can 
we possibly compete with the great countries around the world 
that are producing great students and great workers if we don't 
go back to the fundamental beginning?
    If I were put in charge of a corporation today and somebody 
said you are putting out a product that has poor quality, I 
would not marshal all of my resources to try to fix the poor 
quality at the end. I would go back to the beginning, and I 
would try to re-engineer what is causing the poor quality. We 
spend so much of our money on incarceration, on prisons, on 
jails, on mental health. Even on post-secondary education, 
which is vitally important for research, but does very, very 
little if the kids go to kindergarten behind. They will never, 
ever catch up.
    I have just become a very convinced and avid believer that 
this is an issue that we can take on, that we should take on. 
In Iowa, the Iowa Business Council has worked with both 
Governor Vilsack and Governor Culver to provide funding. We 
need Federal help. It needs to be a collaboration between 
business, State government, Federal Government, the research 
institutions.
    And if we do come together, if we do collaborate, I believe 
we can make a big, huge difference. I think if we don't, I 
think we have some very rocky times ahead of us. Whether you 
are an individual, a community, a State, or, indeed, the 
Federal Government, we have a great deal at stake in 
reauthorizing ESEA.
    Thank you, Chairman Harkin. And by the way, 27 minutes 
early.
    [The prepared statement of Mr. Griswell follows:]
                Prepared Statement of J. Barry Griswell
                                summary
                              introduction
    As an individual who has had nearly 40 years in business, including 
8 years as the CEO of a Fortune 500 company, I have had the experience 
of evaluating many, many investment opportunities. I have found that 
when one goes looking for investments with reliable predictability of 
consistently high returns, none of us can go wrong with an investment 
in early childhood development.
                   early local united way experience
    In 2002, shortly after becoming CEO at Principal, I had the good 
fortune to serve as chair of the United Way of Central Iowa, and as 
part of the experience, I became aware of United Way efforts to build a 
comprehensive early childhood initiative for central Iowa.
                         united way of america
    Introduction of Born Learning, and expansion to affiliates 
throughout the country.
               business roundtable/iowa business council
    Increasingly over the last decade, various business organizations 
have thoroughly embraced this issue.
                vilsack administration and progress made
    During his terms as Iowa Governor, Tom Vilsack pursued an agenda 
dedicated to the principles of opportunity, responsibility, and 
security. Governor Vilsack created the Iowa Community College Early 
Childhood Education Alliance to serve as an advocate to deliver state-
wide quality education and to facilitate the sharing of ``best 
education practices'' in a united and seamless manner benefiting Iowa's 
economy, families and children.
                   principal child development center
    Having become a strong believer in the need for high quality child 
care, I worked with my company to build the Principal Child Development 
Center, a state-of-the-art facility created to offer high-quality care 
and education for the children of employees of the Principal Financial 
Group.
                               conclusion
    I remain convinced that investing in early childhood education is 
one of the very best investments we can make.
                                 ______
                                 
                              introduction
    As an individual who has had nearly 40 years in business, including 
8 years as the CEO of a Fortune 500 company, I have had the experience 
of evaluating many, many investment opportunities. I have found that 
when one goes looking for investments with reliable predictability of 
consistently high returns, none of us can go wrong with an investment 
in early childhood development. I came upon this reality quite 
serendipitously.
                   early local united way experience
    In 2002, shortly after becoming CEO at Principal, I had the good 
fortune to serve as chair of the United Way of Central Iowa, and as 
part of the experience, I became aware of United Way efforts to build a 
comprehensive early childhood initiative for central Iowa. In 
conjunction with this effort a group of women associated with United 
Way of Central Iowa developed a comprehensive business plan for early 
childhood development to increase the quality of care being provided by 
care centers in central Iowa, and led a fundraising effort to raise the 
level of quality of care being provided in 15 specific centers around 
Des Moines. The effort focused on those with a minimum of centers and 
home providers whose children in their care are 85 percent subsidized 
by the State of Iowa. The goal of working with the centers and home 
providers was to provide incentives and resources to move them up the 
continuum of a quality rating system that aims to raise quality of care 
in the areas of:

    <bullet> professional development
    <bullet> health and safety
    <bullet> environment
    <bullet> family and community partnership
    <bullet> leadership and administration

    It was through this that I began to learn about the powerful 
research around brain development in the first 5 years, and how early 
reading rates translate into predictors for future school performance, 
graduation rates, and even incarceration rates. I learned things like:

    <bullet> By age 3, roughly 85 percent of the brain's core structure 
is developed.
    <bullet> The first 5 (and particularly the first 2) years of life 
are critical to a child's lifelong development. During the first years 
of life, the brain develops most rapidly, establishing neural 
connections that form the brain's hardwiring. These years are not only 
important to language and cognitive development, they are also critical 
to social and emotional development--the ability to form attachments 
and to deal with challenges and stress. (``Seven Things Policy Makers 
Need To Know About School Readiness'' Charles Bruner, Ph.D., January 
2005)
    <bullet> Increasing the graduation rate 1 percent can cause a 
societal savings of $1.8 billion each year, solely from reduction of 
crime.
    <bullet> From Art Rolnick, Ph.D. and Rob Grunewald of the 
Minneapolis Federal Reserve Bank: Persuasive economic research 
indicates that there is a very promising approach to economic 
development that has been long overlooked. It rests not on a strategy 
of State and local governments offering public subsidies to attract 
private companies from other communities. It rests, rather, on 
government support of something much closer to home--quite literally: 
our youngest children. This research shows that by investing in early 
childhood development (referring to investments from prenatal to age 
5), State and local governments can reap extraordinarily high economic 
returns: benefits that are low-risk and long-lived.
                         united way of america
    When I served on the board of United Way of America, I began to see 
these issues from an even larger perspective. For example, I was made 
aware of the Abecedarian Project, a carefully controlled scientific 
study of the potential benefits of early childhood education for poor 
children. Children from low-income families received full-time, high-
quality educational intervention in a childcare setting from infancy 
through age 5, and progress was monitored over time with follow-up 
studies conducted at ages 12, 15 and 21. The young adult findings 
demonstrate that important, long-lasting benefits were associated with 
the early childhood program.
    Several years ago, the United Way of American launched the Born 
Learning program to raise national awareness of the importance of early 
brain development in the first 5 years of life. Today, virtually every 
local United Way has a focus on early childhood learning.
               business roundtable/iowa business council
    Increasingly over the last decade, various business organizations 
have thoroughly embraced this issue. For example, in 2003, The Business 
Roundtable and Corporate Voices for Working Families joined forces to 
issue Early Childhood Education: A Call to Action from the Business 
Community, which cited findings on a solid return on investment of from 
$4 to $7 for every $1 spent on quality early childhood education.
    At the same time, the Iowa Business Council has had early childhood 
education as one of its top priorities for at least the past 6 years. 
The Council worked with Governors Vilsack and Culver to get signed into 
law House file 877--a bill to expand access to quality preschool to 
nearly every 4-year-old in the State of Iowa. According to the 
groundbreaking Economic Policy Institute report, for every dollar spent 
in Iowa on universal, quality preschool, by 2050 the State would 
receive $8.40 back due to decreased spending on other State programs, 
higher pay for individuals and savings from reduced crime.
                vilsack administration and progress made
    During his terms as Iowa Governor, Tom Vilsack pursued an agenda 
dedicated to the principles of opportunity, responsibility, and 
security. He is recognized as an innovator on children's issues and 
education, economic and healthcare policy, and efforts to make 
government more efficient and accessible. Iowa is known for its strong 
K-12 education system in part due to Vilsack's initiatives. He 
developed aggressive early childhood programs, reduced class sizes, 
created a first-in-the-nation salary initiative to improve teacher 
quality and student achievement, and enacted a more rigorous high 
school curriculum. His leadership also led to Iowa becoming a national 
leader in health insurance coverage, with more than 90 percent of 
children covered.
    Governor Vilsack created the Iowa Community College Early Childhood 
Education Alliance to serve as an advocate to deliver state-wide 
quality education and to facilitate the sharing of ``best education 
practices'' in a united and seamless manner benefiting Iowa's economy, 
families and children.
                   principal child development center
    Having become a strong believer in the need for high quality child 
care, I worked with my company to build the Principal Child Development 
Center, a state-of-the-art facility created to offer high-quality care 
and education for the children of employees of the Principal Financial 
Group.
    The center serves children from age 6 weeks through pre-
kindergarten. Children of all ages benefit from the high-quality, age-
appropriate curriculum, including one that is preschool specific and 
designed to prepare children for success in school. The curriculum 
encourages learning through child-initiated activities. It incorporates 
an emphasis on global, environmental and health and wellness themes, 
while respecting and valuing diversity. In addition, all children have 
the opportunity to participate in a variety of enrichment programs that 
introduce them to the fine arts and physical education while supporting 
and engaging various community businesses and individuals. As a bonus, 
environmentally friendly practices are incorporated into the operation 
of the LEED-certified center.
                               conclusion
    I remain convinced that investing in early childhood education is 
one of the very best investments we can make, whether it be as 
individuals, communities, States, or indeed the Federal Government. It 
would certainly be easier to make such investments when financial times 
are thought to be good. The harsh reality is that in difficult times, 
there is greater need and an even greater sense of urgency to make the 
investment to insure that every child has the opportunity to enter 
kindergarten ready to learn and develop.

    The Chairman. That is pretty good. Thank you very much, Mr. 
Griswell.
    And personally, thank you for all you have done for our 
State.
    Now we go to Mr. Schweinhart. Mr. Schweinhart, welcome. 
Please proceed.

 STATEMENT OF LAWRENCE J. SCHWEINHART, Ph.D., PRESIDENT, HIGH/
      SCOPE EDUCATIONAL RESEARCH FOUNDATION, YPSILANTI, MI

    Mr. Schweinhart. Thank you.
    I would like to thank Chairman Harkin and the other members 
of the committee for inviting me to speak today in support of 
early childhood education in the Elementary and Secondary 
Education Act.
    I am Larry Schweinhart, president of the High/Scope 
Educational Research Foundation, based in Ypsilanti, MI. This 
year, HighScope celebrates 40 years of research, curriculum 
development, and dissemination in early childhood education. 
Our mission is to lift lives through education, a mission that 
resonates well in the homeroom of this committee.
    Let us be clear that early childhood education programs 
include early elementary programs in schools, as well as Head 
Start, Early Head Start, and childcare programs in community 
agencies. For the past several decades, the HighScope Perry 
Preschool Study, which I direct, has provided a rationale for 
strengthening all of these programs.
    This and several similar studies have found that high-
quality early childhood education programs help children at 
risk of failure reach higher levels of school and adult job 
success and commit substantially fewer crimes. The economic 
return to taxpayers on this investment is enormous. A simple 
response to these findings is to add pre-kindergarten classes. 
A more complete response is to see in them a rationale for 
maintaining high quality in all early childhood education 
programs in schools, as well as community agencies.
    A decade ago, this Nation made its first national education 
goal that all children will enter school ready to learn, and 
this goal is just as important today. The National Education 
Goals Panel recognized not only that we need children to be 
ready for school, but also that we need schools to be ready for 
all children.
    The panel established a study group, which included Robert 
Pianta, who is speaking here today, to clarify the definition 
of Ready Schools. Subsequently, with funding from the W.K. 
Kellogg Foundation, HighScope developed and validated a Ready 
School Assessment tool to help school stakeholders measure the 
level of readiness in their school and discuss ways to improve 
their school's readiness over time.
    Ready Schools smooth the transition between home and 
school. They strive for continuity between early care and 
education programs and elementary schools. They help children 
make sense of the complex and exciting world. They focus on 
approaches that have been shown to raise achievement. They are 
learning organizations that alter practices and programs that 
do not benefit children. They serve children in communities, 
take responsibility for results, and have strong leadership.
    This afternoon, I would like to focus on two research-
validated principles of Ready Schools that the new ESEA can 
support--interactive child development curriculum and regular 
educational checkups. We need to have elementary schools train 
in and use an interactive child development curriculum. In such 
a curriculum, children not only follow teacher directions, but 
also initiate and take responsibility for their own learning 
activities.
    The goals of a child development curriculum extend to 
cognitive, socio-emotional, and physical development--not just 
literacy and mathematics, as important as they are. Children 
develop cognitively when they learn how to think and solve 
problems. They develop socio-emotionally by developing 
commitment to education, a strong moral sense, and the ability 
to get along with other children and adults. Children develop 
physically when they learn how to keep themselves healthy and 
fit.
    We also need to require and support early childhood 
education programs to conduct regular checkups on their 
curriculum quality and its effect on children's developmental 
progress not just by tests, but also by classroom observations 
that give teachers the information they need to do their job 
well.
    With ESEA reauthorization, we have a rare opportunity to 
kick off a national Ready School movement, not just the latest 
educational fad, but as a well-defined program of educational 
reform. We have a rare opportunity to support highly effective 
early childhood programs in schools and community agencies as a 
genuine investment with enormous returns to taxpayers.
    [The prepared statement of Dr. Schweinhart follows:]
          Prepared Statement of Lawrence J. Schweinhart, Ph.D.
                                summary
    I thank Chairman Harkin and the committee for inviting me to speak 
today on early childhood education in ESEA reauthorization. I am Larry 
Schweinhart, president of HighScope Foundation, which is celebrating 40 
years of research, curriculum development, and dissemination in early 
childhood education.
    Early childhood education programs include early elementary 
programs in schools as well as Head Start, Early Head Start, and child 
care programs in community agencies. For the past several decades, the 
HighScope Perry Preschool Study, which I direct, has provided a 
rationale for strengthening these programs. This and several similar 
studies have found that high-quality early childhood education programs 
help children at risk of failure reach higher levels of school and 
adult job success and commit substantially fewer crimes. The economic 
returns to taxpayers on this investment are enormous. A simple response 
to these findings has been to add pre-kindergarten classes. A more 
complete response is to maintain high quality in all early childhood 
education programs.
    A decade ago, this Nation made its first national education goal 
that all children will enter school ready to learn, and this goal is 
just as important today. The National Education Goals Panel recognized 
not only that we need children to be ready for school, but also that we 
need schools that are ready for all children. The Panel established a 
study group to clarify the definition of ready schools. Subsequently, 
with funding from the W.K. Kellogg Foundation, HighScope developed and 
validated a ready school assessment tool, based on the study group's 
definition, to help school stakeholders measure the level of readiness 
in their school and stimulate discussion about ways to improve their 
school's readiness over time.
    The new ESEA can support two research-validated principles of ready 
schools--interactive child development curriculum and regular 
educational checkups. We need to have elementary schools train in and 
use an interactive child development curriculum. In such a curriculum, 
children not only follow teacher directions, but also initiate and take 
responsibility for their own learning activities. The goals of a child 
development curriculum extend to cognitive, socio-emotional, and 
physical development. In addition, we need to require and support early 
childhood education programs to conduct regular checkups on their 
curriculum quality and on children's developmental progress, not just 
by tests but also by classroom observations that give teachers the 
information they need to do their jobs well.
    With ESEA reauthorization, we have a rare opportunity to kick off a 
national ready school movement, not just as the latest educational fad 
but as a well-defined program of educational reform. We have a rare 
opportunity to better recognize and treat highly effective early 
childhood programs in schools and community agencies as a genuine 
investment with enormous returns to taxpayers.
                                 ______
                                 
    I thank Chairman Harkin, Ranking Member Enzi, and the other members 
of the committee for inviting me to speak today in support of early 
childhood education in the reauthorization of the Elementary and 
Secondary Education Act. My name is Larry Schweinhart and I am 
president of the HighScope Educational Research Foundation. HighScope 
is celebrating 40 years of research, curriculum development, and 
dissemination in early childhood education. Our mission is to lift 
lives through education, a mission that resonates well in the homeroom 
of this committee.
    Let's be clear that early childhood education programs include 
early elementary programs in schools as well as Head Start, Early Head 
Start, and child care programs in community agencies. For the past 
several decades, the HighScope Perry Preschool Study, which I direct, 
has provided a rationale for strengthening these programs. This and 
several similar studies have found that high-quality early childhood 
education programs help children at risk of failure reach higher levels 
of school and adult job success and commit substantially fewer crimes. 
The economic returns to taxpayers on this investment are enormous. A 
simple response to these findings has been to add pre-kindergarten 
classes. A more complete response is to recognize in them a rationale 
for maintaining high quality in all early childhood education programs 
in schools and community agencies.
    A decade ago, this Nation made its first national education goal 
that all children will enter school ready to learn, and this goal is 
just as important today. The National Education Goals Panel recognized 
not only that we need children to be ready for school, but also that we 
need schools that are ready for all children. The Panel established a 
study group, which included Robert Pianta who is speaking here today, 
to clarify the definition of ready schools. Subsequently, with funding 
from the W.K. Kellogg Foundation, HighScope developed and validated a 
ready school assessment tool, based on the study group's definition, to 
help school stakeholders measure the level of readiness in their school 
and stimulate discussion about ways to improve their school's readiness 
over time.
    This afternoon I'd like to focus on two research-validated 
principles of ready schools that the new ESEA can support--interactive 
child development curriculum and regular educational checkups.
    We need to have elementary schools train in and use an interactive 
child development curriculum. In such a curriculum, children not only 
follow teacher directions, but also initiate and take responsibility 
for their own learning activities. The goals of a child development 
curriculum extend to cognitive, socio-emotional, and physical 
development, not just literacy and mathematics as important as they 
are.
    In addition, we need to require and support early childhood 
education programs to conduct regular checkups on their curriculum 
quality and its effect on children's developmental progress, not just 
by tests but also by classroom observations that give teachers the 
information they need to do their jobs well.
    With ESEA reauthorization, we have a rare opportunity to kick off a 
national ready school movement, not just as the latest educational fad 
but as a well-defined program of educational reform. We have a rare 
opportunity to better recognize and treat highly effective early 
childhood programs in schools and community agencies as a genuine 
investment with enormous returns to taxpayers.
                               highscope
    HighScope Educational Research Foundation, based in Ypsilanti, MI, 
is one of the world's leading early childhood research, development, 
training, and publishing organizations. We envision a world in which 
all educational settings use interactive education to support students' 
development so everyone has a chance to succeed in life and contribute 
to society. David Weikart, who died in 2003, established HighScope in 
1970 to continue activities he initiated as an administrator in the 
Ypsilanti Public Schools. The name ``HighScope'' refers to the 
organization's high purposes and far-reaching mission.
    HighScope is perhaps best known for its research on the lasting 
effects of early childhood education and its early childhood 
curriculum. The research has influenced public policy on early 
childhood education throughout the United States and around the world. 
The HighScope curriculum is used just as widely in programs throughout 
North America and in South America, Europe, Asia, and Africa.
    HighScope receives funding from local, State, and Federal 
Government agencies, foundations, and individuals. From 1971 to 1993, 
HighScope was a model sponsor in the federally funded National Follow 
Through project of curriculum reform in cooperation with local schools. 
HighScope has long been a partner with the federally funded Head Start 
program, including being home to one of eight Head Start Quality 
Research Centers from 1995 to 2004.
       early childhood education includes early elementary grades
    Early childhood is generally defined as the time of life when 
children are relatively young, from birth to age 8. It is a time of 
life, not a particular institution or setting. In the United States, 
almost all young children live at home with their families. By age 5, 
three-fifths of them have also spent time in one or more of a variety 
of other settings--family, friend, and neighbor care; child care homes 
and centers; public and private schools; and Head Start programs. From 
ages 5 to 8, virtually all of them spend time in public and private 
schools.
    Young children experience some kind of early childhood education 
whether they stay at home all day or experience child care and 
education in other settings. Some of these settings provide children 
with early childhood education on purpose. But intentionally or 
unintentionally, all of them are providing young children with early 
childhood education because all of them are providing young children 
with experiences that affect them for the rest of their lives. These 
settings vary greatly in expectations for young children, parents, and 
teachers or caregivers; as well as in available resources, rules, 
governance, and organization. Some receive government funding, and 
others do not. Some are regulated by the government, and others are 
not.
    When children reach 5 years of age, society's expectations for 
early childhood education become more uniform. Nearly all States 
require public schools to provide kindergarten and first through third-
grade classes for 5- to 8-year-olds. But the difference in how we treat 
children before and after their fifth birthday is rooted more in adult 
expectations and traditions than it is in children's development.
    The HighScope Perry Preschool Study reveals the promise of early 
childhood education. This study, which I direct, randomly assigned 
young children living in poverty to an early childhood education 
program or to no program and has followed them to age 40. By comparing 
the two groups, we have found evidence that the early childhood 
education program contributed a great deal to children's development. 
The program group had higher achievement test scores and greater 
commitment to school. The group had higher high school graduation and 
adult employment rates and committed only half as many crimes. The 
return on public investment was enormous, better than the stock market 
in the good years. But while this program focused on 3- and 4-year-
olds, its findings apply generally to the potential of early childhood 
education for a wider age range of children up to 8 years of age. The 
Perry study is not only a reason to invest in Head Start and State pre-
Kindergarten programs. It is also a reason to engage in early 
elementary school reform.
                             ready schools
    The idea of the ready school probably goes back to the annual task 
of preparing schools for the start of a new year. The increasingly 
important concept of the ready school is more recent. It grew out of 
President George H.W. Bush's 1989 Education Summit in Charlottesville, 
VA, with the National Governors Association. This meeting produced the 
National Education Goals and the appointment of a National Education 
Goals Panel consisting of State and Federal policymakers.
    To the National Education Goals Panel, ensuring that children start 
school ready to learn was vitally important, but ensuring that schools 
were ready for children was equally important. We're talking about the 
opposite, in fact, the complement, of children getting ready for 
schools. We're talking about schools getting ready for children. For 
this reason, the Panel established the Ready Schools Resource Group, a 
group of early childhood education experts and leaders. The Resource 
Group's 1998 report sought to answer the questions: How can we prepare 
schools to receive our children? How can we make sure that schools are 
ready for the children and families who are counting on them?
    The report identified 10 key features of ready schools, as follows. 
They:

    1. Smooth the transition between home and school.
    2. Strive for continuity between early care and education programs 
and elementary schools.
    3. Help children learn and make sense of the complex and exciting 
world.
    4. Are committed to the success of every child.
    5. Are committed to the success of every teacher and every adult 
who interacts with children during the school day.
    6. Introduce or expand various approaches that have been shown to 
raise achievement.
    7. Are learning organizations that alter practices and programs if 
they do not benefit children.
    8. Serve children in communities.
    9. Take responsibility for results.
    10. Have strong leadership.

    These key features are further defined in the text of the report 
and capture well the concept of ready schools. But reports such as this 
one have a short shelf life. Concerned with this fact, and with funding 
from the W.K. Kellogg Foundation, HighScope developed and validated a 
Ready School Assessment tool to make the features listed above real for 
elementary school teachers, administrators, and other stakeholders. We 
have worked with elementary school staff around the country, especially 
in North Carolina and Mississippi, to help make their schools more 
ready for all the children they serve.
    Participants must provide documentation to back up what they say 
about their school. They can't simply check off items from a list. This 
documentation makes the assessment evidence-based. It is a self-
assessment, which is much more effective in motivating action than is 
having outsiders come in to rate schools. It brings school stakeholders 
together to build partnerships--such as a school administrator, a 
kindergarten teacher, a preschool teacher, a parent, and a community 
representative. In one State, these stakeholders met every quarter, for 
the first time in most communities. Then researchers work with staff to 
review results and focus on school districts' strengths and weaknesses 
in developing an improvement plan to address and correct the area of 
need. The ready school focus fits right into school improvement plans.
    I'd like to focus on two aspects of early childhood education--
curriculum and assessment--that show up in many of these features of 
ready schools. Curriculum and assessment are also essential to highly 
effective early childhood education programs that lead to long-term 
effects and return on investment.
                interactive child development curriculum
    We need to have elementary schools train in and use an interactive 
child development curriculum. Let's unpack all these ideas. In an 
interactive curriculum, children not only follow teacher directions, 
but also initiate and take responsibility for their own learning 
activities. In a non-interactive, directive curriculum children learn 
letters by copying A's, N's and so on using a practice sheet. In an 
interactive curriculum they learn letters by writing a note to a friend 
or a story about their dog. Which approach do you think gets children 
motivated to learn their letters?''
    The goals of a child development curriculum extend to cognitive, 
socio-emotional, and physical development, not just literacy and 
mathematics as important as they are. The heart of cognitive 
development is that children learn how to think and solve problems for 
themselves. The heart of socio-emotional development is that children 
develop motivation to learn, commitment to school, a strong moral 
sense, and the ability to get along with other children and adults. The 
heart of physical development is that children learn how to keep 
themselves healthy and fit. We have been working with economist James 
Heckman and his colleagues to analyze just what factors affected by the 
Perry Preschool Program led to its long-term success. We found that the 
socio-emotional factors I mentioned above were even more important than 
cognitive skills.\1\ Yet we direct all our attention to children's 
literacy, mathematics, and other academic skills rather than these 
socio-emotional factors.
---------------------------------------------------------------------------
    \1\ Heckman, James J., Malofeeva, Lena, Pinto, Rodrigo and 
Savelyev, Peter A. (2010). ``Understanding the Mechanisms Through which 
an Influential Early Childhood Program Boosted Adult Outcomes.'' 
Unpublished manuscript, University of Chicago, Department of Economics.
---------------------------------------------------------------------------
    Some of the evidence for using an interactive child development 
curriculum in early childhood education programs comes from a 
longitudinal study we conducted called the Preschool Curriculum 
Comparison Study. This study involved randomly assigning young children 
to three different curriculum models. In HighScope, young children 
learned actively in a plan-do-review process and group times. In 
Nursery School, young children learned primarily through play. In 
Direct Instruction, teachers followed a script in which children's 
lines were the right answers to rapid-fire questions. HighScope and 
Nursery School were interactive child development curricula, while 
Direct Instruction was not. We found that all three curricula improved 
children's cognitive ability quite a bit, an average of 27 points. This 
effect diminished over time, but was still 17 points higher at age 10. 
But group differences appeared in social development as time went on. 
In their school years, only 6 percent of the HighScope and Nursery 
School groups required treatment for emotional disturbance, as compared 
to 47 percent of the Direct Instruction group. Only 10 percent of the 
HighScope group and 17 percent of the Nursery School group committed 
felonies by age 23, as compared to 39 percent of the Direct Instruction 
group. Only 36 percent of the HighScope group said that people gave 
them a hard time, while over 60 percent of the other two groups. The 
interactive child development curricula contributed more to 
participants' social development than did the Direct Instruction 
curriculum.
    This study illustrates that the long-term effectiveness of the 
curriculum models used in early childhood education should be validated 
by longitudinal research. While this is the case for the HighScope 
curriculum, we have not made the national investment needed to identify 
other early childhood curriculum models that can achieve similar 
success. We need a national program of early childhood curriculum 
development and longitudinal research. This program could serve as the 
linchpin of our investment in the future of our children.
    Adequate in-service training is essential to the adoption of a 
validated interactive child development curriculum. The U.S. Department 
of Education recently invested in a program of Preschool Curriculum 
Evaluation Research, but no curriculum model required more than 6 days 
of initial training and follow-up coaching, and very few effects were 
found. HighScope offers and expects teachers to successfully complete 
20 days of curriculum training and follow-up coaching. The Department 
of Education project may have seriously underestimated how much 
curriculum training is actually needed for it to effectively change 
teaching practices.
                  early childhood educational checkups
    We need to require and support early childhood education programs 
to conduct regular checkups on their curriculum quality and its effect 
on children's developmental progress. This dual focus on curriculum 
quality and children's progress is essential to highly effective early 
childhood education, but Head Start and child care programs emphasize 
meeting program regulations and program performance standards, while 
schools emphasize children's performance on tests of their progress. We 
need both in all early childhood education programs. Schools and Head 
Start and child care programs should conduct regular checkups on their 
curriculum quality and children's developmental progress.
    To accomplish this dual-focus assessment program, we do not have to 
give young children more tests. We need to use observational 
assessment. To assess teaching practices, we should be using validated 
classroom observation systems, such as HighScope Program Quality 
Assessment and Pianta's Classroom Assessment Scoring System.
    Similarly, to assess children's developmental progress, we should 
be using observational assessments, not more tests. Traditional testing 
constrains young children's behavior in ways they are not used to. 
Further, it requires young children to answer questions that have one 
right answer, each child alone without assistance. This procedure works 
for knowledge and some skills in literacy and mathematics. But it 
excludes much of children's development--social skills in working with 
others, creativity, collaborative problem-solving, taking initiative 
and responsibility, and so on. While it may be appropriate to 
administer tests to samples of children, our primary assessment 
procedure with young children should be to use validated observational 
assessments such as HighScope's Child Observation Record and the Work 
Sampling System developed by Sam Meisels.
    With ESEA reauthorization, we have a rare opportunity to kick off a 
national ready school movement, not just as the latest educational fad 
but as a well-defined program of educational reform. We can call on all 
elementary school administrators, teachers, parents, and other adult 
stakeholders to make their schools into ready schools. We can provide 
them with the materials, training, and coaching to do so. In doing so, 
we can reap the rewards of children's greater educational success and 
subsequently greater success and responsibility in their lives. We can 
make ESEA a national investment in our young people that really pays 
off for everyone.
                               Attachment
     How ESEA Can Get Lasting Returns on Early Childhood Education 
                               Investment

                  Larry Schweinhart, Ph.D., President

               HighScope Educational Research Foundation

                     highscope: mission and vision

Mission--To lift lives through education.
Vision--Widespread interactive education so everyone can succeed in 
life and contribute to society.
                   highscope: activities and audience

Activities
    <bullet> Evaluative research
    <bullet> Product and services development
    <bullet> Publishing and training

Audience
    <bullet> Teachers, caregivers, administrators and all concerned 
with programs serving young children.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        early childhood education effects found in three studies

    <bullet> Childhood intellectual performance
    <bullet> Teen school achievement
    <bullet> Fewer teen births
    <bullet> Placements in regular classes
    <bullet> High school graduation
    <bullet> Adult earnings
    <bullet> Fewer crimes
    <bullet> Up to $16 return on the dollar

    (HighScope Perry Preschool Study, Abecedarian Child Care Study, 
Chicago Child-Parent Centers Study)
               but other studies find only modest effects

    <bullet> Recent studies find only modest short-term effects on 
children's literacy and social skills, raising a question about whether 
they have long-term effects and return on investment.

    (National Head Start Impact Study, Head Start FACES Study, Early 
Head Start Study, Even Start Evaluations, Five-State Prekindergarten 
Study)

    implicaton--to get what we got . . . do what we did that worked
Early childhood education takes place in schools and community 
agencies.

    <bullet> Early childhood education includes early elementary, Head 
Start, Early Head Start, and child care programs for children up to age 
8.
    <bullet> All of them can be highly effective and contribute to 
long-term effects and strong return on investment.
    <bullet> While the Perry program focused on 3- and 4-year-olds, its 
findings apply to all young children.
         two major ingredients of highly effective ece programs
1. Learn and use a validated, interactive child development curriculum.
2. Continuously check up on program quality and child development.

1. Learn and Use a Validated, Interactive Child Development Curriculum

    <bullet> Learn: Requires interactive training, study, and practice.
    <bullet> Validated: Evidence of effectiveness with children to be 
served.
    <bullet> Interactive: Children and teachers design learning 
activities.
    <bullet> Child Development: All aspects of development.

HighScope Preschool Curriculum Comparison Study--Three Curriculum 
Models

    <bullet> HighScope--Children learn actively through plan-do-review 
and group times.
    <bullet> Nursery School--Children learn primarily through play.
    <bullet> Direct Instruction--Teacher-directed script with 
children's lines focused on academics.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

2. Continuously Check Up on Program Quality and Child Development

    <bullet> Check on implementation of an effective program model.
    <bullet> Check on all aspects of children's development.
    <bullet> Attune teaching using these checkups.
    <bullet> Keep program accountability local.

Implications for ESEA

    <bullet> Support demonstrated quality/effectiveness in all early 
childhood education programs in schools and community agencies.
    <bullet> Support schools working to meet the guidelines of the 
National Education Goals Panel for ready schools to make more schools 
ready for all children.

    The Chairman. Now Mr. Pianta.

    STATEMENT OF ROBERT C. PIANTA, PROFESSOR OF EDUCATION, 
          UNIVERSITY OF VIRGINIA, CHARLOTTESVILLE, VA

    Mr. Pianta. Chairman Harkin, Ranking Member Burr, and 
members of the committee, thank you for this opportunity to 
speak with you today, and let me commend you on your interest 
in early childhood education in the context of reauthorization 
of the Elementary and Secondary Education Act.
    It is sensible for you to seek ways of connecting early 
childhood education, which, for the purposes of my remarks, 
refers primarily to programs for 3- and 4-year-olds, but as has 
been noted, should also include birth to 3. Learning is, 
indeed, cumulative, and the skills and knowledge children 
acquire early are foundational underpinnings for later success. 
And with almost 80 percent of children age 3 and 4 in some form 
of early education setting, the time for policy work connecting 
early childhood programs in K-12 education is now.
    It is abundantly clear that even the loosely organized 
collection of early education opportunities to which young 
children are exposed between the ages of birth and 8, including 
childcare, State-funded pre-K programs, Head Start programs, 
and K-3, are a point of leverage for addressing low levels of 
and gaps in achievement. We see in scaled-up programs, not even 
the best programs, the gap can close by almost a half in 1 year 
of exposure. The challenge is that those programs are very 
uneven in quality from time to time and very inconsistent over 
time.
    So despite significant investments and benefits, the 
promise of early education as a scaled-up asset for fostering 
learning is not yet being fully realized for too many children 
and depends on a more complete integration of early education 
and care experiences for young children with the K-3 system. 
And it requires considerable reform of teacher quality and 
professional development.
    For example, although preschool experiences can help close 
achievement gaps and have longer-term benefits, most evidence 
also suggests too many holes and misalignments in the system. 
In the same community, we see different approaches to teaching 
literacy to young children, depending on whether they are 
enrolled in Head Start, pre-K, kindergarten, or first grade. We 
see different tests, different teacher qualifications, 
different professional developments. Some kids are in full-day 
programs. Other kids are in part-day programs.
    And this doesn't even touch the other challenges, such as 
summer program learning gaps that lead to loss of skills, or 
the lack of effective teaching in too many classrooms. I would 
argue that ESEA reauthorization should set in motion policies 
that design a new entry portal into public education, one that 
ensures effective, aligned educational experiences for children 
from 3 to 8.
    And perhaps the biggest gap or hole in early education in 
the United States is the spotty nature of effective teaching. 
As you do this policy work, it is critical to understand the 
importance of the adults, the teachers, and the unique features 
of teaching young children. What matters for children in these 
younger grades and ages are the ways in which adults foster 
learning and development through careful, sensitive, 
stimulating interactions.
    Proven effective teaching requires skillful combinations of 
explicit instruction, sensitive and emotionally warm 
interactions, responsive feedback, and verbal engagement and 
stimulation all intentionally directed to ensure children's 
learning and embedded in a classroom that is not overly 
regimented or structured and, hopefully, using a clear and 
educationally focused curriculum. I would like to say that 
these adults are strategic opportunists.
    Of even more importance for policy work--this is critical--
is that these features of teaching can be quantified. They can 
be observed in a standardized manner across thousands of 
classrooms and improved through effective professional 
development that, in turn, closes skill gaps. You have the 
opportunity to move the system.
    The odds are, however, stacked against children getting the 
kind of early education experiences that close gaps. My team 
and others have observed several thousand teachers across the 
country, and these observations indicate that young children 
across the country are not exposed to the features of teacher-
child interactions in their preschool, in their pre-K, in their 
kindergarten, in their first grade, or in their third grade 
classrooms that produce learning regularly or close gaps.
    Instructional interactions, those features that appear to 
matter most for children's achievement are particularly poor in 
quality. And in nearly every study that includes a large number 
of classrooms, the variability of features of teacher 
interactions that foster learning--variations from teacher to 
teacher, from classroom to classroom, from grade to grade--is 
exceptional.
    This means that if you are a 3-year-old, a 5-year-old, or 
an 8-year-old in the United States, being exposed to the kind 
of teaching that has been shown to foster learning is, itself, 
a fairly rare event, occurring around roughly half the time. It 
rarely occurs in consecutive years and essentially seems like 
an accident. In short, educational opportunity for young 
children in the United States is not a guarantee, but a matter 
of luck.
    The professional development of teachers, both practicing 
teachers and those in teacher preparation, to be effective in 
interacting with children to produce learning could not be a 
more important priority for policy. Such professional 
development has to be aligned and integrated across the age 
span.
    That we now have proven effective approaches for improving 
teaching that also improve student learning--coursework, 
coaching, curricula--for these ages and grades is an 
opportunity for major reform of teacher preparation, 
certification, and professional development. Too many dollars, 
however, and too much teacher time is spent on garden-variety 
professional development that, in and of themselves, do not 
contribute to effective practice or learning.
    Let me be clear again. Effective teaching can be measured, 
can be improved systematically, and will have benefits for 
children learning, but only if we are serious about measuring 
and holding teachers, school districts, programs, and higher 
education to higher standards based on our knowledge of child 
development and investing in the kind of professional 
development and training that really works. I will say it 
again. Garden-variety degrees will produce a lot of irrelevant 
coursework and time spent.
    The conclusions for many sensible analyses of the extant 
data are fairly straightforward. First, early education 
opportunities in this country are a nonsystem. Publicly 
supported early education programs encompass such a wide range 
of funding streams, program models, staff qualifications, 
curriculum assessments, and teacher capacities that it cannot 
be understood as an organized aspect of the public support for 
children in this country.
    But despite stunning variability and fragmentation, there 
is compelling evidence that these experiences do, indeed, boost 
development and learning that can close achievement gaps and 
have longer-term benefits to children and learning. That 
interactions and effective teaching can be assessed offers you 
an opportunity.
    Finally, and perhaps most promisingly, teacher skills in 
children learning can be improved with specific and focused 
professional development and training. We need policies that 
incent and reward participation in effective, proven effective 
methods.
    A policy that works, that demonstrably affects support for 
adults working with young children could pave the way for 
tremendous positive change in outcomes for those teachers and 
for the young children and our society.
    Thank you very much.
    [The prepared statement of Mr. Pianta follows:]
                 Prepared Statement of Robert C. Pianta
                                summary
    The loosely organized collection of educational opportunities to 
which young children are exposed between the ages of 3 and 8, including 
child care, State-funded pre-K programs, HeadStart programs, K-3, is a 
point of leverage for addressing low levels of, and gaps in 
achievement. The time for policy work connecting early childhood 
education with K-12 is now. Effective and efficient early education 
interventions targeted toward learning in the 3-3d period are 
essential, not only for children, but for the economic and social 
health of communities. But despite significant investments and 
benefits, the promise of early education as a scaled-up asset for 
fostering learning is not yet being fully realized for too many 
children and depends on a more complete integration of early education 
and care experiences for 3- and 4-year-olds with the K-3 system. ESEA 
reauthorization can set in motion policies that design a new entry 
portal into public education, one that ensures effective, aligned 
educational experiences for children from 3 to 8. Failing to take 
advantage of this opportunity only costs more downstream.
    What matters for young children are the ways teacher foster 
learning and development through careful, sensitive, stimulating 
interactions. The odds are stacked against children getting the kind of 
early education experiences that close gaps. Observational studies 
including several thousand teachers, indicate that young children are 
not exposed to features of teacher-child interaction in their pre-
school, Pre-K, K, 1st and 3d grade classrooms that produce learning or 
close gaps. Instructional interactions, features that appear to matter 
most for children's achievement, are particularly poor in quality. And 
in nearly every study that includes a large number of classrooms, the 
variability in the features of teacher-child interaction that foster 
learning--variation from teacher to teacher, classroom to classroom, 
grade to grade, is exceptional. The professional development of 
teachers, practicing teachers and in teacher preparation, to be 
effective in interacting with children to produce learning, could not 
be a more important priority for policy. And such professional 
development has to be aligned and integrated for teachers serving 
children across the age 3-3d grade span.
    The conclusions from any sensible analysis of the extant data are 
fairly straightforward. First, early educational opportunities in this 
country are a non-system. Publicly supported early education programs 
(child care, Head Start, State-funded pre-kindergarten, K-3) encompass 
such a wide range of funding streams, program models, staff 
qualifications, curriculum, assessments, and teacher capacities that it 
cannot be understood as an organized aspect of the public system of 
support for children. Second, despite stunning variability and 
fragmentation, there is compelling evidence that early educational 
experiences can boost development and learning, can close achievement 
gaps in elementary school, and can have longer-term benefits to 
children and communities. Third, interactions between teachers and 
children can be observed and assessed using standardized and scalable 
approaches. Finally and perhaps most promisingly, teachers' skills and 
children's learning can be improved with specific and focused 
professional development training and support. The challenge for policy 
connecting ESEA and early childhood education is to incent construction 
and delivery of scalable and effective opportunities for teacher 
professional development and preparation, using new approaches to 
credentialing and certification and observational assessments of 
teachers' classroom performance. Recent statements by professional 
organizations reflect an openness to innovation that, paired with 
demonstrably effective supports for teachers, could pave the way for 
tremendous positive change in outcomes for teachers serving children 
from 3-8 and for those children and society.
                                 ______
                                 
    Let me start by commending the committee on its interest in early 
childhood education as part of the approach to ESEA authorization. The 
loosely organized system of educational and developmental opportunities 
to which young children are exposed in child care, State-funded pre-K 
programs, Head Start programs, K-3 classrooms, and a host of other 
settings (including children's homes), increasingly is viewed as a 
point of leverage for addressing low levels of, and gaps in, K-12 
achievement. This is sensible policy: learning is cumulative and the 
skills and knowledge that children acquire early are foundational 
underpinnings of what they learn later--fall behind early and stay 
behind is the rule. The time for serious policy and program work 
connecting early childhood education with K-12 is now.
    We now know that the long-term effects of early gaps in achievement 
and social functioning are so pronounced that effective and efficient 
early education interventions targeted toward these gaps in the pre-
school period are essential, not only to the developmental success of 
children, but to the economic and social health of communities. Both 
small experimental studies and evaluations of large-scale programs show 
consistently the positive impacts of exposure to pre-school. The 
evidence comes from studies of child care, Head Start, and public 
school programs using a wide range of research methods including 
experiments. Lasting positive impacts have been found for large-scale 
public programs as well as for intensive programs implemented on a 
small scale, though even some of the intensive small-scale 
interventions were public school programs. Overall the positive long-
term effects of pre-school education include: increased achievement 
test scores, decreased grade repetition and special education rates, 
increased educational attainment, higher adult earnings, and 
improvements in social and emotional development and behavior, 
including delinquency and crime. Obviously, if programs provide child 
care they also benefit parents and can increase earnings in both the 
short- and long-term. Increased income that results from providing 
families with free or subsidized child care also has positive benefits 
for young children's development, though these are likely small 
relative to the direct benefits of high-quality pre-school programs for 
children.
    Who can benefit from educationally effective pre-school programs? 
All children have been found to benefit from high-quality pre-school 
education. Claims that pre-school programs only benefit boys or girls, 
or one particular ethnic group, or just children in poverty do not hold 
up across the research literature as a whole. Children from lower-
income families do tend to gain more from good pre-school education 
than do more advantaged children. However, the educational achievement 
gains for non-disadvantaged children are substantial, perhaps 75 
percent as large as the gains for low-income children. Some concerned 
with reducing the achievement gap between children in poverty and 
others might conclude that pre-school programs should target only 
children in poverty. Such an approach ignores evidence that 
disadvantaged children appear to learn more when they attend pre-school 
programs with more advantaged peers, and they also benefit from peer 
effects on learning in kindergarten and the early elementary grades 
when their classmates have attended quality pre-school programs.
    But we must be very clear about the magnitude of effects, whether 
short- or long-term. Any of the evaluations cited above indicate pre-
school programs produce modest effect sizes overall, somewhat greater 
effects for low-income children, with some evidence that gains last 
through early grades. Typical child care has considerably smaller 
short- and long-term effects than more educationally focused programs 
such as selected Head Start programs or higher-quality pre-school 
programs linked to public education. And across studies and program 
models/features effects range from near-zero to almost a standard-
deviation on achievement tests (the size of the achievement gap for 
poor children). There is no evidence whatsoever that the average run-
of-the-mill pre-school program produces benefits in line with what the 
best program produce. Thus on average, the non-system that is pre-
school in the United States narrows the achievement gap by about 30 
percent.
    Thus despite significant investments and obvious benefits, the 
promise of early education as a scaled-up asset for fostering learning 
and development of young children in the United States is not yet being 
fully realized--too many children, particularly poor children, continue 
to enter kindergarten far behind their peers. Results from the first 
follow-up of the nationally representative Early Childhood Longitudinal 
Study-Birth Cohort (ECLS-B) show a gap of roughly one standard 
deviation on school readiness skills for children below the 20th 
percentile on family socioeconomic status. Because the wide-ranging and 
diverse set of experiences in pre-schools are not, in aggregate, 
producing the level and rate of skills gains required for children to 
enter school ready, it is argued that simply enrolling more children in 
more programs, although helpful, will not close, or even narrow in 
noticeable ways, the skills gap at school entry. Rather there is a dire 
need for investments and attention (in research, program development, 
and policy initiatives) that enhance the positive impacts of existing 
and expanding educational offerings on the very child outcomes on which 
skills gaps are so evident.
    How to construct delivery systems for the equitable distribution of 
such experiences, ensure the training and expertise necessary to 
support the value of early education, and evaluate the extent to which 
the delivery system produces desired outcomes for children pose serious 
challenges for scientists and policymakers. K-12 education policy and 
practice is now grappling with, and relying on, early childhood 
education to an unprecedented extent, the strategic use of which is 
undoubtedly in the interest of America. It is quite clear that 
realizing the promise of early education in the United States depends 
on a more complete integration of early education and care experiences 
for 3- and 4-year-olds with the K-3 system. Your opportunity, in ESEA 
reauthorization, I believe, is the set in motion policies that design a 
new entry portal into public education in the United States, one that 
ensures effective, integrated, aligned educational experiences for 
children from 3 to 8. Failing to take advantage of this opportunity 
only costs more downstream.
     the landscape of early education--school starts at 3, sort of
    One might ask,

          ``How can school start at 3? Kids are at home or in child 
        care, and compulsory education doesn't even start at age 5 in 
        most States--and in some they don't even have universal 
        kindergarten!''

    In some ways this perception is correct; from age 3 until whatever 
age enrollment in the K-12 system is mandatory, children spend time in 
a very loosely organized collection of settings that provide a mixed 
assortment of opportunities for learning. This could hardly be 
described as ``school'' if our referent point was the local elementary 
school. On the other hand, parents think child care is school--in the 
2000 Current Population Survey, 52 percent of parents reported their 3- 
and 4-year-old children were ``in school,'' some 4,000,000 children 
overall. Many parents seek out child care that is advertised as 
``improving your child's school readiness'' and some purchase billions 
of dollars worth of educational materials to which they expose their 
children as early as the first months of life.
    Early education and child care settings historically have viewed 
learning and achievement as by-products of enrollment or exposure--one 
could hardly describe that as a ``school.'' But in the last decade the 
early education and care system has systematically re-focused and re-
organized into loose collection of opportunities to learn that are 
increasingly intentional, purposeful, and driven by education policy 
and standards--a virtual school distributed across various settings. 
State and Federal pressure on early education and care is revealed in 
voters' expectations that investments in the increasing formalization 
of this system will produce ``school readiness'' in the children who 
enter kindergarten and the analyses of economists who present the 
financial benefits to a community of investment in early education. K-
12 education is now paying attention to the early education and care 
pipeline.
    Over the past four decades, the Federal Government and most States 
have invested heavily in providing public pre-school programs for 3- 
and 4-year-old children. The percentage of pre-schoolers in child care 
increased from 17 percent in 1965 to about 80 percent in 2008. A marked 
increase in publicly funded programs accompanied this overall increase; 
Head Start was established in 1965 and by 2007-2008 served nearly 
900,000 children in this age range. State-funded public pre-
kindergarten programs greatly expanded during the past 20 years. Now 38 
States offer these programs, which served approximately 1.1 million 
children across the Nation in 2007-8. By 2008, about 80 percent of 
American children attended a center-based pre-school program the year 
prior to kindergarten, most in private programs. Just over half 
attended a center-based program the year before that (at age 3), with 
two out of three of these in a private program. The combination of 
increased enrollment, expansion of publicly funded pre-school programs, 
and recognition of the unique role of early education experiences in 
the establishment of education success has led to a current state in 
which school, for all intents and purposes, starts for the vast 
majority of children in the United States at age 4, and for many, at 3. 
However, despite this general pattern, the fragmentation of policy and 
programs is considerable.
    A widely understood example of policy fragmentation and its impact 
on experience is the set of regulations regarding access to K-12 
opportunities. The age for compulsory school attendance in the United 
States ranges from 5 to 8 (Education Commission of the States [ECS], 
2000), while kindergarten attendance is mandatory in some States and 
optional in others. Kindergarten lasts 2\1/2\ hours in some States, and 
a full day (6-7 hours) in others and State-funded pre-K programs range 
from as short as 2.5 hours per day and as long as 10 hours per day.
    The situation is far worse with regard to the balkanization and 
fragmentation of programs for younger children. The term ``pre-school'' 
encompasses a diverse array of programs under a variety of names and 
auspices for children who have not yet entered kindergarten. Again we 
focus here only on three broad types of programs serving children at 
ages 3 and 4 linked to largely separate public funding streams: private 
child care centers, Head Start, and pre-K programs in public education. 
Yet the real landscape of pre-school is far broader and more complex.
    Enrollment of 4-year-olds is split nearly 50-50 between public 
(including special education) and private programs. Private programs 
serve about 1.6 million 4-year-olds, including children receiving 
public supports such as subsidies to attend these private programs. 
Public programs include about 1 million children in pre-K (regular and 
special education and 450,000 4-year-olds in Head Start. At age 3, 
private programs predominate, serving roughly 1.4 million children. 
State-funded pre-K (regular and special education) serves only about 
250,000 children at age 3, while Head Start serves about 320,000 3-
year-olds. The point here is that even if we focus only on a narrow 
``slice'' of the age 3-3d grade span, in this case, opportunities for 
3- and 4-year-olds, we see little to no evidence of consistency in 
policy or on programmatic initiatives that create the templates for 
local opportunities for children and families. In thousands of 
communities across the country, children, particularly the most 
vulnerable, are funneled into one program at 3 and then shuffled to 
another at 4, and yet another at 5--or worse they are among those who 
lack access to any of these opportunities. And most have some other 
sort of child care (subsidized or not) at some point in the day or 
week. To be concrete, if the public schools cannot manage to offer 
universal full-day kindergarten, then how does one go about 
conceptualizing and designing a system of early education and care that 
is aligned with it? I hope you can see the need for an age 3-3d grade 
approach to policy and program improvement.
    For the considerable investments of time, money and effort in early 
education of 3- and 4-year-olds to pay off, a primary goal of policy 
and program development must now be the alignment of the learning 
opportunities, standards, assessments, and goals in early education 
with those in K-12.
                             the workforce
    Enrollment of 3- and 4-year-olds in early education programs is 
pressuring the supply chain for early childhood educators and for 
effective training of those educators. Universal pre-K programs for 4-
year-olds will require at least 200,000 teachers, with estimates of 
50,000 new, additional teachers needed by 2020. Ninety-five percent of 
the workforce currently staffing formal pre-school and early education 
programs comes from 4-year and 2-year early childhood training programs 
and certified teachers from the K-12 system, with some unknown number 
of adults with unknown credentials staffing family-based child care and 
informal care. Unlike 
K-12 in which the supply chain is regulated by a single State entity 
and typically requires a 4-year degree from an accredited institution 
(or equivalent), training of the early education and care workforce is 
widely distributed and loosely regulated. Even in State-funded pre-K 
programs, rapidly ramping-up has forced many States to rely on teachers 
with elementary grade certifications and teachers with 2-year degrees 
``grand fathered' into certification. Growing demand has created 
problems both in relation to supply of early educators who can staff 
expanding programs and in terms of providing new teachers with 
appropriate training, staff development, and support to ensure that 
they create learning opportunities that produce achievement.
    The attributes and skills of the adults who staff elementary school 
and pre-school educational settings tend to be very different. At the 
kindergarten level, nearly all States require a Bachelor's degree and 
some level of specialized training in education for adults to be 
certified to teach and over 95 percent of the teachers in kindergarten 
classrooms meet both criteria. Even though many have only sparse 
training in teaching your children.
    In contrast, pre-school teachers vary widely in their level of 
training and, on average, receive less training and education than 
their elementary school counterparts. There are large differences even 
among teachers in State-funded pre-K programs. Minimum requirements 
range from a Child Development Associate (CDA) certificate to an 
Associate's degree to a Bachelor's degree. Furthermore, some States 
require that the 2- or 4-year degree be in early childhood education or 
child development, while others do not specify a field of study. Even 
in the fairly well-regulated domains of State-funded pre-kindergarten 
programs and kindergarten, there is substantial variance in the 
preparation and qualifications deemed necessary for the workforce, a 
reality that seems indefensible given the developmental needs of 4- and 
5-year-olds. How could fostering early literacy for a 4-year-old 
require such a different preparation than fostering literacy in a 5-
year-old?
    Head Start has national standards for program structure, operation 
and teacher credentials, but does not require all teachers to have 
college degrees. Head Start is increasing their educational standards 
for teachers and educational coordinators, with aims that all Head 
Start teachers will have at least an Associates (AA) degree specialized 
in early childhood, and all education coordinators have at least a BA 
degree specialized in early childhood by the 2011 school year. And at 
least 50 percent of the Lead teachers in Head Start must have at least 
a BA degree by 2013. As I will note later, there is no evidence that 
garden variety educational experiences--coursework--will lead these 
teachers to be more effective in the classroom.
    For children enrolled in the less-regulated ecology of family- or 
center-based child care, exposure to credentialed or degreed staff is 
even lower. The 2007 child care licensing study was one of the more 
recent and comprehensive studies of the child care workforce. Drawing 
on data gathered from 49 States and the District of Columbia, in the 
vast majority of States (42) directors of child care centers are only 
required to have some occupational/vocational training, some higher 
education credit hours in early childhood education, or a Child 
Development Associate's credential. Only one State required that 
directors of child care centers hold a Bachelor's degree. Similarly, 
for individuals considered as teachers in licensed child care centers, 
40 States required some combination of a high school degree and 
experience. Only 10 States required some vocational program, 
certificate or CDA, and 13 States had no requisite educational 
qualification for child care teachers.
    Capable early education is a complex and challenging task--teachers 
need to know a lot about basic child development, far more than the 
typical course--and they need to know about how to teach and stimulate 
vocabulary, conversations, early literacy, knowledge of science and the 
community, and early mathematics--all the while handling sensitively 
the varied needs of 15-25 3-8-year-olds--and within a classroom of 3-
year-olds the range of skills can go from 2 years to 5, while in a 
classroom of 8-year-olds it could range from 2-12. Imagine the training 
and support required to support the developmental and educational 
growth of all those children!
    Clearly we have not settled on a set of minimal qualifications for 
adults serving in the role of teachers of young children, whether this 
teaching takes place in community child care, Head Start, public Pre-K 
or K-3 classrooms. And we have not even begun to address the need to be 
consistent in our regulation and training of those skills across the 3-
3d grade span.
    In short, to the extent that teachers play an essential role in 
fostering effective learning opportunities for young children, children 
passing through the pre-school-3d grade period can expect a stunning 
level of variation from year to year and setting to setting in even the 
most basic features (i.e., educational level) of these personnel.
    And consistent with nearly every other form of teacher training, 
there is so little evidence linking pre-service or in-service training 
experiences or teacher credentials to child outcomes or to observed 
performance for teachers, that there is considerable debate about 
whether requiring a 4-year degree is the best way to ensure early 
education programs help children learn. Addressing workforce needs in 
this system will require a re-thinking and re-balancing of several 
factors, including incentives, the content and processes of training, 
and efforts to professionalize the workforce and integrate the early 
education system with K-3.
            what makes for an effective teacher in pre-k-3?
    Degrees are poor proxies for the instructional and social 
interactions teachers have with children in classrooms. Children's 
direct experiences with teachers, such as the ways teachers implement 
activities and lessons; whether a teacher is encouraging and able to 
assist the child if he/she is struggling; whether the teacher uses the 
opportunity to engage the child in conversation are the features of 
early education that are responsible for children's learning. The 
active ingredient for learning is what a teacher does, and how she does 
it, when interacting with a child.
    Effective teaching in early education, including the elementary 
grades, requires skillful combinations of explicit instruction, 
sensitive and warm interactions, responsive feedback, and verbal 
engagement/stimulation intentionally directed to ensure children's 
learning while embedding these interactions in a classroom environment 
that is not overly structured or regimented. These aspects of 
instruction and interaction uniquely predict gains in young children's 
achievement, have been directly tied to closing gaps in performance, 
and are endorsed by those who advocate tougher standards and more 
instruction and by those who argue for child-centered approaches. But 
unlike for older children, to be effective, teachers of young children 
must intentionally and strategically weave instruction into activities 
that give children choices to explore and play, engage them through 
multiple input channels, and should be embedded in natural settings 
that are comfortable and predictable. The best teachers are 
opportunists--they know child development and exploit interests and 
interactions to promote it--some of which may involve structured 
lessons and much of which may not.
    Interactions with teachers determine the value of enrollment in 
pre-school and contribute to closing performance gaps. As one example, 
we examined whether children at risk of early school failure exposed to 
high levels of observed instructional and emotional support from 
teachers would display higher achievement than at-risk peers not 
receiving these supports. Two groups of children were identified: those 
whose mothers had less than a 4-year college degree and those who had 
displayed significant behavioral, social and/or academic problems, who, 
on average, were behind their peers at age 4 and further behind by 
first grade. Yet if placed in classrooms in which teachers demonstrated 
the type of interactions described above these gaps were eliminated: 
children from low-education households achieved at the same level as 
those whose mothers had a college degree and children displaying prior 
problem behavior showed achievement and adjustment levels identical to 
children who had no history of problems.
    These results are consistent with a cluster of experimental and 
well-designed natural history studies that show a return to achievement 
from observed classroom quality of between a half to a whole standard 
deviation on standardized achievement tests, with greater effects 
accruing to children with higher levels of risk and disadvantage. 
Experimental studies, although few and involving far fewer children, 
show similar effects. In fact, findings are almost uniform in 
demonstrating significant and meaningful benefits for enrollment in 
early education settings in which teacher-child interactions are 
supportive, instructive, and stimulating. Yet these ``effects'' studies 
do not provide information on the prevalence and distribution of such 
``gap closing'' classrooms within the system of early education and 
care, or how to produce gap-closing settings.
                quality is less available than you think
    Unfortunately, the odds are stacked against children getting the 
kind of early education experiences that close gaps. Observational 
studies including several thousand settings, indicate that young 
children are exposed to moderate levels of social and emotional 
supports in their Pre-K, K, 1st and 3d grade classrooms and quite low 
levels of instructional support--levels that are not as high as those 
gap-closing, effective classrooms described above. The quality of 
instructional interactions, particularly the dimensions that appear to 
matter most for children's achievement, is particularly low (the 
average levels hover around a ``2'' on a 7-point scale).
    In addition to somewhat low levels of instructional support, in 
nearly every study that includes a large number of classrooms, there is 
also an exceptional degree of variability in the opportunities that 
appear to contribute to increased performance. Observations that 
include several thousand child care settings, pre-K, kindergarten and 
first grade classrooms show that some children spending most of their 
time engaged in productive instructional activities with caring and 
responsive adults who consistently provide feedback, challenges to 
think, and social supports. Yet for others, even in the same program or 
grade, most of their time is spent passively sitting around, having few 
if any interactions with an adult, watching the teacher deal with 
behavior problems, exposed to boring and rote instructional activities. 
In some programs, even in classrooms right next to one another that 
share the same materials and curriculum, the exposure of children to 
high quality learning and social supports is so dramatically different 
that one would conclude the difference was planned. Children in some 
classrooms may be exposed to few, if any, instances of any form of 
literacy-focused activities, whereas in others children received more 
than an hour of exposure to literacy-related activities, including 
narrative story-telling, practice with letters, rhyming games, and 
listening.
    Drawing from the very large sample of State-funded pre-K classrooms 
in the NCEDL study, we used the statistical procedures of multi-stage 
cluster analysis to group similar classrooms together as a way of 
profiling this sector of American education (the NCEDL sample 
represents 80 percent of pre-K programs serving 4-year-olds in the 
United States). They show that only about 25 percent of pre-K 
classrooms show high levels of emotional and instructional support--the 
type of classroom setting almost universally described as high quality 
(this is not unique to pre-K; we find the same rates in first and third 
grade). Even further troubling is evidence that the pre-schooler lucky 
enough to experience a pre-K classroom likely to contribute to 
achievement is unlikely to be enrolled in a similarly high quality, 
gap-closing classroom in kindergarten or first grade. Rather it appears 
that exposure to gap-closing classroom quality, although highly 
desirable from nearly every perspective imaginable, is a somewhat 
random and low prevalence event that is even more unlikely for children 
in poverty.
    These realities about the level and distribution of high quality 
early education classrooms in the United States probably reflect the 
convergence of at least three factors. First, teaching young children 
is uniquely challenging and is not easy. Second, many of the publicly 
funded early education programs that are included in large-scale 
studies (such as Head Start and State pre-K) are composed of a high 
percentage of children who live below the poverty line who can bring 
with them a collection of features that make teaching even more 
challenging, especially when concentrated in a classroom. Third, the 
system of early education operates on a shoestring of support and is 
not at all aligned with K-12--it is often less well-funded than K-12, 
classrooms are housed in trailers or makeshift locations, and teachers 
tend to not use the same curricula, assessments, or approaches to 
teaching across these years. There is no systematic approach to 
connecting pre-school--what takes place for 3- and 4-year-olds--with 
early elementary school--and so we lose much of the potential leverage 
for early education impacts on later learning and achievement simply by 
the way the system is (not) designed.
     professional development to improve teacher effectiveness and 
                      early education impacts 3-3d
    Too few of the students who are in greatest need of effective 
teaching in their early education experiences receive them and the few 
that do are unlikely to receive them consistently, making it unlikely 
that the positive effects will be sustained for children who need 
consistent supports.
    These findings should spark an interest in raising and leveling the 
quality of classroom supports available to young children across the 
ages of 3-8--this is truly a critical period for learning skills 
required later. One option is to focus on structural features of 
schools and classrooms such as teacher education and certification, 
class size, and curriculum and enact policies to ensure that these 
proxies for quality are uniformly in place. The available data do not 
provide compelling support for this option, although it should not 
necessarily be discarded altogether. Another option is to aim 
regulation and support at what teachers do in classrooms as they 
interact with children and find ways to more directly change and 
improve the dimensions of instructional and social interactions 
teachers have with children in large numbers of classrooms.
    A first step in that direction would be more systematic, objective, 
standardized descriptions of such interactions and professional 
development and training systems for teachers that actually support 
them to interact more effectively with their students. Ultimately, such 
systems, if based on strong and valid metrics, may be a more cost-
effective mechanism for effecting real change for teachers and children 
in part because rather than focusing personal and financial resources 
in the pursuit of proxies that show little relation to teacher quality 
and child outcomes, such a system could be organized around direct 
assessments of teacher/classroom quality shown to be related to 
children's outcomes. Increasingly there are tools to help facilitate 
progress toward this goal. Observational measures such as those we have 
developed--the Classroom Assessment Scoring System, or CLASS--and those 
used in other large-scale applications, that focus on standardized 
observation of instruction, are reliable and valid measures, directly 
linked to improvement in student outcomes. These tools, spanning the 3-
3d period could form the basis of strategic scientifically based 
development of a new generation of professional development and policy 
initiatives aimed at increasing educational opportunity by forming a 
coherent and consistent view of teaching and learning across these 
ages, one predicated on an understanding of how young children learn 
through interactions with adults.
    Others and we are innovating with technologies for conducting 
classroom observation at-scale. It may be quite feasible to imagine a 
system of program development and improvement teachers/classrooms can 
be observed on an annual basis using an instrument that assesses 
dimensions of classroom experience that contribute to child 
achievement.
    More important than being able to observe and measure social and 
instructional interactions in classrooms is to design and test models 
for improving these opportunities to learn. What is emerging, through 
more systematic evaluations of professional development programs that 
are closely linked to classroom practice, such as mentorship and 
coaching, is that direct training and constructive feedback and support 
to teachers based on observation of their interactions with children in 
classrooms yield promising results for improving early education 
practice and children's performance. Challenges remain in how to 
further develop, validate, and scale-up such approaches, but the 
science of early education holds considerable promise for advancing 
these possibilities.
    For the early childhood education system to move toward the goal of 
active and marked advancement of children's skills and competencies, 
the quality and impacts of programs must be improved through a 
vertically and horizontally integrated system of focused professional 
development and program designs/models that are educationally focused 
(as described earlier). In short, programs themselves need to re-align 
around educational aims (in key developmental domains and appropriately 
articulated) and teachers must receive preparation and support to 
deliver classroom experiences that foster those aims more directly. 
Teaching would entail providing teacher-student interactions that 
promote the acquisition of new skills, delivers curricula effectively, 
and individualizes instruction/interaction based on children's current 
skill level, background, and behavior. Programs require (and policy 
should incent use of) proven-effective professional development 
supports through which teachers would acquire the skills in effective 
teacher-child interactions and implementation of curricula and 
assessment in developmentally synchronous ways.
    Improvement of early education impacts rests on aligning 
professional development and classroom practices with desired child 
outcomes. In particular, the field needs a menu of professional 
development inputs to teachers (pre-service or in-service) that are 
proven to produce classroom practices (e.g., teacher-child 
interactions) that in turn result in the acquisition of desired skills 
among children (e.g., literacy skills). Efforts to develop such a 
system of aligned, focused, and effective professional development for 
the wide-ranging early childhood workforce are underway through the 
auspices of the Department of Education-funded National Center for 
Research on Early Childhood Education (NCRECE) and by several other 
investigators, which target children's early literacy and language 
development, and mathematics.
    Targeted intervention to improve teacher interactions with children 
and instruction in academic skills such as the NCRECE My Teaching 
Partner approach does increase effective teaching and children's social 
and academic gains. Other research groups have demonstrated similar 
results--that coaching teachers in interactions that are linked to 
instructional supports for learning and good implementation of 
curriculum can have significant benefits for children. Mentoring and 
training are difficult to measure and to bring to scale, though 
relatively ``easy'' to prescribe as the professional development 
answer. One critical component of bringing mentoring to scale concerns 
the ability of systems to prepare and regulate mentors; yet only three 
States have defined core competencies for technical assistance 
providers.
    Professional development approaches optimally should be designed 
for ``high-
priority'' skill targets, such as pre-school language and literacy or 
math, and start with defining these targets and ensuring that there is 
a curriculum in place that reflects these targets. A high priority 
target for literacy or math instruction is one that (a) is consistently 
and at least moderately linked to school-age achievement, (b) is 
amenable to change through intervention, and (c) is likely to be under-
developed among at-risk pupils. It is clear that increasing teachers' 
knowledge of developmentally relevant skill progressions can be a key 
aspect of improving their instruction and child outcomes yet teachers 
also require dedicated attention to implementing that knowledge through 
their interactions in the classroom.
    an innovative web-based professional development treatment for 
                       improving school readiness
    Because effects of organized curricula on children's skills are 
mediated and/or moderated by teacher-child interactions, these 
interactions must be a central focus of PD interventions aiming to 
improve child outcomes. The average pre-K-3 child experiences teacher-
child interactions of mediocre-low quality, but small increments 
produce skill gains.
    MyTeachingPartner (MTP) Coaching focuses on improving teacher-child 
interactions defined and measured by the CLASS. Because the majority of 
teachers' interactions fall below the threshold levels most pre-school 
classrooms do not operate in the ``active range;'' small incremental 
improvements are associated with meaningful changes in children's 
skills. Importantly, MTP is capable of moving teacher-child 
interactions into (and through) the range in which they improve 
children's readiness.
    For example, the improvements yielded from MTP were substantial. 
MTP coaching of teachers improved their interactions and instruction 
and closed the achievement gap in literacy and language development for 
poor children by almost a third. Coaching was delivered to teachers 
entirely through the web; this is perhaps one of the first completely 
web-based professional development approaches that is effective, 
individualized, and improves teacher-child interactions across any 
curriculum. And the use of the web in this and other novel and 
effective approaches to professional development affords potential for 
scalability and cost-savings for travel, and location is not a pre-
condition to individualized feedback to teachers. To illustrate, MTP is 
among the least expensive professional development for teachers for 
which cost has been documented with effects larger than those typically 
reported in the literature. And MTP and other web-mediated approaches 
can be aligned with training, certification, and degree requirements 
for teachers.
    The best approaches to professional development focus on providing 
teachers with developmentally relevant information on skill targets and 
progressions and support for learning to skillfully use instructional 
interactions, and effectively implement curricula. These approaches 
align (conceptually and empirically) the requisite knowledge of desired 
skill targets and developmental skill progressions in a particular 
skill domain (e.g., language development or early literacy) with 
extensive opportunities for: (a) observation of high-quality 
instructional interaction through analysis and viewing of multiple 
video examples; (b) skills training in identifying in/appropriate 
instructional, linguistic, and social responses to children's cues, and 
how teacher responses can contribute to student literacy and language 
skill growth; and (c) repeated opportunities for individualized 
feedback and support for high-quality and effectiveness in one's own 
instruction, implementation, and interactions with children. This is a 
system of professional development supports that allow for a direct 
tracing of the path (and putative effects) of inputs to teachers, to 
inputs to children, to children's skill gains.
    Again, evidence is very promising that when such targeted, aligned 
supports are available to teachers, children's skill gains can be 
considerable, on the order of a standard deviation. Unfortunately, pre-
school-grade 3 teachers are rarely exposed to multiple field-based 
examples of objectively defined high quality practice and receive few 
if any opportunities to receive feedback about the extent to which 
their classroom interactions and instruction promote these skill 
domains. And at present, there is also very little evidence that the 
policy frameworks and resources that should guide and incent 
professional development and training of the early education workforce 
actually are aligned with the most promising, evidence-based forms of 
effective professional development. Thus there is little wonder that 
teachers with a 4-year degree or 2-year degree do not differ from one 
another substantially in either their practice or students' learning 
gains, or that investments in courses and professional development 
appear to return so little to children's learning. It truly does 
``depend'' on the nature and type of professional development and 
future considerations for policy aimed to improve the quality and 
effects of pre-school must very clearly address this disconnect and 
make investments in professional development far more contingent on 
what we know is beneficial to teachers and children as opposed to 
convenient or beneficial to professional development providers.
                        summary and conclusions
    The conclusions are fairly straightforward. First, early 
educational opportunities in this country are a non-system. Publicly 
supported early education programs (child care, Head Start, State-
funded pre-kindergarten, K-3) encompass such a wide range of funding 
streams and targets, program models, staffing patterns and 
qualifications, curriculum, assessments, and teacher capacities that it 
cannot be understood as an organized aspect of the public system of 
support for children. This is unfortunate because evidence is so clear 
the opportunities to learn, and learning that takes place, in this age 
range are simply more important than at other ages, for the long-term 
well-being of individuals, families, and communities.
    Second, despite this stunning variability and fragmentation, there 
is compelling evidence from well-controlled studies that early 
educational experiences can boost development and school readiness 
skills, can close achievement gaps in elementary school, and can have 
longer-term benefits to children and communities over time. 
Unfortunately, the effects of various program models are quite varied, 
with some rather weak and ineffective while other scaled-up programs 
narrowing the achievement gap by almost half. And it is quite clear 
that programs that are more educationally focused and well-defined 
produce larger effects on child development.
    Third, for children enrolled in pre-school, features of their 
experience in those settings matter--particularly the ways in which 
teachers interact with them to deliver developmentally stimulating 
opportunities. The aspects most often discussed as features of program 
quality regulated by policy (such as teacher qualifications or 
curriculum) have much less influence on children than is desired and 
their influence pales in comparison to what teachers actually do with 
children. Critically important, interactions between teachers and 
children can be observed and assessed using standardized and scalable 
approaches (as is evident in the use of CLASS in Head Start and many 
school districts). Unfortunately, when assessed in this manner, it is 
evident that most early education classrooms fall short on teachers' 
demonstrating gap-closing interactions. Finally and perhaps most 
promisingly, teachers' skills and children's learning can be improved 
with specific and focused professional development training and 
support.
    If effective models of professional development can indeed change 
child outcomes, then the potential for scaling and building incentive 
and policy structures around these models becomes an important feature 
of systemic improvement and policy. The recent development and 
expansion of Quality Rating and Improvement Systems in early childhood 
are one such example of a set of policy initiatives that integrate 
measurement of inputs and outcomes with incentives and resources for 
teacher improvement.
    Finally, one might also envision professional preparation and 
credentialing models based on what we are learning from studies of 
effective professional development and its evaluation. To the extent 
that these models of support and education for teachers can be 
demonstrated to produce gains in teacher competencies that produce 
child outcome gains, then it seems critical to build such opportunities 
for professional preparation ``back'' into the ``pre-service'' sector 
and to find methods for credentialing and certifying teachers on the 
basis of participation in effective professional development and 
demonstration of competence. In fact, new policy statements related to 
professional development and career development being suggested by the 
National Association for the Education of Young Children explicitly 
identify teachers' performance in classroom settings, specifically 
their interactions with children, as a dimension of career advancement 
that should be credentialed and tied to professional development. Such 
statements by professional organizations reflect openness to innovation 
that, paired with demonstrably effective supports for teachers, could 
pave the way for tremendous positive change in outcomes for teachers 
and children.
    In an era of high-stakes testing in which even young children may 
be held to uniform, minimum performance standards, it is disconcerting 
to note that the system on which the Nation is relying to produce such 
outcomes provides exceptional variability in the nature and quality of 
actual opportunities to learn. It seems unreasonable to expect 
universal levels of minimal performance for students when the 
opportunities in early education are so unevenly distributed. As the 
system of early education serving children from 3-8 in the United 
States evolves as an integral component of the solution to a host of 
problems related to schooling and achievement, serious attention is 
needed to policies, particularly for teachers and their professional 
development and support, that help re-design this portal into public 
education in terms of aligned, effective experiences in classrooms that 
indeed foster children's learning and development.

    The Chairman. Thank you very much, Mr. Pianta.
    Now, Ms. Zalkind, welcome.

 STATEMENT OF HENRIETTA ZALKIND, EXECUTIVE DIRECTOR, DOWN EAST 
           PARTNERSHIP FOR CHILDREN, ROCKY MOUNT, NC

    Ms. Zalkind. Thank you.
    Thank you for having me here today. Thank you, Senator 
Burr, for the wonderful introduction.
    I am here today on behalf of the hundreds of people locally 
who have made this work possible over the last 16 years, who 
have committed themselves to not leaving any child behind.
    The Down East Partnership for Children--we call it DEPC--is 
committed to successfully launching every child in our two 
counties as a healthy lifelong learner by the end of the third 
grade. DEPC believes that the developmental period for children 
0 to 8 is critical to their long-term healthy growth and 
development. That is when they are learning to learn. It is 
also a critical period for parents, learning to parent and 
learning to engage in their child's education.
    We were founded as a nonprofit in 1993 and work on a model 
of services that works in collaboration with two local school 
systems--Nash-Rocky Mount and the Edgecombe County Public 
Schools--early care providers, human service agencies, and 
other community leaders. We have a 27-member board, 
representing the multiple stakeholders that you need for this 
work to work in concert to build a strong foundation for 
student achievement.
    Annually, we bring in about $7 million of different funding 
from the State, from the Federal Government, from private 
sources, to either do three programs directly--a childcare 
resource and referral program, a family resource program, and a 
coordinated subsidy program--and then we fund 20 total 
agencies, 20 programs in 10 other agencies, including the 
health department, the schools, the library, the Department of 
Social Services, and other area nonprofits.
    And all of these different programs have to go to support 
our three long-term goals--unique support for each child and 
family, high-quality early care and education environments, and 
access to coordinated community resources. Everything that we 
do directly or that we fund through the different agencies go 
through an annual bid process with annual outcomes that help us 
move towards those three long-term goals.
    We work off an integrated multi-agency strategic plan that 
is on our Web site that has intermediate outcomes toward those 
long-term goals. My testimony today really focuses on a few 
major components of our system that I think bear on the 
reauthorization of the No Child Left Behind and the ESEA.
    First, our Family First system that provides comprehensive 
services to families, including intake and assessment, 
referrals to a whole continuum of services ranging from early 
education subsidies to evidence-based parent education. We have 
a coordinated subsidy system that works in collaboration with 
the subsidy money, the CCBD--it is hard for everybody to say--
the Department of Social Services, title I preschool programs, 
private childcare providers, and Head Start to maximize the use 
of all subsidy funds for children 0 to 12 by ensuring that 
children are served in the most appropriate early care and 
education program available.
    It is also our single-biggest way that we control the 
quality by mandating that people who participate in that system 
operate at a certain level of quality and contracting with 
those people for that level of quality, that provides not only 
access to the care, but it provides access to high-quality 
care.
    We have a system of home-school contacts that operate 
through both school systems that provide transition from home 
to childcare, to early education, to school--that is our 
outreach system to make sure that we know all of the children 
before they get to school and that we can follow them through 
the third grade and that they are successfully launched by the 
end of the third grade.
    The thing that I will focus the most on today is our Ready 
Schools Initiative, really designed to build the capacity of 
the schools to meet the needs of all children so that children 
are not just ready for school when they get there, but that the 
schools are ready for them. And then, finally, our Ready 
Communities Initiative, which wraps community leadership--
including business, faith, and community--around schools to 
support them in their effort to launch every child as a 
successful learner by the end of the third grade.
    Five minutes goes fast.
    [Laughter.]
    The Ready School Initiative we launched about 5 years ago, 
really works off the HighScope Ready Schools Assessment that 
Dr. Schweinhart talked about. We build school-community teams 
that assess the school's capacity around the Ready School 
pathways, leader and leadership, transition, teacher supports, 
engaging environments, effective curriculum, family-school-
community partnerships, respecting diversity, and assessing 
progress.
    And to date, we have done 14 out of the 19 public 
elementary schools in our two districts. We have done a wide 
variety of things that have really improved the school 
capacity, the schools' capacity to both be ready for the 
children, but to utilize their title I funding to move from 
where they are in terms of being more ready for every single 
child. We have seen great results around improving leaders and 
leadership, transition, family-school-community partnerships, 
and diversity.
    Eight of those 14 schools have now gone through the 
HighScope a second time with wonderful results, and that 
process of building the community team, seeding it with leaders 
and leadership that we have generated through our Ready 
Communities process is really the thing that has worked to move 
the process forward, and that is what I would really recommend 
in terms of embedding in the law as you move forward.
    [The prepared statement of Ms. Zalkind follows:]
                Prepared Statement of Henrietta Zalkind
                                summary
    The Down East Partnership for Children (DEPC) is committed to 
successfully launching every child as a healthy, lifelong learner by 
the end of the 3rd grade. DEPC believes that the developmental period 
for children from 0 to age 8 is critical to their long-term healthy 
growth and development.
    Founded as a nonprofit in 1993, DEPC has 16 years of experience 
with a model of services that works in collaboration with two local 
school systems (Nash-Rocky Mount Public Schools and Edgecombe County 
Public Schools), early care providers, human service agencies, and 
other community leaders and organizations. DEPC has 3 long-term goals: 
Unique Support for Each Child and Family, High Quality Early Care & 
Education Environments, and Access to Coordinated Community Resources.
    The testimony will focus on the key components of the DEPC model, 
including:

    <bullet> Supporting a Family First system to provide comprehensive 
services to families, including intake, assessment, referrals, and a 
continuum of services, ranging from early education subsidies to 
evidence-based parent education.
    <bullet> A Coordinated Subsidy system in collaboration with 
Departments of Social Services, Title I Preschool Programs, private 
child care providers, and Head Start to maximize the use of subsidy 
funds for children 0-12 by ensuring that children are served by the 
most appropriate subsidized early care and education program available.
    <bullet> Creating smooth transitions from home, early care 
settings, and throughout elementary school through a system of home-
school contacts.
    <bullet> Ready Schools Initiative designed to build schools' 
capacity to meet the needs of all children through assessment, 
planning, and coaching.
    <bullet> Ready Communities Initiative designed to develop 
community-based leadership to support early care and education and 
connect them with their local elementary school.

    Based on our lessons learned in implementing our model of early 
care and education, DEPC recommends:

    <bullet> Increase investment in early care programs to promote 
prevention rather than intervention.
    <bullet> Build infrastructure for Ready Schools that have the 
capacity and resources to be ready to meet the needs of all children.
    <bullet> Promote flexible funding that will encourage innovation, 
developmentally appropriate classrooms Pre-K-3, connections and 
alignment with early care providers, and family engagement.
    <bullet> Build the capacity of teachers and administrators to 
individualize instruction to meet the varying needs of children in 
their classrooms.
    <bullet> Utilize family-school-community partnerships as a 
cornerstone of the school improvement process.
    <bullet> Fund leadership development at all levels to support early 
care and education for children birth to age 8.
                                 ______
                                 
                               background
    The Down East Partnership for Children (DEPC) is committed to 
successfully launching every child as a lifelong learner by the end of 
the 3rd grade. Located in Rocky Mount, NC, DEPC serves Nash and 
Edgecombe counties with nearly 18,000 children under the age of 8. The 
majority of these children face risk factors for success; including 
poverty, low high school graduation levels of their parents, and high 
percentage of single parent households.
    Founded as a nonprofit in 1993, DEPC has 16 years of experience 
with a model of services that works in collaboration with two local 
school systems (Nash-Rocky Mount Public Schools and Edgecombe County 
Public Schools), early care providers, human service agencies, and 
other community leaders and organizations. The DEPC Model of Family & 
Child Services (See Appendix A) is a continuum designed to serve 
children ages 0-8 and their families. The model incorporates multiple 
components to meet families' diverse needs so that services are 
available ``For Every Child.''
    DEPC's model is intended to lead to long-term success on indicators 
for child and family well-being and community success. DEPC's work is 
driven by a comprehensive strategic plan developed to support the 
healthy growth and development of children 0-8 in all domains of child 
development.
    DEPC operates 3 programs directly through its Family Resource 
Center: Child Care Resource & Referral, Family Resource, and 
Coordinated Subsidy. Research & Evaluation and Community Collaborative 
initiatives, including Ready Schools, Ready Communities, Healthy Kids 
Collaborative are also a part of DEPC's organizational model (see 
Appendix B). Annually DEPC strategically invests more than $7 million 
into the local economy to support 20 programs at DEPC and in 10 other 
agencies and organizations, including health department, school 
systems, library, departments of social services, and other area non-
profits. These programs are supported through a combination of local, 
State, and private funds. All programs are funded through an annual bid 
process and must demonstrate annual outcomes and how they will move 
DEPC toward its three long-term goals.
    DEPC is one of North Carolina's local Smart Start Partnerships and 
the local administrator for the State's More at Four pre-kindergarten 
program. DEPC was also one of the local demonstration sites for the 
national Supporting Partnerships to Assure Ready Kids (SPARK) 
Initiative funded by W.K. Kellogg Foundation to align early care and 
education systems to support Ready Kids, Ready Families, Ready Schools, 
and Ready Communities. As a result, DEPC has been a leader in Ready 
Schools in North Carolina over the past 5 years.
    The following are DEPC's long-term goals used to guide the 
organizational and community efforts.
                unique support for each child and family
    DEPC values and respects that each child and family is unique and, 
as such, has unique strengths and needs.
    <bullet> Children will have access to resources that support their 
growth and development in the 5 domains of child development 
(cognition, language and communication, approaches to learning, social 
and emotional, and health and physical).
    <bullet> Families will have increased knowledge and access to 
resources to support their child's growth and development from prenatal 
through age 8.

    To achieve this goal, parents gain access to information, 
referrals, and services through the Family First system, including 
parent education classes, support groups, child care subsidies and 
other parenting resources.
           high quality early care and education environments
    DEPC believes that the developmental period for children from 0 to 
age 8 is critical to launching them as lifelong learners. During this 
time, children are exposed to a variety of environments. Each of these 
environments (home, child care, and school) must be of high quality for 
children to be successful.

    <bullet> Families will have the skills and knowledge to be their 
child's first teacher by creating a high quality learning environment 
at home.
    <bullet> Child care facilities will have formally educated staff 
that can nurture and stimulate the growth and development of individual 
children utilizing developmentally appropriate practices.
    <bullet> Schools will be able to model ready school best practices 
to transition children effectively into engaging and developmentally 
appropriate environments that continue to nurture and develop each 
individual child's growth.
    <bullet>Families, child care providers, and schools will 
collaborate to create effective transition strategies between 
environments.

    Strategies to achieve this goal focus on improving the quality of 
early care and education environments across the 0-8 spectrum, 
including training and technical assistance to child care providers, 
parent-child playgroups to model developmentally appropriate practice 
for the home environment, and the Ready Schools Initiative.
               access to coordinated community resources
    DEPC has been built on collaboration and the role it plays in 
coordinating resources to increase availability and access to services 
that meet the needs of the community.
    <bullet> Individuals will have the leadership skills and knowledge 
to effectively advocate for resources in their community.
    <bullet> Service systems will be aligned to increase access to 
resources based on ongoing assessments of community needs.

    To achieve this goal, DEPC facilitates leadership development 
through its Community Fellows program, connecting leaders and 
organizations with the DEPC mission through the Ready Communities 
Initiative, and supporting communication and advocacy strategies.
            the key components of the depc model of services
    To achieve its mission, DEPC engages on various fronts to make 
system-wide change:

    <bullet> Ensuring availability of and access to high quality early 
childhood care and education;
    <bullet> Supporting families to effectively parent and meet the 
needs of their individual children;
    <bullet> Facilitating a positive transition to school; and
    <bullet> Building ``ready schools'' and ``ready communities'' that 
can successfully launch all children as learners.
     building access to quality early childhood care and education
    DEPC works on both the supply and demand side of early care and 
education. DEPC educates parents, businesses, and the community about 
the importance of quality child care and provides referrals for parents 
looking for child care. Through training, technical assistance, salary 
supplements, and other support to child care centers and homes, DEPC 
has increased the availability of quality child care in our two 
counties.
    DEPC facilitates a Coordinated Subsidy system in collaboration with 
Departments of Social Services, Title I Preschool Programs, private 
child care providers, and Head Start to maximize the use of subsidy 
funds for children 0-12 by ensuring that children are served by the 
most appropriate subsidized early care and education program available. 
Subsidy providers utilize a combined early care and referral form and a 
coordinated waiting list.
    This system includes access to a Smart Start Scholarship program 
that focuses on serving 0-3 year olds. This not only provides at-risk 
children and their families with access to high quality care during the 
most critical time in their development, it also serves as intake into 
a system that will then connect them with additional services 
throughout the rest of their early childhood period of development (or 
through 3rd grade).
    DEPC also administers the More at Four Pre-Kindergarten program to 
provide high quality care to at-risk 4-year olds through classrooms in 
public schools, Head Start, and private child care centers.

    <bullet> The percentage of children in high quality child care has 
increased from 6 and 7 percent in 1993 in the highest quality settings 
to 69 percent and 70 percent in Nash and Edgecombe counties, 
respectively.
    <bullet> Annually, over 1,000 children access high quality care by 
receiving Smart Start Scholarships (0-3 year olds) and preschool slots 
through the More at Four program.
    <bullet> 83 percent of Nash County and 81 percent of Edgecombe 
County children receiving any form of early childhood education 
subsidies are in 4- or 5-star (highest rated) care.
                              family first
    DEPC recognizes that a parent is a child's first teacher and plays 
a critical role in a child's development during the early years and 
throughout his/her life. Throughout this phase in a child's 
development, the needs of both the child and the family may vary 
greatly. DEPC seeks to address this by offering a continuum of 
evidence-based strategies and programs.
    Trained Family First counselors conduct needs assessments with 
families to determine the resources that will best address their needs. 
Families may receive information on child development and parenting 
issues, referrals to community resources, or access to subsidized child 
care.
    Families are connected with a variety of services including parent-
child playgroups that model appropriate interactions; support groups 
for parents of children with special needs or teen parents; parent 
education through evidence-based curricula including Parenting Wisely, 
Strategic Training for Effective Parenting (STEP), or Incredible years; 
additional information through a Parent Information Center or workshops 
on topics such as money management, healthy eating, helping your child 
have a smooth transition to Kindergarten, or effective communication at 
parent-teacher conferences.
                           smooth transitions
    DEPC has worked with both school systems to create a system of 
home-school contacts that facilitate a variety of transition strategies 
for children and families. Funded through title I, More at Four, and 
Smart Start, these contacts provide home visits for entering 
Kindergartners, coordinate with parents and child care providers to 
facilitate school visits for children to spend time in a Kindergarten 
classroom, and provide workshops for parents to learn strategies to 
support their child's transition and healthy growth and development.
    These contacts help to identify children early for Kindergarten 
(over 90 percent of children are identified before the first day of 
school) that not only allows for the opportunity to participate in 
transition activities (65 percent of Kindergarten families participated 
in three or more transition activities), but also allows the school 
more planning time for student placement.
    Finally, districts also invite child care providers to professional 
development opportunities with school staff to promote alignment 
between early care and elementary school.
    By blending the funding for these contacts, they are able to not 
only ensure smooth transitions into Kindergarten, which is linked with 
increased school readiness, but then provide continued support 
throughout Kindergarten and into the older grades. These contacts have 
also been key members of the school-community teams for the Ready 
Schools assessment and planning process.
                  impact of quality preschool programs
    Through data collected on 250 children that entered Kindergarten in 
fall 2009, DEPC knows that this system of early care and education is 
having an impact on children's having the skills and behaviors needed 
to be successful in school.

    <bullet> 85.6 percent of these children had some type of early care 
experience (More at Four, Head Start, Public Pre-Kindergarten, center-
based child care, family home) the year before Kindergarten.
    <bullet> Children with early care experience rated higher on the 
teacher-completed Hawaii School Readiness Assessment than those with no 
experience in overall readiness and in each sub-dimension (Approaches 
to Learning, Literacy, Math, School Behavior & Skills, Social Emotional 
Behaviors, and Physical Well Being).
    <bullet> Children with early care experience, including those in 
More at Four or Public Pre-Kindergarten programs the year before 
Kindergarten had fewer problem behaviors based on parent-completion of 
the Preschool and Kindergarten Behavior Scales.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Bracken Basic Concept Scales includes a school readiness 
composite, which measures children's abilities on concepts 
traditionally needed to be prepared for early formal education, 
including colors, letter recognition, number recognition and counting, 
sizes/comparisons, and recognizing 1-, 2-, and 3-dimensional shapes. It 
also measures children's abilities on 5 additional sub-tests 
(direction/position, self-social awareness, texture/material, quantity, 
and time/sequence).
    Children who attended More at Four or Public Pre-Kindergarten the 
year before Kindergarten outperformed comparison children on the 
Bracken Basic Concept Scales School Readiness Composite.
                             ready schools
    Early childhood research and DEPC's own data have clearly shown 
that access to quality child care has significant impacts on children's 
readiness for Kindergarten and in many cases long-term success. 
However, often these effects begin to ``fade out'' without continued 
intervention in the early elementary grades K-3.
    To build on the success of getting children ready for Kindergarten 
and help ensure that by the end of 3rd grade children are launched as 
learners, DEPC started its Ready Schools Initiative to increase the 
capacity of elementary schools to be ready for all children. In 2007, 
the NC State Board of Education endorsed the definition and Pathways to 
a Ready School. Included in this recommendation was direction that 
schools develop a ``ready school plan''. Ready Schools is now in 42 of 
100 counties throughout North Carolina. Most recently, the Office of 
Early Learning was created by DPI to strategically focus on the early 
years and reform education for all NC children, pre-kindergarten 
through third grade. (See Appendix C for the NC Definition of Ready 
Schools, Map of Ready Schools)
    In 2005, DEPC developed the Ready Schools Innovation Awards (RSIA) 
process that includes an assessment, development and implementation of 
a workplan, and coaching and technical assistance from one of DEPC's 
Ready Schools Coordinators. To participate in the RSIA process, 
interested schools bring together a school-community team that includes 
Pre-K-3 teachers, administrators, early care providers, parents, 
business, and other community representatives to assess their practices 
in eight dimensions of Ready Schools' practices (Leaders and 
Leadership, Transitions, Teacher Supports, Engaging Environments, 
Effective Curricula, Family, School, and Community Partnerships, 
Respecting Diversity, and Assessing Progress) using the nationally 
validated, research-based High/Scope Ready Schools Assessment (RSA).
    The school-community team then creates a workplan to implement 
strategies based on areas of need identified. These workplans have 
often focused on professional development needed for teachers and 
administrators, such as Ruby Payne's Framework of Poverty training; 
building effective transition strategies between early care, home, and 
school and between grades; establishing family resource centers within 
the school to promote a welcoming atmosphere to families to prompt 
better home-school communication and family involvement; and materials 
and training to increase the use of developmentally appropriate 
practices and active learning centers within K-2 classrooms. Innovative 
strategies have been tested using privately funded grants, but then 
enhanced and/or sustained with title I funds, such as a family resource 
center at Winstead Avenue elementary, in-school transition support for 
K-1 children at Red Oak elementary.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    To date, 14 of the 19 area public elementary schools in our two 
districts have participated in this process.
    Following implementation of their workplan, schools completed the 
High/Scope assessment a second time. Schools showed improvement in four 
dimensions: Leaders and Leadership, Transitions, Family, School, and 
Community Partnerships and Respecting Diversity.
    All schools noted the strength of this process, including coaching 
as key elements of success.
                           ready communities
    DEPC has worked with local stakeholders, including child care 
providers, businesses, faith-based organizations, and community leaders 
to create champions who can provide and advocate for positive change in 
their community.

    <bullet> DEPC has a network of over 75 community leaders that have 
completed either Community Fellows (a 2-year leadership development 
program) or Community Voices (a 15-session leadership training series). 
As a result of these learning experiences, these individuals have the 
skills to be collaborative community leaders.
    <bullet> Investment in early childhood education, including child 
care, not only helps prepare future generations of the workforce, it is 
also a critical component of supporting the current economy. DEPC has 
built the economic engine of small businesses by training nearly every 
child care provider/owner in the two counties.
    <bullet> DEPC is strengthening relationships with both the faith-
based community and the Latino/Hispanic community in the two counties. 
Over 50 faith-based leaders have attended recent education forums to 
learn more about how to be engaged in their local schools, with the 
Healthy Kids Collaborative, or on advocacy-related issues in their 
community.
    <bullet> Healthy Kids Collaborative launched in 2008 and has over 
50 partners working together to increase access to healthy foods, 
opportunities for physical activity, and increasing awareness and 
education on ways to address the issue with parents, child care 
providers, medical providers, and the broader community.

    DEPC connects leaders and resources with each area elementary 
school in order to achieve the following outcomes: increased student 
achievement as well as less student behavior problems; access to 
resources to support students and families; increased family 
engagement, including PTO membership, better attendance at school 
functions, and more effective parent-teacher communication; increased 
support and resources for teachers; decreased teacher turnover; and 
enhanced positive regard for schools.
    To establish these partnerships, DEPC has developed an intensive 
process, the Ready\2\ Initiative, to wrap a network of engaged parents, 
community leaders, and community resources around each participating 
school.

    <bullet> Over 60 people are participating in the Ready\2\ 
Initiative with 2 elementary schools.
    <bullet> This process has created new community-school connections, 
resulted in increased availability of family involvement opportunities, 
such as mentoring for children, parent engagement workshops on behavior 
and parent-teacher conferences, experiences for children provided by 
community members, such as tours of museums and community locations.
    <bullet> Schools are discussing and clarifying the definition of 
family engagement for their school.
    <bullet> Next Steps: Build district-level capacity/infrastructure 
for family and community engagement. DEPC has created a plan with Nash-
Rocky Mount Public Schools and Edgecombe County Public schools to 
continue its Ready Schools and Ready Communities work with an increased 
focus on family engagement, including implementation of evidence-based 
options for K-2 family support.
                            recommendations
    Based on our own lessons learned in implementing a model of early 
care and education for children birth to age 8, DEPC makes the 
following recommendations as you work on the reauthorization of the 
Elementary and Secondary Education Act.
              encourage investment in early care programs
    <bullet> Promote access to high quality care from birth, including 
community-based providers and public pre-kindergarten classrooms. Early 
care should be seen as a component of the education system and 
resources should be in place to ensure all children may access this 
care, as well as support quality improvement of these environments.
    <bullet> Support joint professional development among community-
based and school-based early care providers to promote consistent 
standards and alignment among Pre-K-3 classrooms.
    <bullet> Promote strategies that focus on prevention and early 
intervention to ensure children enter school ready to succeed and have 
the support they need during early grades when they are setting their 
foundation for lifelong learning.
   support the creation of ready schools that have the capacity and 
  resources for schools to be ready to meet the needs of all children
    <bullet> Encourage schools to assess their capacity to model Ready 
Schools best practices to meet the needs of all children with a tool 
such as the High/Scope Ready School Assessment. Provide coaching to 
schools on implementing Ready Schools process and best practices.
    <bullet> Promote use of title I funding to create infrastructure 
and support staff to provide coaching and technical assistance on Ready 
Schools.
    <bullet> Encourage other States to adopt Ready Schools definition, 
pathways, and Pre-K-3 State and local infrastructure.
    <bullet> Support the creation of innovative strategies that will 
promote developmentally appropriate classrooms Pre-K-3, connections and 
alignment with early care providers, family engagement, and build the 
capacity of teachers and administrators to individualize instruction to 
meet the varying needs of children in their classrooms.
    <bullet> Establish data systems to track developmentally 
appropriate assessment data on children Pre-K-3 and provide 
professional development to teachers on ways to effectively use 
assessment data to individualize instruction. Measure schools based on 
growth toward high standards and alternate outcomes, not only on end-
of-grade testing.
    <bullet> Increase flexibility in funding for schools to implement 
strategies based on local student need for all children Pre-K-3, not 
strictly economic status.
       invest in support for family-school-community partnerships
    <bullet> Invest in coaching and infrastructure to support 
development and implementation of effective and meaningful family 
involvement plans.
    <bullet> Encourage active partnerships between schools, early care 
providers, and other community resources to meet all needs of children, 
including access to services for health and family support.
                               conclusion
    Throughout our history, DEPC has learned that to create long-term, 
sustainable change, there must both be the public and political will to 
support the work. We need to build capacity and leadership at all 
levels to implement a comprehensive early care and education system of 
services for children birth to age 8, to ensure that all children will 
be successfully launched as healthy, lifelong learners.
    For more information on DEPC, please visit us at www.depc.org or 
call 252-985-4300.
                               Appendix A

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               Appendix B

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               Appendix C
               nc definition & pathways to a ready school
    Listed below is the definition and pathways to a ready school as 
approved by both the NC Ready Schools Task force and the NC State Board 
of Education.
                               definition
    A ready elementary school provides an inviting atmosphere, values 
and respects all children and their families, and is a place where 
children succeed. It is committed to high quality in all domains of 
learning and teaching and has deep connections with parents and its 
community. It prepares children for success in work and life in the 
21st century.
                  pathways to ready elementary schools
    1. Children succeed in school. The school sets high expectations 
for all students and facilitates healthy growth and development in five 
domains suggested by the National Educational Goals Panel: physical 
well-being; social relationships and emotional development; learning 
approaches that incorporate cultural aspects of learning styles; use of 
language; and cognition, general knowledge, and problem solving. 
Children acquire culturally relevant knowledge and skill sets necessary 
and valuable to the functioning of a modern economy.
    2. A welcoming atmosphere. The school projects an open, child-
focused, welcoming atmosphere characterized by friendliness, respect, 
high teacher and staff morale, and the use of appropriate discipline. 
The building and grounds are inviting and developmentally appropriate. 
Children's work is prominently displayed and bulletin boards contain 
family-oriented material.
    3. Leadership. School leaders believe that all children can learn, 
teachers and staff can develop professionally, and all schools can meet 
or exceed State performance standards. The principal possesses the 
skill sets necessary for leading effectively and creating a learning 
community. The school connects with and garners support from the 
superintendent, school board, and the NC Department of Public 
Instruction. In turn, the superintendent, school board, and the NC 
Department of Public Instruction provide a coherent and appropriate set 
of policies and regulations.
    4. Connections to early care and education and across grades. There 
is ongoing communication and coordination between early care and 
education (ECE) and elementary school teachers for quality assurance 
from Pre-K through grade 3. Standards and curriculum are aligned 
between ECE and the school at the local, district, and State levels. 
The school participates in or provides a number of transition 
experiences for children entering Pre-K or kindergarten such as school 
and home visits, staggered entry, and orientation sessions for children 
and families. Assessment data are obtained from ECE providers in order 
to plan and individualize children's learning. In addition, curriculum, 
instruction, and assessment are aligned and integrated within a 
classroom, within a grade level, and across grade levels.
    5. Connects culturally and linguistically with children and 
families. The school seeks to help children from all circumstances and 
backgrounds succeed. The school uses a culturally appropriate 
curriculum to enhance learning. Children and families are encouraged to 
share their backgrounds and experiences with other children and 
families.
    6. Partners with Families. The school communicates and partners 
with all families in a wide range of activities from providing 
information to engaging parents in policy and decisionmaking. Outreach 
strategies are implemented to ensure that families of diverse 
populations are welcome to participate in all school-related 
activities.
    7. Partners with the community. The school functions as a community 
center drawing children and families from surrounding neighborhoods for 
multiple activities and purposes. It partners with the community to 
provide opportunities and services to children and families such as 
health screening and health services, courses in the English language, 
courses in other languages, and instruction in GED preparation, 
computers, and parenting.
    8. Uses assessment results. The school uses assessments, both 
formal and informal (daily interactions with the child, communications 
with parents), to plan and tailor instruction to individual needs. 
There are strategies in place to improve test scores and reduce 
achievement gaps. The school ensures that assessments are reliable, 
valid, individual and developmentally and culturally appropriate.
    9. Quality Assurance.  The school strives to grow by following a 
written improvement plan that includes a strategy for maintaining its 
mission and goals over time. It supports staff in professional 
development and consults with educational and non-educational experts 
for staff training and quality assurance. Leadership uses data and 
research on effective practices for decisionmaking.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you very much, Ms. Zalkind.
    Thank you all for excellent testimony.
    I will start off a 5-minute round of questioning with a 
question I want you all to roll around in your heads.
    We are under a lot of budget constraints around here, and 
we have got to get our budget priorities in order to improve 
our economy. But everything depends upon priorities. So if you 
have $1 to spend on early childhood education, that is prior to 
kindergarten, or elementary education or high school, all those 
three, how would you spend it? How would you divide up that $1?
    Think about it. We will come back to that when I have my 
next round of questions.
    It seems to me that we all recognize the importance of 
investing in early childhood education. We have recognized for 
some time, you all have attested to it, and we have had studies 
like the one conducted by the Committee on Economic Development 
to underscore the fact. Mr. Griswell mentioned another study 
conducted in 2003. We keep hearing about the importance of 
investing early, over and over again. We have got to focus more 
on early childhood. Yet we just have a potpourri of different 
investments out there.
    There are people doing wonderful things to improve the 
quality of and access to early childhood education in some 
places. In other places they are not doing very much. Even if a 
Federal level were investing in multiple ways. We have prenatal 
care programs. We have the Childcare Development Block Grant 
that is Senator Dodd's child. That is the one that he has been 
champion of for so long. We also have Head Start, Early Head 
Start, and Title I Preschool.
    This committee provided $2 billion in funding for the 
Childcare Assistance Block Grant and also $2.1 billion for Head 
Start and Early Head Start, $4.1 billion. But I am not certain 
that collectively these investments are resulting in optimizing 
the provision of high quality, early learning services. I am 
saying I don't know if there is a sufficient educational 
component to these programs. That is something for us to 
wrestle with. How much of the reauthorization should include 
early childhood education reforms that focus on strengthening 
too.
    And since we are not dealing with those bills right now, 
should we deal with that in ESEA? I am not afraid of breaking 
new ground. I asked similar questions when the Childcare 
Development Block Grant was last reauthorized in 1996. So a lot 
of things have changed since then.
    So I guess, for all of you, my basic question is: Should 
we, in this reauthorization of ESEA, break new ground and 
really move ahead forcefully in an area of early childhood 
education and focus more on investigating early learning? 
Rather than just focusing on elementary and secondary 
education, should we focus more on pre-school education in this 
bill?
    And if so, how? We will just go left to right. Barry.
    Mr. Griswell. Oh, that is a tough one. It is a big one. You 
know, I do think that somebody, somewhere has to take a 
holistic view of how we are delivering education, and I think 
that view has to start at birth. And I am not sure exactly how 
you do it, whether it is through this committee or through 
others.
    But I think if we fail to look at education as starting at 
birth, we will always be fragmented. And we need leadership. We 
need somebody to stand up and say this is the view of what 
education looks like. Here is how we are going to try to get 
organized to accomplish it. It is complicated because States 
are involved, childcare deliverers are involved. But somebody 
has got to create a vision that we can all rally behind.
    And maybe if it is just principles, I, for one, am of the 
view that the Race to the Top, some of the innovative things 
that have been going on in some of the other parts of the 
education system in the United States are positive. I think the 
charter school movement is positive.
    We need to have some of that very same focus on early 
childhood, and we need to stay with it for a long period of 
time. So I think I have answered your question. Yes, I think it 
should be zero, and I would spend my $1--50 cents on early 
childhood, probably 25 to 30 cents on elementary, and what is 
left on secondary.
    The Chairman. Well, thank you. That is interesting.
    Mr. Schweinhart.
    Mr. Schweinhart. We are kind of handed a lot of 
institutions that started a long time ago. Schools pretty 
clearly started at age 5 or 6 in order to take advantage of the 
fact that kids were starting to learn how to read and 
manipulate symbols and that sort of thing. We have come a long 
way since those days, and we understand the way children 
develop a whole lot better today than we did back when we 
institutionalized schooling.
    So we know that rather than a tight focus on reading and 
mathematics, children are developing cognitively, socially, and 
physically. And because that is the way they are developing, 
that is the way our institutions ought to be focusing.
    I am no expert in policy tools. That is what you guys do, 
and it seems to me how we put those policy tools together is 
largely the purvey of this committee. Whether it is Head Start 
or Childcare Development Block Grant or ESEA, those are 
balancing acts. I think, generally speaking, our society needs 
to invest more in children's development in order to be as 
healthy and powerful as it can be in the future.
    Now, how we get there is a question of balancing one thing 
against the other, but I think--I remember a quote from Urie 
Bronfenbrenner some years ago. They asked him what age was the 
most important. He said birth is the most important, and 1 is 
the most important, 2 is the most important, 3 is the most 
important, and 5 and 6 and 7 and 8. Every age of a child is the 
most important, and that is what we have got to do.
    The Chairman. OK. Mr. Pianta, should we address early 
childhood education in the reauthorization?
    Mr. Pianta. Yes. Break ground. I think it is time to do 
that. My remarks were pretty consistent with that.
    I think, Senator Harkin, you raised the issue of whether 
there should be an educational component to many of the 
investments that you are currently making? I would say, yes, 
there should be an educational component. That we could argue 
about what the nature of that component would be--there would 
be a difference of opinion about that--but these environments 
are--you are paying for environments that are too passive right 
now.
    You need environments that are actively engaging kids and 
intentionally engaging kids in learning, however we would 
appropriately define that for 2-year-olds or for 7-year-olds. 
And I think that is the key leverage point that you have.
    I think right now whether you spend $1 or $10, you are 
paying for a lot of activities. You are paying for a lot of 
adults. You are paying for a lot of space. And my point would 
be a lot of that could be better utilized if focused more 
intentionally and the goals and methods defined a little more 
clearly. So those would be my points. Yes.
    The Chairman. Back to that dollar.
    Mr. Pianta. OK.
    The Chairman. Ms. Zalkind, please, I am way over my time. 
Should we address that in this bill?
    Ms. Zalkind. We certainly should address that in that bill, 
and I would spend my whole dollar on early childhood education, 
obviously, because I think that is where you get the most bang 
for the buck. That if kids are failing by the end of the third 
grade, you are going to keep spending money to remediate. So if 
we invest early, we get more bang for that dollar than anywhere 
else.
    The Chairman. Thank you very much.
    Senator Burr.
    Senator Burr. Henrietta, North Carolina--More at Four, Head 
Start, Smart Start, CCDBG. If I made the statement that I don't 
think we are as successful as we could be and I were to blame 
that on the lack of coordination, what would you say?
    Ms. Zalkind. I would say the coordination is something that 
we work on every day at the local level. I think that is 
something that this reauthorization could address. I think that 
if we promote a paradigm that uses a framework like Ready 
Schools to coordinate all the different opportunities and 
funding sources toward common ends that communities can build 
on their strengths and coordinate and leverage all different 
opportunities, depending on families' diverse needs.
    Senator Burr. I think I heard Mr. Griswell say, we have all 
these things out there, and there is nobody really driving the 
train here. We are not using the assets that are in the system 
as effectively, and what works for one might not work for 
another. What works in this community might not necessarily be 
the optimal thing.
    So this is not necessarily about replicating success. It is 
taking the tools that we know work and applying them 
effectively, and coordination is an absolute key.
    Many of you in your testimony today talked about the need 
to ensure better transition between early childhood education 
and elementary schools so that the positive effects of that 
quality early childhood education don't fade. So let me ask 
anybody that would like to talk, to expand on that just a 
little bit more.
    But also I would say since many low-income children enter 
elementary school from a federally supported program like Head 
Start or CCDBG programs, what policy recommendations do you 
have for us for those two programs specifically that we need to 
address in this legislation? I will let anybody who would like 
to take it on.
    Mr. Pianta. You could start requiring that there would be 
articulation of the curriculum used across Head Start programs 
and the local school system. That would be one thing. You could 
start by requiring that those teachers, the adults who are 
working with kids in Head Start programs, were exposed to the 
same form of professional development so that professional 
development occurred jointly from those Head Start-funded 
programs and elementary age.
    I would argue don't stop with Head Start. Try to extend 
into the other kinds of settings and programs that are serving 
young kids, too, so that a coherent approach to educating young 
kids exists in a community.
    Mr. Griswell. Senator, if I might? First of all, I would 
like to thank North Carolina for being a role model in so many 
ways. I know when a lot of States set out to try to figure out 
what to do in early childhood, North Carolina is often brought 
up as a State that is doing it better than most. So I 
congratulate you on that.
    I think one of the things that I would point out is this 
enormous need for quality rating systems, whether it be in the 
Government program or in the private sector. And it is amazing 
to me how much resistance you get to quality rating systems. 
People don't really want to be held accountable for having a 
childcare center that meets certain standards, and you will get 
a lot of pushback, well, if you did that, there will be fewer 
facilities. And I think we have got to hold the line and make 
sure that quality, above all else, is included in all the 
efforts, whether it be Government programs or private programs.
    Business is stepping up. My company, 2 years ago, developed 
its own childcare center in conjunction with our company. So we 
partnered with Bright Horizons. And so, we now have, as part of 
the experience of working for the Principal Financial Group, we 
have a 5-week to 5-year-old childcare facility right in our 
complex.
    So we are going to make sure that we are doing our part to 
make sure that employees of the Principal--but it shouldn't be 
just employees of Principal. It ought to be every child ought 
to have that kind of quality experience.
    Senator Burr. Tremendous. Tremendous.
    In the counties of Nash and Edgecombe County, where Ms. 
Zalkind is from, nearly one-third of the children between the 
ages of 2 and 4 are either overweight or at risk for obesity. 
These numbers represent a health crisis in my estimation.
    The Down East Partnership, Ms. Zalkind, has recently 
launched a wellness and prevention strategy in those counties, 
in those schools aimed at instilling good ideas and healthy 
lifestyles in children at a very, very young age. Let me just 
ask, do you have any recommendations on how we might better 
attend to the health and physical domain of children's 
development across various Federal programs--school lunch, 
other food programs, CCDBG, Head Start?
    And as a side note, from a standpoint of the free and 
reduced school meals, should we--the Federal Government--since 
we fund them, set a nutritional value that might have an 
influence on everything else that is served in a cafeteria? To 
whoever would like to take it.
    Mr. Schweinhart. Yes.
    [Laughter.]
    Mr. Pianta. Is there any question?
    Mr. Schweinhart. But I would like to speak to the thrust of 
your questioning, too. It seems to me that what could be really 
helpful is clarity of objectives. The objective that I think is 
particularly important here is contributing to children's 
development--cognitive, socio-emotional, and physical. If we 
keep a clear focus on that, a lot of stuff will flow from that 
and certain kinds of policies that we have now that are not 
clearly serving that end would be sort of identified as such.
    A lot of our early childhood programs operate with a 
confused agenda. You go back to Head Start, it was a part of 
the civil rights movement as well as the child development 
movement, and there are conflicts within it because of that 
dual heritage. Childcare Development Block Grant clearly was 
very much focused on helping families to get more people into 
the workforce. And to the extent that that was the case, we are 
not contributing to children's development as much as we could 
with that law.
    And it seems to me that Elementary and Secondary Education 
Act has had various kinds of more tight focus over the years 
when, in fact, a general focus on children's development across 
those three laws, I think, in particular could help to clarify 
what we are trying to do.
    Senator Burr. Anybody else?
    Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Burr.
    And in order of appearance on this side anyway, it is 
Senators Brown, Sanders, Franken, Murray, Bennet, Casey, Dodd, 
and Merkley.
    Senator Brown.

                       Statement of Senator Brown

    Senator Brown. Thank you, Mr. Chairman.
    Thank you for the insight all of you showed. I first want 
to make an observation that all of you made such compelling 
cases for early childhood education and what we need to do.
    My State of Ohio, the legislature just recently passed, 
required full-day kindergarten. It had been half day until 2 or 
3 years ago. That is the good news. The bad news is that 
schools right now are asking for waivers to scale back to a 
half a day, and in some cases, where school districts had half-
day kindergarten prior to the new law and half-day early 
childhood, they are petitioning to eliminate--or I guess they 
are not even petitioning in this case. They are eliminating 
early childhood programs because of space and cost to make room 
for the full-day kindergarten.
    I hope that in light of the case you made--and I wish there 
were more Senators at this hearing--this brings us to real 
consensus on not what we do programmatically, but also on 
spending the money we need on early childhood education. We are 
all seeing terrible budget cuts in our States, almost every 
State here, on education and on everything else.
    I know that every dollar, as the chairman's question 
suggests, that we spend or don't spend or cut on early 
childhood education inflicts so much damage and, as Mr. 
Griswell said, more time in prison, more mental health dollars, 
more dropout dollars, more dropouts, all of that. That is my 
observation.
    But I hope, as we move on this budget coming up, as we move 
on particularly Chairman Harkin's idea with spending money 
directly on teachers that we will see the kind of consensus in 
this Senate that we ought to see on these kinds of issues.
    Question of Ms. Zalkind, if I could? The kind of 
collaboration you have is what we would like to replicate in 
Ohio and I think so many States, so many people, so many of us 
would all over the country. I am working on legislation that 
will help communities in developing better ways to coordinate 
and integrate and provide services to strengthen student 
achievement, ranging from early education to tutoring and 
extended learning time to healthcare and social support.
    Schools clearly are the best vehicle to connect children 
and families to the support they need to be successful on a 
whole range of issues. Tell us more about how Down East 
Partnership built that collaboration. And how we can use that 
and replicate that other places, if you would?
    Ms. Zalkind. Well, it has been a 16-year process, and when 
I ever talk about how we built it, we built it one activity at 
a time where we had consensus, where we had strength, where we 
had something to build on. Senator Burr is looking at our 
Healthy Kids collaborative map, and we have just launched that.
    But if you start where you have consensus, and that is one 
of the things that I think I feel so strongly about--the Ready 
Schools process--that if you bring a group of people together 
and you use a validated instrument to look at where are we 
strong, where can we build our capacity? And start where people 
agree and build out from there, that every dollar does have to 
count.
    Sometimes, what you really need is the plan, and giving 
people the time and the space and the process to plan where are 
they? How can they move from this place to this place to this 
place? To move at intermediate steps toward long-term goals.
    That is another thing I think that could be integrated into 
the law, that certainly we want every child doing well on the 
third grade end-of-year test, but there are intermediate 
outcomes to getting to everyone launched at the end of the 
third grade. And doing the HighScope or any other kind of 
assessment like that lets people see the visible progress 
working together and also lets them see what it is that they 
need that they may not have to spend money on, that they may be 
able to get a church to donate, that they may be able to get a 
business to sponsor.
    So, really giving people the space and the time to plan 
across those stakeholder groups where they can find those 
consensus points and move forward and then build out from there 
because everything leads back. All of the issues are 
interconnected.
    Senator Brown. For any of you, how do we write ESEA to 
foster that kind of collaboration? Any thoughts that any of you 
have on that?
    Mr. Schweinhart.
    Mr. Schweinhart. It is important for school folks to 
recognize that there are communities beyond the schools. To the 
extent that you simply make it clear that when there is 
community collaboration, it involves the whole community with 
representation beyond the schools, that would help a lot.
    Ms. Zalkind. And to have aligned standards and joint 
professional development and a curriculum that operates at a 
high quality that recognizes that there are a variety of 
providers at all levels from 0 to 8, from Early Head Start to 
private providers, to the schools, and to State-funded programs 
so that if you put the money that is coming from the Federal 
Government and No Child Left Behind and title I into a context, 
into a system.
    We have been blessed in North Carolina to really be working 
off a joint system. Now we are always working to make that 
system better, but you have to keep all of those balls in the 
air at the same time in terms of teacher wages and quality 
standards and school articulation agreements. But you have to 
envision that paradigm as a prevention paradigm and align those 
standards.
    And I think Dr. Schweinhart's point about there is life 
outside the school, and life outside the school can help. But 
schools are afraid because they have been penalized if they 
don't meet those standards. So they are very focused on 
teaching to the test. And so, breaking down and giving them 
some other ways to show success and letting people try some 
things and try some innovation and try some new ways of 
reaching out, I think that dollar will go farther.
    Mr. Pianta. I would add a couple points to that. So you 
have the opportunity to extend data systems into the younger 
ages. So the longitudinal data systems that you are investing 
in from K on the way up should be extended down lower so that 
the kids in programs in those lower age programs are connected 
to those data systems.
    Qualifications and training would be the same way. The 
mention of quality grading and improvement systems, this idea 
that you go in and rate and give stars to incent improved 
quality in early childhood, why not do that in K-3? So I think 
there are lots of opportunities in the bill.
    The Chairman. Senator Sanders.

                      Statement of Senator Sanders

    Senator Sanders. Thank you, Mr. Chairman. And Mr. Chairman, 
thank you very much for holding this hearing on an issue which 
in no way gets the kind of attention that it deserves.
    Let us be very clear, and let me not mince words. The way 
we treat children in this country is an international 
embarrassment, and the way we do childcare is a national 
disgrace, which, as Mr. Griswell and some of the others 
indicated, impacts every aspect of our lives, from our economy 
to the number of kids that we have in jail.
    We have, at 18 percent, the highest rate of childhood 
poverty in the industrialized world, and we are all very 
shocked that we end up having more people in jail than China, a 
country much larger than ours, communist, authoritarian 
society. We have more people behind bars than they do at 
$50,000 a head.
    Now the good news is, Mr. Chairman, you have assembled an 
excellent panel. The bad news is that, in all due respect, my 
guess is that in the last 30 years, we have had people sitting 
right where you are sitting saying exactly the same thing. It 
is not rocket science.
    If you ignore the needs of little children, you know what? 
They are going to fail in school. And if they fail in school, 
you know what? They are going to do crime, and they are going 
to end up in jail, and they are not going to be good employees. 
It has probably been said here 800 times, and yet we have not 
bitten the bullet on this issue.
    So the first issue that--and then you have got absurdity 
right now, as we speak, millions of kids whose parents are 
working. You know, we have forgotten that this is not the 
1950s, where daddy goes to work and mommy stays home and takes 
care of the kids. Guess what? That is not the case anymore.
    In Vermont, something like 70 percent of the children in 
the State have working parents. Mom and dad are both working. 
What do we do with the kids? Well, if maybe we are lucky, their 
grandma can take care of them, or maybe the neighbor down the 
street can take care of them who doesn't have any background at 
all, or maybe we can hire somebody at $9 an hour without any 
benefits.
    We have got to ask some very basic questions. The chairman 
talked about priorities, and he is right. And we have screwed 
this up royally, and it is time that we rethought it, and it is 
going to cost us money. But at the end of the day, I think we 
save money.
    So let me start off. There are countries around the world 
which do things like say, you know what, a childcare worker is 
as important as a college professor. At the very least, we are 
going to train that employee, make it a dignified profession, 
and pay them the same wages as other teachers get.
    No. 2, the simple question--all right, we have done a whole 
lot of talking here. Let us get to the root of it. Should every 
child in this country, because of Federal law, have the right 
to quality childcare from birth to kindergarten? That is the 
$64 question. I believe that we should. Is it expensive? 
Absolutely. Especially for little kids, you have to have a high 
ratio of employees for the kids. It is expensive.
    I think you save money down the road, as Mr. Griswell 
indicated, by having kids do better in school, become better 
workers, fewer people in jail. That is my first question, and 
it is an expensive proposition.
    We are in the midst of a recession. We have a huge national 
debt. Mr. Griswell, should every kid in the--and I would like 
all of you to answer. Should every kid in this country, as a 
right of citizenship, be entitled to good-quality childcare? 
Yes, no, maybe?
    Mr. Griswell. I believe they should. I believe children of 
wealthy and middle-income people get it anyway. This is about 
poverty. This is about income. This is about socio-economics. I 
believe they should. I believe it is a crime that they are not.
    Senator Sanders. Thank you.
    Mr. Schweinhart.
    Mr. Schweinhart. I was just thinking about welfare reform 
and how we saved money, but we didn't make any. And it is 
harder to do investment because there is a delay in getting the 
returns. But if we don't--in any business, if you don't make 
investments, you can't cut your way to a successful business, 
and it is completely analogous to the situation we have got 
here.
    If we don't invest as much as we possibly can in our 
children----
    Senator Sanders. Should every child, by right, have access 
to high quality child care? Right now in the State of Vermont--
I guess each State does it differently--every kid has got to be 
in school in the first grade. They get free education through 
high school. Should that same opportunity be available for kids 
when they are born in terms of childcare?
    Mr. Schweinhart. Of course, every child deserves a good 
early childhood education. The only question----
    Senator Sanders. And it is the Government's responsibility 
to make sure it happens?
    Mr. Schweinhart. It is a question of where Government comes 
in and how we balance that.
    Senator Sanders. OK.
    Mr. Schweinhart. I don't want to say Government has to do 
it all, but we have to do it all.
    Senator Sanders. Well, I am not sure who else is going to 
do it.
    Mr. Pianta.
    Mr. Pianta. I think it is the Government's job to make sure 
it happens. I am not sure it is the Government's job to provide 
it for all children. I agree with Mr. Griswell. So I think we 
should be absolutely paying attention to whether every kid in 
this country is exposed to the kind of learning opportunities 
that help them be successful.
    Senator Sanders. Now I am not saying that every program has 
got to be run by the Government, but there has to be the 
funding there in the same way kids go to the first grade, 
somebody is poor, they are going to walk into that public 
school. Right now, if they are poor, they don't walk into 
quality childcare. Should the Government make sure that that 
happens?
    Mr. Pianta. The Government should make sure that the 
playing field is equal in childcare as a way of doing that.
    Senator Sanders. Ms. Zalkind.
    Ms. Zalkind. I would agree. Where we have come down in 
terms of our planning is to make sure that every child has 
high-quality early care and education environment. And to make 
sure that every environment, whether that is home, whether that 
is a family home childcare, whether that is a childcare center, 
whether that is Head Start, whether that is a public school, 
that all of those environments have adequate funds and adequate 
supports to make it high quality.
    So I think you have to build parent choice into the 
equation, but that the Government should provide adequate 
funding to make sure that all of those environments are high 
quality and that every child gets a chance to succeed.
    Senator Sanders. Thank you.
    Mr. Chairman, I would just conclude, and it is an issue 
that has not come up, and maybe Mr. Griswell wants to say a 
word on this. It is not only for the children. It is not only 
for their parents. It is for the economy as well.
    If I am a single mom going to work, how do I do my job if I 
don't know that my kid has good quality care? And I have got to 
tell you in Vermont, it is very hard to find--my daughter's 
middle-class baby, hard to find affordable, good-quality 
childcare.
    But it affects people's jobs, right?
    Mr. Griswell. Absolutely. I mean, I did say in my remarks 
that in a competitive global economy, we are not going to 
compete if we don't solve this problem. We are wasting 25 to 30 
percent of our human capital. There is no way we are going to 
compete if we don't solve this problem, I believe.
    Senator Sanders. Thank you all very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Sanders.
    Senator Franken.

                      Statement of Senator Franken

    Senator Franken. I am going to echo what some of my 
colleagues have talked about, which is the return on 
investment, and I am echoing what you have talked about. And as 
a Congress, we are all concerned about the deficit, but we are 
most concerned about long-term deficit. And I agree with 
colleagues on both sides of the aisle that it is wrong to 
saddle our children with debt by allowing our long-term deficit 
to spiral out of control.
    But as you have all testified, quality early childhood 
education programs produce high returns on investment, and we 
have had Art Rolnick from the Federal Reserve in Minnesota and 
James Heckman talk about the returns ranging from, I don't 
know, I have heard anywhere from $3 to $17 for every $1 spent. 
So if you are talking about long-term deficits, I think we are 
being penny-wise and pound-foolish by not spending now on early 
childhood.
    I want to talk about a program in Minnesota because I think 
this has to start prenatally and go through the rest of school. 
In Minnesota, we have this great home visiting program called 
Dakota Healthy Families. And basically, pediatricians and 
social workers and obstetrician/gynecologists identify at-risk 
parents. This is all voluntary.
    The obstetrician/gynecologists make sure that the mom has 
good prenatal care, and then they make sure that they give the 
parents parenting training, which Ms. Zalkind talked about, and 
then they do home visits. And they do home visits until the 
child goes to preschool. They have learned this program pays 
for itself simply in the number of children--in the reduced 
number of child abuse caseworkers that need to be hired.
    Now my daughter taught third grade in the Bronx for 3 
years, the first 3 years out of college. She is now working in 
the DC elementary schools. Her experience was there would be 
two or three disruptive kids in the class. You can imagine that 
kids who have been abused are just more disruptive than kids 
who haven't been abused.
    So this isn't just affecting those kids. It is affecting 
every kid in the class, and it is affecting every teacher. I 
guess my question is, have you looked at these kind of early 
visitation programs, this kind of program like Dakota Healthy 
Families, and why aren't we doing it everywhere? Anybody?
    Mr. Griswell. I would just point out in Minnesota, you have 
something else. You have the first early childhood program of 
United Way that is called Success by 6. And indeed, I think 
United Way and other organizations like that are taking a 
leadership role. One of their national priorities, called Born 
Learning, is to raise awareness and to share best practices on 
programs like you are talking.
    So I think there are a lot of those. Certainly, I would 
point out United Way has been one that is doing similar 
programs to what you just mentioned.
    Ms. Zalkind. And clearly, home visiting is one of the 
things that there are many good evidence-based--not many, but 
there are good evidence-based models behind. They show great 
returns on investment. And focusing on young children, 0- to 3-
year-olds is where you are going to get the most return on the 
investment.
    So I think that that goes back to Senator Harkin's comment, 
where does Early Head Start fit into this?
    Senator Franken. What the chairman was talking about was 
where do we put our dollars? He had that question for you all. 
And every witness we have, the ones who are talking about 
adolescents said we don't spend enough in eighth grade.
    And what this is, is about return on investment. And if we 
are really serious, I am talking really serious about not 
saddling our kids with debt--and I say this to my colleagues on 
both sides of the aisle. If we are really serious about that, 
we have to focus on what kind of resources we are devoting. And 
we don't want to waste money, and we want to coordinate right, 
and we want to do that right.
    I guess we are going to do another round, but I want to 
talk to Mr. Pianta about teaching, about preparing teachers, 
about teaching assessment because I know that you might have 
some kind of, I don't know, regime that works for assessing 
early childhood teachers. Do you know of one?
    Yes, just as a 10-second question.
    Mr. Pianta. Yes. Yes. So we have----
    Senator Franken. What is it called?
    Mr. Pianta. Classroom Assessment Scoring System, that is 
the one we developed. That is one of them. There is one called 
the Early Childhood Environment Rating System. That is another 
one. There are others.
    Senator Franken. And I have run out of time. So I will 
respect that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Franken.
    I just might point out to my friend from Minnesota that in 
the healthcare reform bill, there is a $1.5 billion mandatory 
program over 10 years for home visiting that will inpart, 
provide additional support for expectant mothers' prenatal 
care.
    Senator Franken. Yes. I am also talking about once the 
child has been born and continuing that visitation until the 
child is actually going to preschool.
    The Chairman. That money can be used for that, too.
    Senator Franken. Yes. OK.
    The Chairman. Senator Murray.

                      Statement of Senator Murray

    Senator Murray. Mr. Chairman, thank you so much for having 
this hearing.
    I have to say that after our 10th hearing on the Elementary 
and Secondary Education Act, it is wonderful to see so much 
passion about an issue that I think we all care about. I come 
to this not just as a U.S. Senator, but as a mom who put my 
kids through school, a PTA member, a school board president, 
but probably most importantly, the only preschool teacher up 
here on this panel.
    This is a real passion of mine, and I think we know the 
research and know how important it is. And as Senator Sanders 
said, we keep talking about it and haven't done it. So I see 
this as a tremendous opportunity for us to really make some 
progress on this.
    My home State of Washington has really embraced investments 
in early childhood education. Back in 2006, our Governor and 
the legislature, in partnership, created the State Department 
of Early Learning. I think it is the first cabinet-level agency 
in the country focused on this and really looking at how we can 
bring together all the partners, which many of you alluded to. 
You can't just do it with one agency. You need your State, your 
local governments, businesses, parents, tribes, and teachers. 
Everybody has to be involved in this, and I appreciate that.
    My question to all of you is, every one of you talked about 
high-quality early learning, and I can tell you, as a preschool 
teacher, I knew the first day of class which kids came into my 
classroom with some kind of high-quality childcare or education 
before and which ones had not. It is essential, but we throw 
that term around very loosely.
    I wanted to ask all of you what do you mean by ``high 
quality?'' Is it a teacher, or a curriculum, or are you talking 
about parental involvement? What is it that defines ``high 
quality'' for you?
    Mr. Griswell. Well, I think the answer to that is, yes. One 
of the programs I was involved with was we took a lot of the 
inner-city daycare centers and we put a 4-year effort to try to 
improve quality. In fact, everything you just mentioned, you 
start with a teacher and elevating the professionalism of the 
teacher and give them opportunity for development.
    You look at the curriculum and make sure you have 
nationally accredited curriculum. You look at the facilities. 
You look at outreach to the parents to make sure that they are 
engaged in the learning process. And if you change those things 
dramatically and if you track the progress of the kids coming 
into a system like that, you will see 60 to 70 percent 
improvement over 4 or 5 years, something you already know.
    Mr. Schweinhart. I actually spoke about what I think is the 
heart of quality, which is good interactive child development 
curriculum and regular checkups or generally making sure you 
are doing the job. A couple of other things that I would have 
said if I had a little more time was that we really need 
qualified teachers. You all have heard of those.
    And we need, what ``qualified'' means, quite simply, is 
teachers who know what they are doing. There has been some 
discussion about whether Bachelor's degrees are real indicators 
of quality or not. The real point is that you need people who 
know what they are doing. And that means you need clarity of 
goals of what early childhood education is all about, and I 
have tried to speak to that.
    Then I want to echo what was just said, that we also need 
to have strong outreach to parents so that parents are really 
seen as partners with the teachers in raising the kids.
    Another point I want to say in response to what you are 
asking and kind of echo something that came from Senator 
Franken earlier, we have really got to focus on quality control 
of programs that are known to work and make sure that they are 
really being the programs that work. We need to invest what it 
takes into the programs themselves to make sure that those 
programs are really doing what needs to be done to get the 
long-term return on investment.
    You can't build a luxury hotel at cut rate and expect it to 
have the same kind of drawing power as if you put all the money 
into it. We need to have really good programs that have solid 
investments in order to get the return on investment.
    Senator Murray. Mr. Pianta.
    Mr. Pianta. Well, I think you already know the answer to 
your question, Senator Murray, because quality is what the 
adults do with kids. So it is all about the engagement of 
adults in interactions that are tuned in ways to push kids' 
development, whether those are conversations and language 
development, whether it is comforting a kid when the kid is 
upset, or whether it is pointing out to a kid the conceptual 
nature of something rather than just memorization.
    Those features of interactions between kids and adults can 
be assessed. They can be quantified. They can even be put into 
regulations. Head Start is using our measure, the Classroom 
Assessment Scoring System, and has used others as assessments 
monitoring tools for a large-scale program. The quality rating 
and improvement systems that Mr. Griswell mentioned are also 
those.
    So quality is about what teachers do with children, and I 
would argue, with all due respect to Mr. Sanders, that 10 years 
ago, we would not have drawn that conclusion as clearly. I 
think we have moved the needle. The question is whether policy 
can catch up with that.
    Senator Murray. Ms. Zalkind.
    Ms. Zalkind. I would agree with everything that has been 
said. In North Carolina, we have a five-star rating system that 
focuses on teacher interactions, but also focuses on 
facilities, focuses on making sure that children are 
progressing in all five domains of child development. And so, 
that is a standardized measure of quality, but we use the 
environmental rating scale as a way to measure that.
    But again, there are other factors that go into that in 
terms of parent interaction. You can have a four or five star, 
but if you still don't interact with the parents and still 
don't deal with all five domains of child development, don't do 
transitions and have a working relationship with the school so 
that we can keep building out, we miss the mark. But you have 
got to have some minimum standards so people are working off 
the same set of benchmarks.
    Senator Murray. OK. I appreciate that, and I am out of 
time.
    I just want to make one other comment. Whenever we have 
this discussion about assessments, we get back to are we going 
to have a test that we hand these kids, and if they pass, then 
the teacher is doing well? I just have to tell everybody, if 
you put 24 4-year-olds in front of me, and you show them a 
picture of a pig, they may or may not answer that day, 
dependent on their day, not yours. So we have to be really 
careful of how we implement assessments.
    Thank you.
    The Chairman. Thank you for that lesson, teacher.
    [Laughter.]
    Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman. Thanks for all of 
the hearings, including this one.
    And to the panel, thank you very much for your testimony.
    We had some experience with this in Denver, where we passed 
a sales tax, which is not the ordinary source of funding for 
schools. And what we said was the revenue from that is 
available to everybody, to all providers, public and nonprofit 
and private providers. And that families would get more, 
depending on how poor they were or what their income level was 
and the quality of the program they went to.
    So the higher the poverty, the better quality of the 
program, the more the subsidy that you got, which I thought was 
a clever way of trying to deal with the quality issue as well 
as the issue of access.
    I was looking at some numbers here that show that there are 
roughly 19 million children served by title I dollars in this 
country. And of that 19 million, there are roughly half a 
million that are age 0 to 5 getting preschool services. Do you 
have any idea why if it is so blindingly obvious to everybody 
here that we should be investing in early childhood that only 3 
percent of the children served by title I are the kids that we 
are all talking about today?
    Does anybody have a view on that?
    Ms. Zalkind. I think we don't have a prevention paradigm in 
the title I law. I think we have an intervention and a remedial 
paradigm that we have to shift, and I think the time to shift 
is now.
    And in our local communities, that paradigm has shifted, 
and they spend a significant portion of their title I money on 
early education because it is worth it to them. They wanted to 
know the kids who came to kindergarten before they came to 
kindergarten so they spent money on the system of home-school 
contacts. They spent money on staff that would staff preschool 
4-year-old programs.
    Senator Bennet. Dr. Pianta, do you have a view on that? You 
have been seeing a lot of districts. Why aren't they spending 
their money on early childhood?
    Mr. Pianta. I just think there are structural issues that 
prevent that from flowing. So very oftentimes, those dollars 
are flowing into a K-12 system that organizes itself as a K-12 
system, defines itself as a K-12 system, and early education 
sits outside of that system.
    Senator Bennet. So you and I, we didn't practice this, but 
that is exactly where I was headed.
    [Laughter.]
    I think the question that I have is if you look at title I, 
you look at the way ESEA works, you look at Head Start, you 
look at the Childcare Development Block Grant, you can see that 
these aren't even administered by the same agencies in 
Washington. Even within the bureaucracies, they are 
administered by a couple of places.
    And I guess the question that I have is from the vantage 
point of people serving kids, does that make a lot of sense, or 
should we be figuring out how to drive and incentivize the kind 
of cooperation and collaboration that might actually make these 
dollars go a much longer way with a much more sensible set of 
priorities than the ones that we seem to be chasing right now?
    Doctor, I will start with you again.
    Mr. Pianta. I just think that is a sensible approach, and I 
think it is echoed in Senator Murray's statement about what 
Washington State is doing to integrate at the State level. We 
need to incent that kind of integration at all levels.
    Mr. Schweinhart. I would just like to add to that. I don't 
know every line in the current ESEA, but it seems to me there 
are pretty clearly incentives for K to 12. We are telling them 
where to put the money, and we are not incentivizing kids 
younger than that. So it would be really good to take a look at 
that and see if there would be a way to incentivize kids so 
that we can get the biggest bang for the buck rather than 
whether they are in the system or not.
    Mr. Griswell. A mentor of mine one time said, you know, we 
have kids being thrown in the river, and people downstream are 
picking them out of the river and saving them one person at a 
time. And everybody is focused on that, and it is important. 
But nobody has thought yet to go back upstream and see who it 
is that is throwing these kids in the river and how we can stop 
them from being thrown in.
    I don't think you stop it until we get organized and 
coordinated. And quite frankly, I don't want to be disparaging 
toward the Government, but I worry whether you have the ability 
to connect all the dots because you have so many things in so 
many different places.
    Senator Bennet. Well, I think the question maybe is a 
slightly different one because it is sort of a balance between 
how prescriptive we want to be from here versus how much 
flexibility we want to give people to make the right decisions 
and how we make sure we don't create a set of incentives and 
disincentives that don't lead people in the wrong direction or 
spend their time fighting for what, no matter what we all say, 
fighting for whatever very, very scarce resources rather than 
beginning to focus on the child and working backwards from 
there.
    Mr. Griswell. I was trying to agree with you. Perhaps not 
so. But I think having all of your work spread out between so 
many different committees and departments, I mean, it would 
seem to me you would want to have all things related to child 
development and family development somehow at least coordinated 
so that these programs--I mean, it is a patchwork of things 
that you, that the Government--we put out there. I don't want 
to blame it on you.
    All well intended, but what is out there right now is a 
patchwork, and I don't know how you make your way through a 
cohesive view of child development when you have to go so many 
places. I think States and businesses and others have to take 
the lead locally, but I hope that we can somehow reach into our 
taxpayer dollars that go through you to find ways to have them 
better coordinated.
    Senator Bennet. Thank you, Mr. Chairman.
    The Chairman. I think, Mr. Griswell, aligning these 
programs and systems is one of the things we really have to 
focus on. The current system is a patchwork. There is nothing 
really pulling them together, this is one of our challenges.
    Mr. Griswell. And I will just say this, as a business 
person who walked into this field, there are more acronyms, 
there are more people, there are more things going on in this. 
You think it should be pretty straightforward, and you start 
stirring around in this pot, and you will find the Abecedarian 
and all of these research. And all of a sudden, you find there 
are so many ways to go at it, and every State is going at it 
differently.
    In some ways, you have got to hold up the North Carolinas 
and, to some extent, Georgias and other States. I think it is 
the University of Vermont that has this enormous study that 
they do that lists, State by State, who is doing the best job 
of solving this problem, who is the most efficient. And we 
ought to be learning the lessons from those.
    Colorado is doing a great job with Colorado Care. We ought 
to really learn from the States that are doing it right and try 
to model those, I think.
    The Chairman. I just asked my staff to get that study. What 
is it, a Vermont study?
    Mr. Griswell. I will locate it for you. I believe it is the 
University of Vermont that does it. It is in Connecticut or 
Vermont, Maine. But they are looked at--I am sorry----
    [Laughter.]
    You know, Iowa, Ohio, Idaho?
    [Laughter.]
    They are renowned for their annual study. Maybe some of the 
colleagues know which one it is.
    Senator Franken. Not that renowned.
    Mr. Griswell. Apparently.
    [Laughter.]
    The Chairman. Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thank you very much, Mr. Chairman.
    I want to thank our panelists for your testimony and for 
the work you are doing in this area.
    The way I approach this issue I think is the way that 
everybody in this room does in one way or the other. There are 
at least two good reasons to move forward with a strategy on 
early education. One, of course, is I think the obligation that 
all of us feel about children, no matter whose child they are.
    We believe, as a country, that every child who is born in 
this country has a light inside them. And for some children 
because of their circumstances, because of advantages or who 
their parents are or where they were born, that light will be 
incandescent. The reach of it will be blinding. But for other 
children, the light will be a lot more limited. And whatever 
the reach of that light or whatever the potential, we believe 
we should make sure that every child realizes that potential.
    In some areas, we are doing a pretty good job as a country. 
In some areas, we are not. We finally moved forward with an 
investment in children with regard to their healthcare a couple 
of years ago. It is rather recent. In the last 15 years, we 
have made progress there.
    On the issue of early childhood education, we have made 
very little progress if you set aside what we have done in a 
very positive way with Head Start. But on a national commitment 
to early education, we are a long way from getting there. 
Nutrition is one way that we can have a tremendous impact on 
children, and other than healthcare and early learning and 
nutrition, safety or protecting our kids is probably the 
fourth.
    But I think the second reason that we are here is because 
we believe that an investment in a child in the dawn of his or 
her life, as Hubert Humphrey talked about a long time ago, not 
only has positive benefits for the child and their family, but 
long term for our workforce. Whether it is making sure that the 
bright light in a child is realized, the potential of it is 
realized, or whether we are worried about our workforce, I 
think that is why we are here.
    And we have a number of people on this committee who, for 
many years, have been fighting this battle one way or the 
other. Chris Dodd, chairman of the Banking Committee, a 
longtime member of this committee. Tom Harkin, Patty Murray, 
who have been here long before I got here on these issues.
    But we have to take action. We have talked about it too 
much or talked about it enough at least, and we haven't made 
progress. One way to do it this year is to take advantage of 
this opportunity, and I think that is one of the reasons we are 
here.
    I have a bill that gets to a lot of it. It is S. 839, the 
Prepare All Kids Act. It has the elements of a research-based 
curriculum, making sure the quality is there with regard to 
teachers, but also making sure that if we are going to help 
States do this, and a lot of them need the incentive to do it, 
that they have a monitor. And it can't just be any commitment. 
It has to be a commitment to quality.
    And we have to measure results. We have to make sure that 
we are making a full investment.
    The question I have is: How do we get there in terms of 
implementing this on a national scale? We have a lot of good 
models. You mentioned a number of States. I would add 
Pennsylvania to the list, but I know you were getting to that.
    [Laughter.]
    But some States need more incentives, and some States, 
frankly, just need help. They have expended a lot of money and 
had to fight battles. In our State a couple of years ago, 
Governor Rendell had to fight long and hard to get $75 million 
in a big State like that, but it was a tough fight.
    So, I would ask you: What is the best way to get there? 
Some would say just passing a bill like the bill we have, and I 
would certainly favor that. Some would say, no, let us work it 
into title I. Others would say, no, the President has an 
initiative. There is a way to get it done there.
    I would ask you, it is both a policy and a strategic 
question, but what do you think is the best way to get there in 
terms of not just getting anything done or something done, but 
doing it in a way that will have an impact that will be 
consistent with what States are doing already? And we have 33 
seconds.
    Mind if we go left to right?
    [The prepared statement of Senator Casey follows:]

           Prepared Statement of Senator Robert P. Casey, Jr.

    Mr. Chairman, I'd like to thank you for holding this 
hearing today to discuss what, in my opinion, is one of the 
most critical issues affecting our Nation's children, our 
continued prosperity and our position as a world leader.
    As Hubert Humphrey once said,

          ``The moral test of a government is how it treats 
        those who are at the dawn of life, the children; those 
        who are in the twilight of life, the aged; and those 
        who are in the shadow of life, the sick, the needy, and 
        the handicapped.''

    As to our children, we are not doing enough. By not 
providing every American child equal educational opportunities, 
we are failing to allow them to seize every opportunity to 
succeed.
    I believe that every child is born with a bright light 
inside of him or her. We can help to make sure this light 
shines as brightly as possible--and, in turn, illuminates 
people and places around them--by providing him or her with the 
right tools and resources to shine.
    High-quality education early in life will prepare all 
American children--not just some, but all--for success in 
academics, career, community, and beyond.
    As we discuss reauthorization of the Elementary and 
Secondary Education Act--and how to make sure that our Nation's 
children graduate ``career-'' or ``college-ready''--we need to 
recognize that if we want our children to end up on the right 
path, we need to start them off on the right foot.
    The opportunity to educate a child, and prepare them for 
success in life, does not begin when a child first walks 
through the door the first day of kindergarten. It begins at 
birth.
    Public education is a long-standing American commitment 
that provides great value for our children. The time has come, 
however, to reconsider the strengths of the investments we are 
making in our children and whether our current system is 
adequately serving our Nation's needs in the twenty-first 
century.
    Many say that in light of current economic and fiscal 
concerns, our hands are tied--we don't have the resources to 
invest in all the things that merit consideration. I would say 
that when it comes to our children--the very future of this 
country--we cannot afford not to. An investment in children and 
high-quality education for all is an investment in our Nation's 
long-term economic and fiscal stability that will pay dividends 
down the road.
    The research on return on investment in early childhood 
education is irrefutable. Investing in our children in their 
earliest years greatly improves their life outcomes. 
Conservative estimates put the savings to our economy at about 
$7 for every $1 we invest. This is really about two things. It 
is certainly about our obligation to our children. But it also 
is about our obligation to our economy and our ability to 
deliver skilled workers to compete in a world economy.
    Early childhood education offers the greatest opportunity 
to ensure that every American child reaches their potential. We 
know that for some American children, starting in kindergarten 
is already too late. For some of the most disadvantaged 
children, there is an achievement gap between them and their 
more privileged peers that sometimes never closes. One study 
showed that before entering kindergarten, the average cognitive 
scores of preschool-age children in the highest socioeconomic 
group were 60 percent above the average scores of children in 
the lowest socioeconomic group.
    To make early childhood education a priority, I've 
introduced the Prepare All Kids Act. The Prepare All Kids Act 
is about investing in and preparing all kids. Not just some but 
all. The Prepare All Kids Act will assist States in providing 
at least 1 year of high quality pre-kindergarten to children, 
focusing on those who need help the most. Pre-kindergarten will 
be free for low-income children who are ready to learn, if only 
given the opportunity.
    As we have heard from our panelists today, it is absolutely 
imperative that we don't see children in ``pieces''--that we 
not create silos as we begin to focus on the kinds of 
investments our children really need. The Prepare All Kids Act 
would make sure that early childhood education is of high-
quality, with lasting results, by ensuring that teachers are 
adequately trained and that pre-kindergarten programs utilize a 
research-based curriculum that supports children's cognitive, 
social, emotional and physical development and individual 
learning styles.
    Critically, under the Prepare All Kids Act, States will not 
be able to divert designated funding for other early childhood 
programs into pre-kindergarten. We want pre-kindergarten to 
build upon and support other early childhood programs like Head 
Start and child care. We do not want pre-kindergarten to 
replace these programs in any way.
    It is my deep conviction that as elected public servants, 
we have a sacred responsibility to ensure that all children in 
this country have the opportunity to grow in a manner where 
each child reaches their potential, to live the lives they were 
born to live. The Prepare All Kids Act is a big step in that 
direction and I ask my colleagues to join me in supporting this 
bill within the context of ESEA Reauthorization.
    Our children are our future. With high-quality early 
education for all, we will let them shine their brightest and 
our future will be brighter for it.

    Mr. Griswell.
    Mr. Griswell. I am not sure why I get to go first every 
time. But I think what Senator Brown said, that at the end of 
the day, I think you need to take a holistic view that the 
education in this country starts at birth, and you need to 
build systems that address that. We need to get away from this 
thinking that it is somebody else's responsibility until they 
are age 5, and then it is the public's or the Government's 
responsibility.
    That is backward thinking. It ought to go down to zero, and 
whatever it takes to get us to think about it that way. When it 
comes to local States, I am a big proponent in getting the 
business community involved, getting government involved, 
getting the providers involved. And I think that is what they 
have done in North Carolina and other States, but particularly, 
as she said there on the panel, is you have got to get a 
consensus and a collaboration going among all the people who 
benefit from having quality early childhood.
    Mr. Schweinhart. I think I would suggest we build from the 
basis that we have already started to build. We have Head 
Start, which has a whole lot of unmet potential that can do a 
whole lot more than it has done.
    I think with childcare, we need to get our priorities 
straight. We need to be clear what we are trying to do, and the 
fact that we haven't had a reauthorization since 1996 makes 
that even more clear. Things have changed so much since then. 
And the commitment, though, is still the same. How do we have a 
national policy of quality childcare, and what do we have to do 
to make that happen?
    And I think the other thing, which is right before you 
right now, is elementary schools and the fact that elementary 
schools have invested more into early childhood education both 
what they have always done with first, second, third grade, and 
then kindergarten and then pre-K is a growing phenomenon.
    Let us recognize the realities of elementary schools and do 
what we can to help them become a part of this great early 
childhood education movement.
    Mr. Pianta. So I have mentioned a couple of things, but I 
think the extension, the inclusion of early childhood policies; 
and structurally, within discussion of title I, how you spend 
title I money; title II, focusing on the adults and the 
qualifications and the standards for the adults that are going 
to work with kids is very important.
    I keep coming back to whatever you can do to push 
information that helps people drive decisions and policy. So 
these, you know, Race to the Top with longitudinal data 
systems, whatever you do--and I am sensitive to Senator 
Murray's comment about not testing a lot of kids. We don't even 
know where kids are right now.
    The kinds of settings that kids are spending time in, the 
numbers of settings, the qualities of those settings, we are 
not attending to those in ways that you can make sensible 
policy on the basis of that. So I think there is just a whole 
lot of information investment that could go a long way.
    Ms. Zalkind. I would say take every opportunity you can and 
don't try to put it all in one place. So, right now, you have 
an opportunity to embed the Ready Schools process in the No 
Child Left Behind Act. You took an opportunity that was before 
you to put home visiting in the healthcare reform. You can 
reauthorize the Childcare Development Block Grant with higher 
quality standards and State systems that align pre-K to 3. So I 
don't think that you should miss any opportunity to shift the 
paradigm, to focus and to start early and get the most bang for 
the buck because they will all lead to the other eventually. 
That is how you build momentum, and that is how you build 
success.
    It is all the same people at the local and the State level 
who are looking at how to feed kids nutritious meals in 
childcare and schools. They are all the same people looking at 
making sure that kids have good healthcare. So take every 
opportunity that you can.
    Senator Casey. Thanks.
    The Chairman. Senator Dodd.

                       Statement of Senator Dodd

    Senator Dodd. Well, thank you, Mr. Chairman.
    There are so many things to talk to you about on all of 
this. First of all, it was 20 years ago that Orrin Hatch and I 
wrote in 1990 the Child Care and Development Block Grant. This 
year is the 20th anniversary of when he and I wrote that bill. 
And then, of course, you are right. We haven't reauthorized it 
since 1996.
    I would be remiss if I didn't point out that Helen Blank is 
in the audience, and Helen Blank helped me write that 
legislation 20 years ago. I thank you, Helen. Stand up. Be 
recognized. Helen Blank.
    [Applause.]
    And in 1996, we did welfare reform, and there were 21 of us 
here in the U.S. Senate that voted against that bill at the 
time. It was a very popular idea because this was going to end 
welfare as we knew it. It was going to cut off cash payments 
within 5 years. And of course, the promise was that we were 
going to make sure that every child after that 5 years would 
get all the protection they would need and nutrition and 
childcare, and of course, it didn't happen.
    Today, only one in seven children who are eligible are 
receiving any kind of assistance under the Child Care and 
Development Block Grant program. And I say that respectfully. 
We were going to end welfare as we know it. The overwhelming 
majority of cash welfare recipients are children. We always 
think the recipients are the families, but in fact, it is 
children who depend upon it.
    And the idea that you are going to eliminate the ability of 
children to get the kind of assistance that they needed was 
always breath-taking to me when we fail to understand that it 
isn't just jobs, as I said, Mr. Schweinhart, it was also about 
education. It was about providing a safe, nurturing place where 
that child has a chance to develop the skill sets they need to 
be ready to learn.
    The achievement gap is defined by age 3. By age 3, that is 
when the achievement gap is defined. So 36 months into a 
child's life, that achievement gap is defined. So this notion 
of waiting until they get into school or even 5 or 6 is beyond 
me in many ways.
    And of course, we know that every dollar we invest in early 
childhood development saves $10, $1 for $10. There is no debate 
about that. So just in simple math numbers, the investments we 
make up front make a huge financial difference. I always say if 
we weren't impressed by the ethics and the morality of it or 
the decency of it, just the sheer economics of it ought to 
compel you to understand what we are talking about.
    So it has been a passion of mine over the 30 years I have 
been in this body and sitting on this committee. And the point 
that Bernie Sanders was making and others have made is that 
this is the basic program. Obviously, I am a strong advocate 
and have been of Early Head Start and Head Start and pre-K 
programs. Again, Tom has done a great job with these hearings 
including this one over the last number of months.
    I apologize for not being at all of them, but we have had 
other matters that I have had to attend to. But we are going to 
start, with the chairman's permission, we have organized 
between now and October a series of four or five hearings--I 
was telling Senator Casey about it a little while ago--on the 
status of the American child. And I would like, either through 
the Casey Foundation or Save The Children, to start a report 
card on child well-being, so we can start really making 
determinations on how we're doing for children.
    Only 4 percent of title I money, goes to early childhood 
education, and that is an estimate because there is no data 
collected on it by the Federal Government. It is an approximate 
number we have. So we don't have a real number. So 96 percent 
of those resources are going to elementary and secondary, which 
are vitally important. But only 4 percent is going to early 
childhood education, and yet we know statistically how 
important those years are in people's development along the 
way.
    Of course, the article I read on cuts to subsidized child 
care programs, I thought, was very, very good. Peter Goodman 
wrote a rather lengthy piece that appeared in the New York 
Times on May 23rd, which I thought was a very compelling piece. 
I strongly recommend it for people to get a sense of actually 
what happened with States cutting back the number of children 
they cover with child care subsidies.
    California's governor has proposed eliminating child care 
assistance altogether. It would leave a million children 
without any support. Eleven thousand children in the State of 
Arizona are on the State's waiting list for child care 
assistance. And you can get your numbers State by State, and a 
lot of the States may surprise you as the ones that are cutting 
way back, some of the States we normally associate and think of 
as being a bit more progressive when it comes to caring for 
children's needs.
    And I understand. I am not unmindful of the budget problems 
that States are facing. But I think Al Franken mentioned it. I 
think everyone on this committee at one point or another in 
their comments and questions have raised the issue about how 
penny-wise, pound-foolish it is when we are talking about once 
again recovery, getting on our feet and cutting off people.
    So I guess this isn't a lot of questions, except that we 
have listed a number of things here, and having been the 
chairman of a committee and listening to all my colleagues with 
various amendment ideas, I know Tom Harkin will be delighted to 
hear about my amendment ideas.
    [Laughter.]
    But there are any number of them on title I data 
collection, the professional development piece. Memorandums of 
Understanding--Head Start is required to get it, but the 
elementary and secondary schools are not. So you have no 
comparative assessment as to how this is working. So I am 
hopeful we can include the memorandum of understanding language 
in this legislation as well and that we really do get the data 
that we need to understand it.
    The parental aspects of this. Again, going back to 
childcare, as well as we know that Head Start requires programs 
to encourage parental involvement. In the first grade parental 
participation is at 33 percent, it drops down to less than 8 
percent participation by seventh grade. And there is nothing 
better, in my view, than linking up parents and children in the 
educational process and, obviously, parents and children in the 
childcare development programs.
    Actually, Orrin Hatch and I went back even earlier, started 
with the childcare ideas of the early 1980s, when it wasn't 
terribly popular--we had magnificent childcare in this country 
in World War II. I invite people who like history to go back 
and look at what we did during the war years between 1941 and 
1945. It was stunning, the quality of childcare.
    I mean the availability of it, the cost were always major 
factors. But the quality of it was remarkable. And we all 
understood with the young men, most of the young men fighting 
in the European and Pacific theaters, women involved in war 
production, in these automobile plants and so on, turning out 
airplanes and tanks. We had to have childcare. It was a 
national security issue.
    So we understood it, and we did it almost 70 years ago. And 
yet here we are in the 21st century, and there is a disconnect 
between what our parents and grandparents did, understanding 
it, and we just haven't picked up on it. We dropped it. Instead 
of picking up the models used where they had great healthcare 
providers, good education opportunities, great ratios, and the 
like.
    Jerry, it is good to see you again. We saw each other when 
I spent a lovely time in Iowa.
    [Laughter.]
    Mr. Griswell. We miss you as a resident, sir.
    Senator Dodd. It was very brief. Appreciated the 99 
counties, too, Jerry, and actually going by and meeting the 
folks at Principal when I was there.
    But if you would, again, coming to the business standpoint 
in all of this, why is it we have had such difficulty? I mean, 
there was incredible opposition to the Childcare Development 
Block Grant program when Orrin Hatch and I wrote it. And the 
business community's opposition to this was--how do you explain 
that?
    Mr. Griswell. I really do believe the last decade has been 
a decade of enlightenment for business leaders, and I would 
encourage you to take another look. As I mentioned earlier, the 
Business Roundtable is onboard with this. It is one of their 
primary initiatives. In Iowa, the Iowa Business Council, one of 
its primary priorities is early childhood. Rockwell Collins in 
our State has wonderful childcare right on their facilities.
    I believe the mood has changed. I believe business now gets 
it, and I would encourage all of you to re-engage business. I 
believe they are ready to be engaged. I think, like me, many of 
them were oblivious, I am afraid, just not paying attention to 
the research and the wonderful data that is out there to 
connect the dots for us. I have become a believer, and I 
believe many of my colleagues have.
    Senator Dodd. I hope you are. Kit Bond, who is retiring 
this year, and Dan Coats, who sat on this committee and is 
running for the Senate again, were my partners when I wrote the 
Family and Medical Leave Act. Took us 7 years, went through 2 
vetoes. Sixty million Americans have been able to take 
advantage without pay of being able to be with a sick child or 
parent during a crisis.
    We are now trying to get paid leave because, obviously, 
that is a burden. And yet, again, just as we had tremendous 
opposition to that basic concept--I mean, we applaud our 
colleagues here who leave the Senate, miss votes for weeks on 
end to take care of a spouse or a child. In fact, they would be 
in deep political trouble if they didn't do it, I would suggest 
to you, and yet that same concept of it being possible for 
parents and children to have that time together during these 
critical issues and periods is--again, we are facing Herculean 
opposition to this concept.
    Yet we are only one of four countries left that I can 
identify in the world that doesn't provide that basic right, it 
seems to me. And again, I say to Jerry, I applaud what you are 
doing, and I admire it. But kind of the same mindless 
opposition at a time when productivity rates, retention rates, 
loyalty, and so forth are critically important to business. 
Again, completely lost on an audience, it seems to me.
    Any explanation?
    Mr. Griswell. No, sir.
    [Laughter.]
    I am telling you, we are becoming enlightened.
    Senator Dodd. I am retiring. I hope you get enlightenment. 
Bob Casey of this crowd takes over and moves up the table here.
    Thank you.
    The Chairman. Thank you, Senator Dodd.
    But I would point out again, as I keep holding this book 
up, as I have for many years, that the business community in 
the 1980s identified the need to and benefit of investing in 
quality early learning programs. This group included CEOs of 
major corporations in America. Jim Renier, the CEO of Honeywell 
chaired the effort. The Freeman Company, Aetna Life, Sun 
Company, Pacific Mutual Life, Ciba-Geigy, Texas Instruments, 
and so many other companies were involved.
    This Commission, in the 1990s, said we have to rethink 
education, that education begins at birth and the preparation 
for education begins before birth. So if we have fallen back or 
moved away from this, I don't know why.
    You say that they made another attempt to communicate the 
importance of investing in early learning in 2003. Is that 
right?
    Mr. Griswell. That is when the Business Roundtable did its 
full study, which came out with its economic view that every 
dollar invested in early childhood gave $4 to $7, which is a 
very modest--I mean, we know some studies show $17. It depends 
on what you add into that.
    And there are a lot of business-education alliances out 
there. There is a Business Higher Education Forum. I think you 
really need to try to engage the right business leaders. I 
think maybe something is askew here. Everybody I talk to 
understands the importance of this.
    Senator Dodd. Tom, in 1995, 9.1 million children on a 
yearly average were getting assistance through the welfare 
system.
    The Chairman. 9.1 million.
    Senator Dodd. 9.1 million, 60 percent of children in 
poverty at that time. Today, it is 3.3 million children, 20 
percent of children in poverty. And so, you are getting--these 
are not with any kind of assistance at all or very little kind 
of assistance. And here we are 15 years later, the number of 
children in poverty obviously have gone up.
    The Chairman. Daunting, yes.
    Senator Merkley.

                      Statement of Senator Merkley

    Senator Merkley. Thank you very much, Mr. Chair.
    A couple of decades ago, I was listening to a radio program 
where a childhood expert said that the thing you should keep in 
mind is that in the first year of childhood, you should hold 
your child as much as possible and talk to them as much as 
possible. And after that, you should spend 15 minutes an 
evening reading books and that the impact has a huge effect on 
their social skills, their sense of bonding, and they almost 
universally end up loving to read, which has all sorts of 
educational benefits.
    And I thought, boy, that is such a simple, straightforward, 
and inexpensive approach. But now I have all of you here. Is 
that right? And if so, should we also be talking about 
investment in parents, more investment in parent education or a 
national reading hour from 7 p.m. to 7:30 p.m., where parents 
are encouraged to do that nightly reading, more education about 
the impact of holding, talking to, and interacting with 
children?
    I know we are talking a lot about quality childcare, but 
should this be a component equally well emphasized?
    Ms. Zalkind. I would clearly say yes, and the money for 
family support and family preservation is very, very hard to 
come by. But those dollars spent, especially if they are spent 
in concert with high-quality childcare, that maximizes the 
investment. So what we have found is that when childcare 
providers and parents and schools work together on a common 
agenda, and they all are trained to work with the others so 
that teachers have professional development about working with 
parents and parents have training around how to productively 
work with their schools, that is where you really see the 
synergy and children thrive.
    Senator Merkley. Go ahead, please.
    Mr. Pianta. I guess I would just add that I couldn't agree 
more that capturing those connections across the family and 
childcare settings are really very important in terms of what 
adults are doing with kids. But it is also important to 
recognize that teaching a kid to learn how to read also 
requires a fair amount of technical skill, that people involved 
in those interactions have to know quite a bit about how 
reading develops, how language develops.
    If you begin to talk about, we haven't mentioned it at all 
here, math and science. I suspect you will be worried about 
that when you talk about high school, but when you talk about 
promoting math skills and science skills with young kids, that 
requires a fair amount of skill and technical capacity that 
teachers should be trained to exercise. We would love it for 
adults in the home to be able to do that, too.
    So I think you are right on capitalizing on both of those 
settings, but I would argue that it is not as--sometimes it is 
just not as easy as sitting a kid on your knee and reading for 
15 minutes every evening.
    Senator Merkley. Thank you.
    Mr. Schweinhart, I appreciate the work of the HighScope, 
and I believe it is the Perry Preschool Study that has the 17-
to-1 statistic, if I recall right? I didn't see that in your 
testimony. But wasn't it your study that had that 17-fold 
return?
    Mr. Schweinhart. What I think is maybe the most important 
thing to say about all those dollars is that it is enormous. 
That is actually what I said. But I found using numbers seems 
to get people's attention better.
    A $1 return on investment is enough to justify an 
investment, a $1 return. And we are talking about many times 
that, and I think whether it is $5 or $10 or $15, gosh, it is a 
lot. It is so much that it is just really worth doing, no 
matter what.
    We have been doing some work with Jim Heckman to try to 
identify exactly what it is, and we have come up with 150 
different estimates and all that sort of thing. And that is 
what makes me kind of fall back on a simpler way of saying it, 
except that if people want the precision, we sure do have the 
precision.
    Senator Merkley. There is a piece of your study I wanted to 
draw attention to, and that is what you found was that it 
wasn't simply the development of cognitive skills, but the 
development of socio-emotional factors. And it goes back to 
what that childhood expert said about bonding with the amount 
you hold your child and talk to them, and that this has a big 
impact on whether people end up in prison, whether they can 
function in a work environment, whether they are interested in 
education, a whole series of things.
    So this isn't just about training the little brains to 
learn to read or count. It is also about how to interact with 
others, and I know that this is where the quality childcare 
comes in.
    I must say every time I encounter a family where little 
children are being parented primarily by sitting in front of 
videos, my heart drops because I suspect that does not produce 
the type of interaction that is necessary either for the 
cognitive development or for the socio-emotional side.
    Mr. Schweinhart. Everything about education is developing 
relationships, and particularly with young children, it is all 
about developing relationships. With parent education, you 
can't really talk about the kind of transfer from knowledgeable 
people to less knowledgeable people the kinds of things they 
need to know unless you are doing it in the context of solid 
relationships. So the question is always about how to develop 
those relationships.
    One of the things that we found with respect to the 
specific prevention of crime is the developing of a strong 
moral sense. And that is done in the context of learning how to 
get along with other children and getting along with adults. It 
is coming from what it looks like. It looks like that.
    Now the cognitive stuff is important because I think, 
ultimately, one of the really great purposes of early childhood 
education is to teach kids how to be good students in the best 
sense of that term. Not ``sit down and shut up,'' but really 
becoming actively engaged in their learning.
    And to the extent that they learn that, that is going to be 
with them all of their lives, and it is going to lead to all 
this kind of success that we have been talking about.
    Senator Merkley. Thank you all very much.
    Thank you.
    The Chairman. Thank you, Senator Merkley.
    Senator Hagan.

                       Statement of Senator Hagan

    Senator Hagan. Thank you, Chairman Harkin, and thanks for 
holding this hearing today.
    I tell you, as a mother of three children, I know 
personally how important it is to have early childhood 
education. And as Senator Dodd said, the first 3 years of life 
are critical.
    I especially wanted to say thank you to Henrietta Zalkind 
for being here today. I know the Down East Partnership is doing 
a fabulous job. And Down East in North Carolina is a wonderful 
word for a special place in our great State. So I appreciate 
your being here.
    I think a lot of you here know that I spent 10 years in the 
State Senate, and that I was particularly involved in the 
appropriations committee and, co-chairman of the budget 
committee. And just so that you all here know, in 2005, we had 
about $51 million going to one of the early childhood education 
programs, and we ended up combining Smart Start with another 
program, More at Four. And last year, that funding in our State 
was about $171 million.
    Mr. Griswell, we haven't met, but I particularly 
appreciated your comments about North Carolina. We are 
certainly doing some great things. It is certainly not that we 
have it all right, but I just think we have got to be cognizant 
of the impact that States and the Federal Government needs to 
have on children from 0 to 3, 0 to 5, and obviously, 0 to 8. It 
is just absolutely critical.
    One of the things that we are trying to do is be sure that 
when children go to school, they are healthy and ready to 
learn. We also know that just providing a place for children to 
hang out doesn't mean that they are going to have the best 
quality childcare. We have got to be focused on the types of 
childcare programs we offer and the education of the people who 
are staffing the childcare programs also bring a lot to bear.
    In North Carolina, we have implemented a star rating 
program to help parents be better informed when choosing a 
childcare and early education program for their children. In 
our State, the programs are monitored by State officials on 
three basic components--the education of the staff, the program 
standards, and quality.
    We actually have a five-star rating, where five is the 
highest, with one the lowest. We also use some of our funding 
from the State to actually help the childcare facilities 
improve their star ratings, and improve the education of their 
staff. We must examine ways in which childhood education can be 
included in the reauthorization of the Elementary and Secondary 
Education Act, to that end. I was wondering what thoughts you 
might have on ways that we can encourage all States to adopt a 
quality rating system similar to the one that we have.
    Ms. Zalkind, do you want to start?
    Ms. Zalkind. Thank you, and thank you for those nice 
comments.
    I think that that quality rating system has been a key to 
aligning systems across funding streams. This spring, the North 
Carolina Department of Public Instruction created a new Office 
of Early Learning, and all of the different programs, 
regardless of where the money comes from, whether it is the 
State or title I or the subsidy program, everyone is working 
off that same standard.
    Different States have different systems, but ours, I think, 
applies to all of the different folks who are providers. It 
applies to Head Start. Gives you a way to hold folks to the 
same quality standards, and it focuses across the board.
    Now, quality costs. And so, I think that that is one of the 
things that we need to make sure that there is enough money to 
make sure that people are not edged out of the system.
    Mr. Pianta. They are terrific ideas. The quality rating and 
improvement systems are terrific policy tools. So to the extent 
that you can encourage them in all States, I think they are 
great. I think you have to be very careful about what a star 
means, and what you put in those systems will be what the 
system produces, OK? That is the incentive structure.
    So people will spend their money on those things. And if 
what you put in those systems don't matter for kids' learning, 
they are not going to help. So I think you have to be very 
rigorous in what those standards mean and the evidence for 
them.
    Mr. Schweinhart. Obviously, States require response to 
incentives and that is something to think about. The one thing 
I would like to add to what my colleagues here have said is 
that a lot of childcare takes place in homes, not in centers. 
And it is important to be thinking about how to support 
caregivers in homes, as well as in centers.
    I think that what they need a whole lot more than rating is 
support, and the question is how to give them the kinds of 
educational relationships that is going to give them the 
support they need to move forward.
    Senator Hagan. You are talking about the parents now?
    Mr. Schweinhart. Actually, I am talking about home 
caregivers.
    Senator Hagan. Home caregivers.
    Mr. Schweinhart. There are parents at home taking care of 
kids, but I am talking about people who are taking care of 
other people's kids. And there is a whole lot of them, 
particularly for birth to 3, and there is very little support 
for them. The pay is less than even center care.
    And one of the things we have done in southeast Michigan 
that I want to mention is we have tried to form early learning 
communities with hubs in the middle of those communities where 
there are people who provide support, develop relationships 
with all the caregivers in a given geographic area. And I think 
that may be the kind of complement that we need to the quality 
rating and improvement system, which is primarily center-based 
and school-based.
    Senator Hagan. Great.
    Mr. Griswell. I agree with everything that has been said, 
really not much to add.
    Senator Hagan. North Carolina is one of a few States that 
does use a portion of our title I dollars to fund early 
childhood education, and I know that our title I preschool 
programs serve 4-year-olds and is designed to prepare young 
children before they enter kindergarten. What can be done to 
increase flexibility at the State level to promote the use of 
title I and other funding for children before they enter 
school? Any thoughts?
    Ms. Zalkind. Well, I think there are several things, and I 
would give an example of the school as one of the hubs, that 
you can use title I money for staff that then goes and works 
with the teachers in the childcare centers to help them develop 
professionally on activities that will lead to better outcomes 
on EOGs, better outcomes on math scores, better outcomes on 
reading scores.
    And so, how you strategically use your title I money not 
just for slots, not just for children going to 4-year-old 
programs, but how you use it to build a system so that the 
school does become the instructional hub and that people are 
working off of the same system of quality. I think that that is 
really important and our Office of Early Learning has been 
behind--and really, the whole Ready Schools movement in North 
Carolina, I gave as part of my testimony the map of the places 
where Ready Schools was happening in North Carolina.
    We were one of the pilot sites for Kellogg's SPARK Project, 
but it is now happening in almost 40 of the 100 counties in 
North Carolina, and that is really exciting. So trying to embed 
those kind of processes, give people the flexibility to move 
out and try some different opportunities I think has really 
been a key for us.
    Senator Hagan. We have a great panel.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hagan.
    Mr. Griswell, he just hit the ball right away. When I asked 
about the dollar, he was like 50 early, and then 25 and 25. 
Now, of course, Ms. Zalkind said invest the whole dollar. Would 
you like to revisit that, maybe 90 cents?
    Ms. Zalkind. OK.
    [Laughter.]
    Until third grade. Maybe I will go to fifth grade.
    The Chairman. We have to have resources to invest in 
secondary education, you know?
    Mr. Schweinhart, you have a dollar. We have early learning. 
We have elementary education, and we have high schools, too. 
How do you divide it up?
    Mr. Schweinhart. Well, we are talking about the Federal 
Government's component, not the whole system. There is State 
and local spending.
    The Chairman. I am only talking about the Federal 
Government because----
    Mr. Schweinhart. The Federal Government ought to 
incentivize what works.
    The Chairman. We contribute roughly 9 percent of all the 
funding for elementary and secondary education.
    Mr. Schweinhart. Right. So incentivize what works. Early 
childhood education works.
    The Chairman. But tell me. We have a dollar. How much 
should we invest in early learning? Nothing? Nothing much----
    Mr. Schweinhart. You really want me to give you a number, 
don't you?
    The Chairman. Yes, I really----
    [Laughter.]
    The Chairman [continuing]. I want to know what your 
priorities are, how do you prioritize?
    Mr. Schweinhart. Half.
    The Chairman. Pardon?
    Mr. Schweinhart. Half. Let me give you a longer answer 
because I think it is a better answer. It seems to me that 
right now our funding formulas are focused on the kids that are 
in the schools. Suppose we were to get our funding formulas to 
focus on the kids who are in the communities from birth, and we 
tracked the money not to the kid as much as we are tracking it 
now because I have a feeling what is happening is people are 
saying we have got this much money for this kid, and so we have 
to give the service to this kid.
    But if instead, we said what is the best way to serve this 
child throughout the child's life? Then you maybe could get 
freed up from that grade-by-grade focus, and I think maybe that 
is a better way to come up with a way of spending ESEA so that 
it works really well and is not so tied to serving kids.
    You know, it is like there is different interest groups--
5th graders, 6th graders, 9th graders, 12th graders. Your 
question sort of assumes that. But they are all the same kids. 
It is just a year of age. So if a child gets funding at 3 and 4 
that works better than funding at 9 and 10, of course, you 
should spend the money at 3 and 4. Why would you wait until 9 
and 10?
    The Chairman. That is a nice discourse; however, I don't 
know that it really gets to the heart of investing and 
prioritizing.
    Mr. Schweinhart. I already said half.
    The Chairman. Sometimes when we vote around here, I mean, 
we have got to say how much money we invest, being clear about 
how we focus our efforts? This committee and the Appropriations 
Committee, I chair, don't focus very much on early childhood 
education. We make some investments, like in Head Start, but I 
am really talking about investing more in the educational 
component of early childhood.
    Head Start, that is under Health and Human Services, not 
the Department of Education. So, from an educational standpoint 
of the dollars we spend, what would be the priority because I 
assume you would say 0 to 1. I am just talking about preschool, 
elementary, and secondary education.
    Mr. Pianta.
    Mr. Pianta. Put the dollar in preschool.
    The Chairman. Pardon?
    Mr. Pianta. Put the dollar in preschool. I mean, you 
already know that you are going to get the dollar back later 
on. Put the whole thing in.
    The Chairman. You are with Ms. Zalkind, but that is kind of 
impossible.
    [Laughter.]
    Mr. Pianta. Well, it is--you know?
    The Chairman. Well, because we have other things we must 
also invest in terms of teacher quality and a lot of other 
things that we are doing in ESEA.
    Ms. Zalkind. Well, I still would say put the dollar in 
preschool. But I think if you flip the paradigm around and 
spend a larger majority on early education and then as you go 
up, in middle school and high school, graduate those 
percentages down, not up as the way it is currently configured.
    The Chairman. Well, I think I got the answer I was seeking 
and that is that the vast majority of you believe that most of 
the money ought to go into early childhood education. Right 
now, it is not, of course.
    Mr. Griswell. I think it is a system----
    The Chairman. It is, what, 2.8 percent? Now Senator Dodd 
said 4 percent. That is the number of kids. Four percent of the 
kids being served by title I preschool, but of the money, it is 
only 2.8 percent of the title I? Yes, 2.8 percent of kids. That 
is right. That is what I said are served.
    Did you have something to say?
    Mr. Griswell. No, I was just going to make the point we are 
upside down. We are spending the most money at the most 
inefficient time, and the next most money at the next. It is 
absolutely upside down.
    The Chairman. Yes. Aside from the money thing, the other 
thing that you have all spoken about and I thought about as I 
read your testimonies yesterday, almost all of you kind of hit 
on this one way or the other, and that was aligning the 
preschool programs with the elementary programs.
    Now we are going to make some changes in the elementary 
program. We are going to change No Child Left Behind. I think 
we have a consensus among all of us here to change it. So give 
me a little bit deeper answer on how to align the programs 
and--in other words, we have got to make sure that whatever 
education programs we use, early childhood fits into so that 
these kids can go right into kindergarten prepared to succeed. 
Is that what you are telling me? Yes?
    Ms. Zalkind. That there are smooth transitions from home to 
childcare, from childcare to school, and that there is a 
vertical alignment that people are working off of curriculums 
that are developmentally appropriate for each different age and 
stage of a child's healthy growth and development.
    And these experts know far more than I about how that 
happens, but there is a natural progression of how children 
learn, and right now, it is not synched.
    Mr. Schweinhart. We almost have a cultural collision 
between early childhood education and the schools, and what we 
need to do is recognize that that is coming from us adults and 
not from the children's needs. And so, we need to minimize the 
most discrepant areas of that culture so that kids are--just 
having childcare and Head Start and other early childhood 
educators meeting with kindergarten, first grade teachers would 
be a really great thing to do, and it doesn't happen very 
often.
    Mr. Pianta. You have got the mechanism of standards. You 
have got the mechanisms of assessments. You have got the 
mechanisms of teacher qualifications. All those are points of 
contact that I suspect you can point people in the right 
direction to get themselves aligned.
    The Chairman. Right. Right. I believe that is a very 
important aspect of what we are going to do.
    The second thing has to do with qualifications. Now we are 
dealing a lot with that in elementary and secondary education. 
But as Mr. Pianta said, only one State requires that directors 
of childcare centers hold a Bachelor's degree. And you pointed 
out here, that at least 50 percent of the lead teachers in Head 
Start must have a B.A. degree by 2013 and then you said only 10 
States required some vocational program certificate or CDA, and 
13 States had no requisite educational qualification for 
childcare teachers.
    Quoting you further, you said capable early education is a 
complex and challenging task. Teachers need to know a lot about 
basic child development, far more than the typical course, and 
they need to know about how to teach and stimulate vocabulary, 
conversations, early literacy, knowledge of science, the 
community, all the while handling sensitively the varied needs 
of these kids.
    So have we done enough to, again, try to promote, provoke, 
prod States to develop better criteria, qualifications? We need 
to do more of that is what you are telling me?
    Mr. Pianta. Yes. And I think we need to do more in a couple 
of different ways. So I would not--I don't think it is going to 
be sensible to send everybody off to get degrees and coursework 
unless we know that is going to help those kids that they are 
teaching. So I think we need to do a much better job of 
articulating the behaviors, what are the behaviors we want to 
see teachers demonstrating in classrooms, and what are the 
kinds of knowledge base that they need to have to do what I 
just described that you quoted?
    I think we have a lot of evidence in place now to be able 
to make fairly clear statements about those features of 
qualification. Then the issue is how do we create policy that 
incents participation in the kind of professional development 
that gets teachers to those places? Whether that occurs in a 
university, whether that occurs in a local community kind of 
training, or whether the State does it, I think we can be 
agnostic about that. We just need to incent people to be 
participating in things that we know are effective.
    I think this is something we know now that we didn't know 
10 or 15 years ago.
    Ms. Zalkind. And tying the funding to that is a way to 
incentivize that. So, for instance, our State More at Four 
program, which is our public pre-K program for 4-year-olds, you 
have to be B-K certified by a certain time. You can teach in 
that classroom, but you have to take 6 semester hours a year 
toward your B-K, and I think it is by the end of the third 
year, you have to be B-K certified or else you have got to get 
a waiver.
    It is hard, but it is also, I think, one of the 
recognitions that childcare--the childcare industry itself is 
an economy, and there are people working and employed in 
childcare that you don't want to push out. You want to add 
value and add skills to that knowledge base, but there are 
things that happen in formal education that are necessary to do 
a good job, especially when you are dealing with 4-year-olds, 
many of whom who have not been in childcare before. So that 
takes a skill level that you learn at school.
    Mr. Griswell. I would like to just agree 100 percent with 
what Bob Pianta just said because--and be clear that I was 
certainly strongly in favor of seeing more teachers with 
Bachelor's degrees in Head Start. But what I am more concerned 
with is having teachers in Head Start and other early childhood 
programs who know exactly what they are supposed to do and do 
it.
    And to the extent that we have dollars that are difficult 
to decide priorities on, we need to focus on making sure they 
know how to be good teachers.
    The Chairman. Well, this has been stimulating. I can't tell 
you how much I appreciate it.
    I really wanted this panel.
    [Laughter.]
    I really am determined to do something in this ESEA on 
early childhood education, and we are talking about that here. 
I think what you have done here today in your testimony and 
your written testimony has added a lot to, again, giving us the 
wisdom you have gained through your work in this area.
    I would just ask each of you if you would--we will keep the 
record open for 10 days if somebody has any questions. But 
beyond that, I just hope that you will also continue to be 
available to us and to our staff for any kind of questions, 
suggestions, or advice. As we move ahead in this, I would 
certainly appreciate that.
    And if there is anyone else in the audience who has any 
ideas on this, we are open for that. We have a specific e-mail 
address. It is called <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2c495f494d4f4341414942585f6c4449405c025f49424d5849024b435a02">[email&#160;protected]</a>
    So <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7114021410121e1c1c141f05023119141d015f02141f1005145f161e07">[email&#160;protected]</a>, and we invite you to 
submit suggestions.
    Well, again, thank you all very much, and the committee 
will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

 Prepared Statement of Richard (Rick) Stephens, Senior Vice President, 
         Human Resources and Administration, The Boeing Company
    Chairman Harkin, Ranking Member Enzi, members of the committee, 
thank you for the opportunity to provide this statement to the record 
in support of the reauthorization of the Early and Secondary Education 
Act that you are currently considering.
    I know you have already heard from a number of others on this 
matter, but it is important to me both personally and as a 
representative of Boeing, one of the Nation's largest exporters and 
employer of many thousands of technologically gifted Americans, that 
our Nation take all necessary steps to maintain the technological lead 
that we have enjoyed for many years. Reauthorizing this legislation is 
an important step in that direction.
    Before I explain why--at least from our perspective--let me take a 
moment to talk about Boeing's long-standing commitment to improving 
education. The Boeing Company was founded in 1916 and made its first 
education-related investment outside the company in 1917--to the 
University of Washington's engineering department.
    In the years since, we have expanded our investments into K-12 
programs. Back in 2000, the company reviewed the results of its K-12 
investments and discovered that we weren't seeing the results we 
wanted. It wasn't that the kids weren't intelligent, and it wasn't that 
the teachers weren't trying. Unfortunately, we discovered that children 
were showing up at kindergarten up to 3 years behind their peers who 
had access to quality early learning experiences.
    So in 2001, Boeing launched a number of investments in early 
learning--primarily from birth to 5 years old. We focused on social, 
emotional and cognitive readiness, and we reached out both to parents--
the child's first and most important teachers--and to formal caregivers 
like childcare workers, as well as informal caregivers like families, 
friends and neighbors to provide them with tools and strategies to aid 
children's educational readiness.
    As you know, Mr. Chairman, the lack of readiness is a big deal. You 
have reviewed the same research we have--all of which indicates that 
kids who start kindergarten behind their peers tend to stay behind 
them, and that nearly all schools lack the considerable resources 
required to catch those kids up with their peers. It isn't impossible 
for them to catch up, but it requires a substantial investment to 
compensate for not capitalizing on the profound learning that occurs 
early in life.
    Authorities across the country recognize the importance of 
investing in early childhood development. The Federal Reserve Bank in 
Minnesota, for instance, found that early learning is one of the best 
economic development engines out there--providing up to a 17 percent 
return on every dollar invested. They note that quality early learning 
experiences result in lower remediation, reduced incarceration, more 
stable employment, lower teen pregnancies, higher educational 
attainment, higher salaries and the higher income tax revenues they 
bring, and other benefits.
    Nobel Laureate James Heckman also studied the rates of return on 
investments made at various points in the education system. His 
conclusion was similar to the Federal Reserve's--that the highest 
investment returns are on funds invested in the early years of 
education.
    There is, of course, a clear and compelling business case for 
Boeing's efforts on this front. We need to help develop and prepare the 
future technological workforce that will help Boeing, our industry and 
our Nation remain competitive in our increasingly global economy. To do 
that, we need students who are excited about and engaged in learning, 
and that attitude has to be formed early.
    It won't surprise you, Mr. Chairman, to hear that companies like 
Boeing are having trouble filling all the positions we have that 
require people with skills and experience in science, technology, 
engineering and mathematics.
    We view the deficit as a skills shortage, not a people shortage. 
Simply put, there aren't enough people graduating with the right skills 
to meet the needs of our economy.
    While the numbers of U.S. graduates in engineering and the sciences 
are flat or declining, emerging nations like China and India are 
intentionally funneling many of their best and brightest into those 
areas--by some accounts doubling their output of technologically 
advanced graduates in recent years.
    We in the United States need the same commitment to our children, 
but it is often too late to reach them in junior high or high school, 
because apathy towards education or poor study habits are already 
deeply ingrained in students by then. Students who start in the system 
behind their peers remain behind and that contributes to their apathy.
    From our perspective, reaching children at the earliest stages 
helps not only Boeing, but all our Nation's industries, because getting 
kids fully engaged in education allows them to dream big dreams and 
achieve them, but it also allows our Nation to benefit from the amazing 
innovations that those dreams fuel. It would be a shame to lose, for 
instance, the one idea that would revolutionize air travel just because 
we didn't catch the kid who had that idea early enough to keep her 
engaged in the sciences long enough to pursue it.
    We're not just asking the Federal Government to assume full 
responsibility for this effort. Companies like Boeing are part of the 
solution too. Here are some of the things we're doing to support early 
childhood education as part of our broad approach:

    1. We challenge parents of young children to take an active role in 
creating an environment that nurtures creativity and learning, because 
we know that parents are the key to helping children reach their full 
potential. And we provide parents and caregivers with resources to 
strengthen their roles as children's first teachers.
    2. We work to ensure that U.S. colleges and universities produce 
enough qualified teachers. When teachers at any level are neither 
proficient nor inspiring, too many of our young people miss 
foundational instruction, fall hopelessly behind and lose interest in 
school. The price our Nation pays in that scenario is a steep one.
    3. We believe that improving education isn't just about fixing 
schools. It's not that some schools don't need work--they do--but we 
must take a broader look at solutions. We must establish a symbiotic 
relationship between educators, students, business and industry, and 
the media.
    One way we're doing that is by bringing together what I call a 
coalition of coalitions--a diverse group of organizations from the 
public, private and non-profit sectors, all of whom are either 
specifically focused on, or have a vested interest in, improving our 
educational system. The Business and Industry Science, Technology, 
Engineering and Math Education Coalition (BISEC), consisting of nearly 
30 business and industry associations representing 20 million 
employees, has three main goals:

        a.  Identifying activities that work to improve student 
        outcomes and understanding how to scale those efforts that make 
        a difference.
        b.  Aligning and leveraging information and resources so others 
        can learn about successful efforts and deploy them more 
        broadly.
        c.  Partnering with main stream media to change the predominant 
        negative view parents and students have about science, 
        technology, engineering and mathematics.

    BISEC's effort is focused specifically on science, technology, 
engineering and mathematics, but the model it represents is an entirely 
appropriate one for improving early childhood education too. This 
approach is a natural extension of the aerospace industry's systems 
engineering expertise--the ability to view large, complex systems as 
integrated wholes--to bring people together, particularly those who 
fund complimentary efforts, to enhance public/private partnerships and 
expand the reach of the most effective programs.
    Boeing has a long and strong commitment to improving education. 
It's one of the reasons we feel it is so important for us as a company 
to weigh in on early childhood education matters like this.
    This effort is critical to our Nation's future, and it requires the 
best ideas from the public and private sectors. It requires us to 
cooperate with and support each other. In short, it requires the best 
of each of us. Our children and our Nation deserve nothing less than 
that.
    As you noted in your opening statement, Mr. Chairman, ``ESEA 
reauthorization offers an important opportunity to help States and 
school districts ensure that more young children are prepared to 
succeed in school.'' We at Boeing strongly agree with that statement, 
and we strongly support your committee's efforts to reauthorize this 
important legislation.
    Thank you again for the opportunity to express that support.

    [Whereupon, at 4:17 p.m., the hearing was adjourned.]

                                   

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
